                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   JAN 30
for Afghanistan Reconstruction




                                 SIGAR | Quarterly Report to the United States Congress | JAN 30, 2010
                                                                                                                                Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4
                                 1                                                                       Quarterly Report to the United States Congress
SIGAR
Special Inspector General




                                                   SIGAR | Quarterly Report to the United States Congress | Oct 30, 2009
for Afghanistan Reconstruction

2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




    Cover Captions (clockwise from top left):
    An Afghan opium addict leaves the
    dilapidated former Soviet Cultural Center,
    where drugs are often bought and used,
    to seek help at the Drug Treatment and
    Rehabilitation Center in Kabul. The center
    runs a 45-day program to wean addicts off
    drugs. (Associated Press photo)

    An Afghan farmer drives his harvest through
    the Nawa district bazaar in Helmand prov-
    ince. Increased rainfall in 2009 has
    improved overall crop yield but also
    highlights Afghanistan’s need for modern
    irrigation infrastructure. (UNODC photo)

    An Afghan woman takes part in medical
    training. The Afghan government has identi-
    fied education for women as a key factor in
    acheiving gender equality. (U.S. Embassy
    Kabul photo, Dan Wilkinson)

    An Afghan honor guard greets U.S. Secretary
    of Defense Robert Gates during his visit to
    Kabul following President Obama’s
    announcement to send 30,000 additional                                                                                       In 2001, the Taliban destroyed the two oldest statues of Buddha in the world—the Bamyan Buddhas. Today,
    U.S. troops to Afghanistan. Securing key
    population centers and training Afghan
    security forces are significant components
    of the new Afghanistan strategy. (DoD Photo,
                                                   4                                                                           the Bamyan Valley is Afghanistan’s first national park, drawing thousands of ecotourists to its ancient ruins and
                                                                                                                           Quarterly Report                  to the     United States Congress
                                                                                                                                       deep blue lakes. This quarter, UN officials urged the international community to help the Afghan
                                                                                                                                    government rebuild the monuments, and Afghan officials announced that an international conference
                                                                                                                                              will meet in Kabul in March to begin planning the project. (Photo by Tracy Hunter)
    U.S. Air Force MSgt Jerry Morrison)
sigar                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                    Jan 30
                                                                                     2010




The National Defense Authorization Act (P.L. 110-181) established
the Special Inspector General for Afghanistan Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
•	 conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
•	 leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations; and prevent and detect waste, fraud, and abuse in such programs
   and operations.
•	 means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration
   of such programs and operation and the necessity for and progress on corrective
   action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available for the re-
construction of Afghanistan; establish or re-establish political or societal institutions of
Afghanistan; and provide products or services to the people of Afghanistan.

Source: P.L. 110-181 “National Defense Authorization Act for FY 2008,” 1/28/2008.
Islamic Republic of Afghanistan

                                                 UZBEKISTAN                                                            CHINA
                                                                                                          TAJIKISTAN



          TURKMENISTAN                 JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                      BALKH                      TAKHAR


                                                           SAMANGAN
                           FARYAB                                BAGHLAN
                                       SAR-E PUL                        PANJSHIR
                                                                                NURISTAN
                 BADGHIS
                                                                PARWAN KAPISA        KUNAR
                                                     BAMYAN                  LAGHMAN
                                                                     KABUL
        HERAT                                               WARDAK
                                                                               NANGARHAR
                           GHOR                                    LOGAR
                                        DAYKUNDI                      PAKTIYA
                                                             GHAZNI                KHOWST

                                     URUZGAN
         FARAH
                                                                       PAKTIKA
                                                   ZABUL



                                                                                               PAKISTAN
        NIMROZ
IRAN             HELMAND
                                  KANDAHAR
                                     SPECIAL INSPECTOR GENERAL              for

                                     AFGHANISTAN RECONSTRUCTION



January 30, 2010


    I am pleased to provide SIGAR’s sixth quarterly report to the Congress and the Secretaries of Defense
and State. In compliance with the requirements in Section 1229 of P.L. 110-181, this report provides an update
on the status of reconstruction programs in Afghanistan and documents SIGAR’s activities for the quarter
ending December 31, 2009. Since 2002, the Congress has appropriated approximately $51 billion to rebuild
Afghanistan, and additional funding is likely for FY 2011.
    I just returned from my sixth trip to Afghanistan, where the United States has begun to implement
the new strategy articulated by President Barack Obama in December 2009. The U.S. military and civilian
surge is intended to stabilize the country and create an 18-month window of opportunity to strengthen the
Afghan government’s ability to take the lead in providing for its security and delivering essential services
to its people.
    To take full advantage of the opportunity created by the surge, the U.S. government needs to
improve the way it designs and implements reconstruction programs. More attention must be paid in
these four areas:
•	 matching the appropriate human and financial resources to achieve policy objectives
•	 developing metrics to effectively measure project and program results to ensure that reconstruction
   goals are being met
•	 providing better oversight of contractors
•	 increasing efforts to deter corruption
The new transition strategy largely depends on accelerating the U.S. and international effort to train, equip,
and mentor the Afghan National Security Forces (ANSF). The U.S. government has apportioned almost $27
billion—more than half of all reconstruction dollars—to build the ANSF. In 2009, audits by the Government
Accountability Office and the Department of Defense Office of Inspector General identified a shortage of
U.S. trainers and coalition mentors as a major impediment to strengthening the Afghan security forces. An
audit by SIGAR last May found that the Combined Security Transition Command - Afghanistan (CSTC-A),
which is responsible for training the ANSF, did not have sufficient oversight of its contracts that provided
training and mentoring. Despite these audit findings, U.S. commanders in Afghanistan recently told me that
they still urgently need trainers, mentors, and contracting officials.
    SIGAR has nine ongoing audits of U.S. reconstruction efforts, six of them related to security, including
reviews of construction contracts for ANSF facilities and assessments of programs that are central to the U.S.
strategy to transition responsibility for security to the Afghan government. For example, one of these audits is
evaluating the degree to which the capability rating system provides a reliable measurement of ANSF capacity.




                           2221 South Clark Street, Suite 800   Arlington, Virginia 22202
    Under the new strategy, the United States and its international partners are also focused on improving
governance and creating sustainable economic growth in Afghanistan. One of the key governance issues
is corruption, which erodes public confidence and undermines development efforts. During this quarter,
SIGAR issued two audits as part of the anti-corruption initiative we began last year. The first audit assessed
Afghanistan’s High Office of Oversight (HOO) and found that it needs significantly more authority, indepen-
dence, and donor support to be an effective anti-corruption institution. The second audit identified steps
the U.S. government needs to take to better plan and coordinate its assistance for judicial security, which
is vital to the rule of law and sustainment of judicial programs.
    SIGAR’s audits focus not only on individual contracts but also on how these contracts fit into larger
programs and how these programs support U.S. strategic goals. For example, this quarter SIGAR published
two audits related to development in the energy sector. One reviewed U.S. and international efforts across
the energy sector. The second assessed a single project—the $300 million Kabul Power Plant—which has
experienced serious delays and cost overruns. These audits identified systemic problems that result in the
potential waste of U.S. taxpayer dollars, including the lack of an updated master energy plan, poor contract
management, inadequate coordination, and questions about sustainability.
    SIGAR is equally committed to detecting and deterring fraud. During this reporting period, we began a
forensic analysis of U.S. reconstruction funds in order to systematically detect indicators of potential fraud or
waste. This analysis will be used to identify targets for focused audits and criminal investigations. This quarter,
our Criminal Investigations Directorate opened 17 new cases and made a written recommendation to initiate a
suspension and debarment action against a major subcontractor for a U.S.-funded energy project. SIGAR also
participated in the investigation that resulted in the sentencing of two contractors for attempted bribery.
    SIGAR’s oversight—our audit reports and investigations—is an essential part of the reconstruction
effort, helping U.S. agencies improve their performance and prevent fraud, waste, and abuse. We will con-
tinue to report on contracts and programs to identify problems and recommend corrective actions. We will
investigate allegations of fraud and malfeasance. We will follow up to ensure that our work continues to
make a difference, leading to more accountability and better reconstruction outcomes.


Very respectfully,




Arnold Fields
Special Inspector General for Afghanistan Reconstruction




                           2221 South Clark Street, Suite 800   Arlington, Virginia 22202
table of contents




       Section 1
       Afghanistan Overview
        New Strategies				                   3
        Security					                        5
        Governance					                      6
        Development					                     7
        Coordination of Oversight			         9

        							



       Section 2
       SIGAR oversight	
        Audits					                          13
        Investigations					                  32
        SIGAR Budget					                    34
        SIGAR Staff					                     35




       Section 3
       reconstruction
       Update 	
        Overview					                        39
        Status of Funds				                  43
        Security					                        59
        Governance					                      77
        Economic and Social Development		    97
        Counter-Narcotics	                  111
table of contents




   Section 4
   other agency Oversight	
    Completed Oversight Activities		           123
    Ongoing Oversight Activities			            123
    Other Agency Investigations			             133
    Other Agency Inspections			                133




   Appendices	
    Appendix A: 	Cross-Reference of Report 	    136
      	          to Statutory Requirements
    Appendix B: 	U.S. Government Appropriated 	 140
      	          Funds		
    Appendix C: 	SIGAR Audits 	                 142
    Appendix D: 	SIGAR Hotline and 	            144
      	Investigations	
    Appendix E: 	Acronyms and Abbreviations	    145




   Endnotes		                                  148
              Reconstruction Challenges
              Contractors continue work on the Kabul Power Plant. This
              quarter, a SIGAR audit examined the project, which is already
              behind schedule by one year. The delay will increase costs
              by at least $40 million. (SIGAR photo)




8   Special inspector general   I   Afghanistan reconstruction
1   afghanistan
    overview




        1
         afghanistan overview




 “[W]e will seek a partnership with
  Afghanistan grounded in mutual
   respect—to isolate those who
 destroy; to strengthen those who
 build; to hasten the day when our
  troops will leave; and to forge a
lasting friendship in which America
   is [Afghanistan’s] partner, and
   never [Afghanistan’s] patron.”
                —U.S. President Barack Obama




         Source: White House, press release, “Remarks by the President in Address to the Nation on the Way Forward in
         Afghanistan and Pakistan,” 12/1/2009.




              2                         Special inspector general                 I   Afghanistan reconstruction
                          afghanistan overview




Afghanistan Overview
During this reporting period, the United States and its international partners
announced plans to improve security in Afghanistan. They also began implement-
ing new reconstruction strategies focused on helping the Government of the
Islamic Republic of Afghanistan (GIRoA) build its capacity to assume respon-
sibility for its own security and to deliver essential services to its population.
To enable the Afghans to take charge of their future, the United States and the
international community are accelerating efforts to build the Afghan National
Security Forces (ANSF), improve governance, and develop the economy.

New Strategies
In December, President Barack Obama announced that the United States would
send an additional 30,000 troops to Afghanistan to “seize the initiative, while
building the Afghan capacity that can allow for a responsible transition of our
forces out of Afghanistan.”1 President Obama said the United States intended to
begin withdrawing its troops from Afghanistan in the summer of 2011. He thus
established a time frame of 18 months to effect a transition strategy.
   The President said that the United States will work with the international
community not only to increase the ongoing effort to train and mentor Afghan
security forces, but also to develop a more effective civilian strategy that will
enable the GIRoA to take advantage of improved security. The United States
is deploying hundreds of additional civilian experts to partner with Afghans to
enhance the capacity of national, provincial, and district government institutions.
This civilian surge will also be involved in economic assistance programs in criti-
cal areas, such as agriculture, which can immediately help improve the lives of
the Afghan people.
   The Secretary-General of the United Nations (UN) noted in his latest report
to the UN Security Council that both the GIRoA and the international com-
munity “have identified the need to significantly refocus the Afghan National
Development Strategy in order to improve its implementation.”2 At the end of
January, U.K. Prime Minister Gordon Brown, Afghan President Hamid Karzai,
and UN Secretary-General Ban Ki-moon were scheduled to host an interna-
tional conference in London to re-evaluate Afghanistan’s reconstruction needs
and to coordinate international support for a transition strategy that empha-
sizes improving security and building sustainable governmental institutions
that can deliver services and foster economic development for Afghan citizens.
The London Conference will be followed by a second international conference



         Report to the united states congress   I   January 30, 2010          3
afghanistan overview




Top presidential advisors listen to President Barack Obama’s speech on the new U.S. strategy
in Afghanistan given at the West Point Academy. (White House photo, Pete Souza)


in Kabul in the spring. The Kabul Conference could provide an opportunity
for the GIRoA to request international funding for specific projects linked to a
strategic plan.
   The U.S. government is beginning to change the way it implements develop-
ment assistance in Afghanistan and across the globe. In her January 8, 2010
speech to the Center for Global Development, Secretary of State Hillary Clinton
outlined the new approach, which includes 1) working in greater partnership
with developing countries to design and implement assistance programs and
2) relying less on private contractors to develop, execute, and evaluate projects.3
This means that the United States will increase its reliance on GIRoA institutions
for reconstruction programs.
   Since 2002, the United States has provided approximately $51 billion for the
reconstruction of Afghanistan. Given the new strategy, the Administration is
expected to request additional appropriations for Afghanistan’s reconstruction
for FY 2011.
   As part of its oversight mission, SIGAR is conducting focused contract audits
and program reviews to deter and detect fraud, waste, and abuse; it is also pay-
ing particular attention to the new U.S. development strategy. SIGAR is assessing
whether U.S-funded reconstruction projects and programs in the security,
governance, and development sectors are aligned and resourced to achieve the
conditions that would allow the United States to meet its objective to begin with-
drawing troops from Afghanistan in the summer of 2011.



   4                  Special inspector general    I   Afghanistan reconstruction
                           afghanistan overview




Security
Since last quarter, security deteriorated throughout most of Afghanistan, affect-
ing every aspect of the reconstruction effort. The UN reported that civilian
casualties have increased and that insurgents are targeting community lead-
ers and clerics. Violence reduced the GIRoA’s already limited ability to deliver
basic services, thereby contributing to growing discontent with the government.
Describing deteriorating security as “the single biggest impediment to prog-
ress,” the UN Secretary-General said, “Insurgents increasingly capitalized on
the limited Government presence by instituting shadow provincial administra-
tions, collecting taxes, administering ‘justice,’ resolving land disputes, executing
alleged criminals, and enforcing conservative social habits.”4
   Attacks increased on aid workers delivering humanitarian assistance and on
contractors implementing reconstruction projects. Two SIGAR audits issued this
quarter identified deteriorating security as one of the major causes for delays in
completing U.S.-funded projects in the energy sector.
   The success of the U.S. and international strategy for improving security rests
on building effective Afghan security forces. The United States has apportioned
half of its reconstruction funding—almost $27 billion—to train and equip the
Afghan National Army (ANA) and the Afghan National Police (ANP). SIGAR has
six ongoing audits examining various aspects of the U.S.-funded reconstruction
effort in the security sector. Among them are three audits reviewing construc-
tion contracts to build Afghan military and police facilities in Farah, Kunduz, and
Nangarhar provinces and one audit assessing the construction contract for the
Joint Regional ANSF Complex in Kandahar.
   In the other two audits, SIGAR is also evaluating how the United States mea-
sures the capabilities of the ANSF and the ANSF personnel management systems.
These two audits address issues that are central to the success of the U.S. strat-
egy to transition responsibility to the GIRoA for its own security. The first audit is
assessing 1) the methods being used to measure and verify ANSF capabilities,
2) the degree to which readiness assessment methods vary between and within
the ANA and the ANP, 3) the degree to which the capability rating system
provides a reliable profile of ANSF capabilities, and 4) the extent to which chal-
lenges, such as the security environment, have impeded U.S. efforts to assess
ANSF capabilities. The second audit is evaluating the extent to which the ANSF
have developed accurate systems to account for personnel.
   As the United States and the international community push to build the ANSF,
SIGAR believes it is critical that the training and mentoring efforts are properly
resourced. The Combined Security Transition Command - Afghanistan (CSTC-A)
must monitor the effects of the accelerated pace on overall force quality, which
includes keeping track of ANSF rates of attrition and the extent to which capac-
ity gains attained through training are sustained over time. It is vital that the
ANSF have the logistics capacity and facilities to support its army and police
forces. The most important measure of the success of U.S. reconstruction pro-
grams in the security sector will ultimately be the degree to which the Afghan
people see the ANSF as legitimate and effective.



         Report to the united states congress   I   January 30, 2010             5
afghanistan overview




Governance
On November 19, 2009, President Hamid Karzai was sworn in for a second term
as president of Afghanistan, following an election marred by extensive fraud. The
elections highlighted serious problems of governance, including corruption, and
led the United States and its international partners to call on the new admin-
istration to undertake immediate reforms to improve governance and combat
corruption. As Secretary Clinton said during a press conference with the German
Foreign Minister in November, “We are very clear that we will be expecting more
from the Government of Afghanistan.”5
   In his inaugural speech, President Karzai addressed international concerns
and outlined his priorities, putting national reconciliation and the transition
of responsibility for security to the ANSF at the top of the list. He also said his
administration was committed to improving governance through administrative
reforms, capacity building in government institutions, and the prosecution of
individuals engaged in corruption.
   The U.S. strategy to improve governance in Afghanistan includes a civil-
ian surge to help build the capacity of Afghanistan’s public institutions at the
national, provincial, and district levels to prepare them to govern when U.S.
combat troops depart. The United States intends to triple the number of civilians
in Afghanistan to 974 by early this year.6 Department of State (DoS) officials say
they expect this number to increase by 20−30% by the end of 2010. SIGAR will
begin an audit later this year to determine if the civilian surge is on schedule and
is achieving its intended objectives.
   The U.S. government also intends to request additional funding from the
Congress for foreign assistance programs in Afghanistan.7 Under the new U.S.
development strategy, U.S. agencies will be working in greater partnership with
Afghan governing institutions to develop and implement reconstruction projects.
This approach will help build much-needed capacity in Afghanistan’s public insti-
tutions, but it also requires that these institutions have the ability to account for
donor funds and the mechanisms in place to deter corruption.
   Because corruption corrodes the government’s legitimacy and undermines
international development efforts, strengthening the GIRoA’s capability to fight
corruption must be an integral part of the U.S. reconstruction strategy. Although
SIGAR believes that it is desirable for the GIRoA to be much more involved in
every aspect of reconstruction, Afghan institutions also must have the capacity
to manage the funds and protect them from fraud, waste, abuse, and other forms
of corruption. Therefore, SIGAR launched an initiative last year to assess 1) what
the United States and other donor countries are doing to build the capacity of
Afghan institutions to deter corruption and strengthen the rule of law and 2) the
extent to which various national and local institutions have systems in place to
account properly for donor funds.
   During this reporting period, SIGAR issued two audits as part of its anti-
corruption program. The first audit found that the High Office of Oversight
(HOO), Afghanistan’s principal organization responsible for overseeing and




   6                Special inspector general   I   Afghanistan reconstruction
                              afghanistan overview




President Hamid Karzai was inaugurated for his second term on November 19, 2009. He
addressed international concerns and outlined his priorities for Afghanistan. (U.S. Embassy
Kabul photo, Dan Wilkinson)

combating corruption, needs significantly more authority, independence, and
donor support to become an effective anti-corruption institution. The second
audit identified steps the United States needs to take to better plan and coordi-
nate its assistance for judicial security.
   SIGAR has two additional audits under way as part of its anti-corruption
initiative. One is reviewing U.S. and other donor efforts to strengthen the capa-
bilities of Afghanistan’s Control and Audit Office (CAO); the other is assessing
accountability for the payment by the U.S. Agency for International Development
(USAID) of salaries to Afghan government officials and advisors.
   The United States and the international community view elections as vital to
sustained good governance. Last year’s presidential and provincial council elec-
tions revealed weaknesses and strengths in the electoral process. For example,
although the system did not prevent fraud, it was able to detect it. Next quarter,
SIGAR will issue a final report that identifies lessons learned from the 2009 elec-
tions and makes recommendations for electoral reform.

Development
The new U.S. strategy underscores economic development as a vital component
of the overall effort to secure and stabilize Afghanistan. Much of the focus of
the civilian surge will be on rehabilitating key economic sectors to establish the
foundation for growth that is necessary to undermine the insurgency in the short
term and sustain economic development in the long term. The top development
priority now is to restore Afghanistan’s once vibrant agriculture sector.




          Report to the united states congress       I   January 30, 2010                7
afghanistan overview




    The new strategy emphasizes agriculture for two reasons. First, most Afghans
depend on subsistence agriculture for their livelihoods. Second, poppy for
opium production generates more total income than any other crop. The illicit
drug trade fuels the insurgency, exacerbates corruption, and undermines good
governance. Developing alternative crops to increase Afghan legal income from
agriculture is central to a core U.S. objective to reverse the Taliban’s momen-
tum in Afghanistan. SIGAR is planning audits in the agriculture sector. One will
evaluate the DoS Good Performer’s Initiative, which rewards those provinces
that reduce poppy cultivation. Another audit will review U.S. and international
assistance across the agriculture sector.
    SIGAR is conducting these sector audits to assess the status of U.S. projects
within a sector and the degree to which the United States coordinates its efforts
with other international donors and the GIRoA. Although the United States
is the single largest contributor of development funds, the reconstruction of
Afghanistan is a multi-national effort, and well coordinated programs are neces-
sary to prevent waste. SIGAR conducted the first of these reviews in the energy
sector and issued its report this quarter.
    SIGAR’s audit of the energy sector found that the GIRoA does not have an
updated master plan for the energy sector. As a result, many energy projects are
being implemented across the country in an ad hoc manner, rather than as part
of an integrated strategy. SIGAR also concluded that although the international
efforts have increased Afghanistan’s electricity production, the GIRoA faces
serious challenges to sustaining existing facilities. For example, the Afghan elec-
tricity utility lacks the ability to collect revenue from end users and the capacity
to operate and maintain power plants and transmission lines.
    During this quarter, SIGAR also examined the $300 million USAID-funded
project to build the Kabul Power Plant. The report identified a wide range of
factors—from land issues and ambiguous statements of work to subcontrac-
tor performance and problems with customs clearance—that contributed to
construction delays and increased costs. SIGAR also found that the decision by
the GIRoA and the United States to build a dual-fuel use facility that can run on
either diesel or heavy fuel oil has increased construction costs and raises long-
term sustainability issues. Dual-fuel facilities are far more complex to operate
and maintain than single-fuel ones. SIGAR recommended that the USAID Mission
director conduct a study on the technical feasibility and advisability of using
heavy fuel oil in the Kabul Power Plant. The USAID Mission said this study will
be prepared by March 2010.
    SIGAR believes that it is necessary to conduct a broad spectrum of audits that
look at individual contracts as well as programs to produce a useful evaluation
of how well the reconstruction program is working in Afghanistan. Experience
in Iraq and elsewhere has shown that taxpayer dollars are often wasted because
projects are measured by outputs rather than outcomes. For example, a contrac-
tor may successfully deliver a power plant that complies with the contract (an
output), but if the Afghan authorities are not able to operate and maintain the
plant on a sustainable basis, the outcome will not be an increase in delivered



   8                Special inspector general   I   Afghanistan reconstruction
                              afghanistan overview




During his recent visit to Afghanistan, Special Inspector General for Afghanistan Reconstruction
Arnold Fields (left) meets with Muhammad Sharif Sharifi, the head of the CAO. The CAO is the
supreme auditing institution in Afghanistan. (SIGAR photo)


electricity and the U.S. investment will be wasted. SIGAR is focused on out-
comes. SIGAR also recognizes that close scrutiny of contracts helps identify
fraud. SIGAR’s auditors are working closely with its investigators to detect and
deter criminal activity.

Coordination Of Oversight
As reported last quarter, SIGAR is coordinating its audits and investigations with
other agencies in Washington and in the field. As a member of the Southwest
Asia Joint Planning Group, SIGAR meets every three months with other inspec-
tors general and the Government Accountability Office (GAO) to coordinate
audit activities in the region. A subgroup of the Southwest Asia Joint Planning
Group meets periodically to discuss ongoing and planned work in Afghanistan
and Pakistan. SIGAR also attends regular oversight coordination meetings at
U.S. Forces - Afghanistan (USFOR-A) headquarters. In addition, SIGAR’s audit
managers—both at headquarters and in Afghanistan—have regular conversations
with their counterparts from the GAO, the USAID Office of the Inspector General
(OIG), DoS OIG, and the Department of Defense OIG. The oversight agencies are
committed to ensuring that all important oversight issues are being addressed
and that there is no duplication of effort.
   SIGAR investigators and attorneys continue to closely collaborate with their
counterparts at other U.S. government agencies. SIGAR’s Deputy Assistant
Inspector General for Criminal Investigations is on the Board of Governors that
oversees the Joint Operations Center of the International Contract Corruption Task
Force (ICCTF). SIGAR also became the first task force member to assign a full-
time investigator to the ICCTF Joint Operations Center. The ICCTF is the principal
organization coordinating federal criminal and civil cases that involve procurement
fraud and corruption related to U.S. government spending in Southwest Asia.



          Report to the united states congress       I   January 30, 2010                9
               Training Afghan Security Forces
               Afghan commandos in Kandahar receive medical training
               from the platoon medic, who demonstrates the use of a field
               dressing bandage. (ISAF photo, SPC Christopher Hubert)




10   Special inspector general   I   Afghanistan reconstruction
2   SIGAR
    Oversight




       11
          SIGAR Oversight




     “We must not simply tally the
  dollars we spend or the number of
  programs we run, but measure the
lasting changes that these dollars and
  programs help achieve....We want
   partners who have demonstrated
  a commitment to development by
 practicing good governance, rooting
   out corruption, making their own
    financial contributions to their
          own development.”
     —U.S. Secretary of State Hillary Clinton




          Source: DoS, “Secretary Clinton’s Remarks on Development in the 21st Century,” accessed online 1/8/2010.




              12                         Special inspector general                 I   Afghanistan reconstruction
                                             SIGAR Oversight




SIGAR Oversight
Since its October 30, 2009 report to Congress, SIGAR increased its staff and sig-
nificantly expanded its oversight of the reconstruction program in Afghanistan.
It also streamlined its operations by consolidating the Inspections Directorate
under the Audits Directorate to enhance oversight of contracts, infrastructure
projects, and reconstruction programs. In addition, SIGAR moved the Hotline
to the Criminal Investigations Directorate to more effectively manage the entire
investigative process, from the initial allegation of criminal activity to the devel-
opment of a successful prosecution.


Audits
During this reporting period, SIGAR issued 4 audit reports and announced 7 new
audits, bringing the total of ongoing audits to 16. SIGAR also launched a forensic
audit program, which will use data mining and anomaly detection techniques to
identify potential fraud and waste in the billions of dollars spent for Afghanistan
reconstruction. This program is intended to identify opportunities for recovery,
areas of poor internal control, and areas where accountability does not exist.8

Completed Audit Reports
This quarter, SIGAR issued two audit reports as part of its ongoing anti-
corruption initiative to review what the United States and other international
donors are doing to build capacity to prevent corruption and strengthen the rule
of law within Afghan institutions. This work also focuses on the internal controls
and accountability procedures of key Afghan institutions.
•	 A SIGAR audit of the High Office of Oversight (HOO), the Afghan office
    charged to oversee and combat corruption, found that the HOO needs sig-
    nificantly more authority, independence, and donor support to become an
    effective anti-corruption institution.
•	 Another SIGAR audit outlined the actions that need to be taken to better
    plan and coordinate U.S. assistance for judicial security. Much of this audit
    remains restricted because it contains sensitive information.

   The other two audits SIGAR issued this quarter concern the critical
energy sector:
•	 A SIGAR assessment of U.S. and international efforts to increase the
   supply of electricity found that the Government of the Islamic Republic of




         Report to the united states congress   I   january 30, 2010            13
SIGAR Oversight




   Afghanistan (GIRoA) lacks an updated and integrated energy plan that
   establishes priorities, timelines, and costs linked to achieving the stated
   goals—despite the international investment of at least $2 billion in this
   sector since 2002.
•	 Another SIGAR audit identified problems causing significant delays and
   cost overruns in the construction of the Kabul Power Plant. The audit con-
   cluded that the long-term sustainability of the $300 million plant remains a
   serious challenge.
The following subsections summarize the four audits that SIGAR issued
this quarter.

Afghanistan’s High Office of Oversight Needs Significantly
Strengthened Authority, Independence, and Donor Support To
Become an Effective Anti-Corruption Institution, SIGAR Audit 10-2
Afghanistan suffers from systemic corruption that undermines international
and Afghan efforts to secure and stabilize the country. The Afghanistan National
Development Strategy (ANDS) recognized corruption as a critical problem
and stated that the GIRoA’s goal was to eliminate corruption in the public and
private sector. The Chief Justice of Afghanistan’s Supreme Court supervised
the preparation of a National Anti-Corruption Strategy, which was included as a
cross-cutting issue in the ANDS. In July 2008, President Hamid Karzai established
the HOO to oversee and coordinate the implementation of both the National
Anti-Corruption Strategy and administrative reform.

Objectives
This audit is one of a series of SIGAR audits to evaluate U.S. efforts to com-
bat corruption and strengthen the rule of law in Afghanistan. The audit had
three objectives:
•	 Identify the assistance provided by the United States and other donors to
   strengthen the institutional development of the HOO.
•	 Examine the capabilities and performance of the HOO in fulfilling its mandate.
•	 Assess the effectiveness of U.S. assistance to the HOO.

Findings
The audit had seven key findings:
1.	 SIGAR found that the HOO has undertaken two initiatives with varying
    degrees of success—an asset declaration process for public officials and a
    vehicle registration project. The HOO has not been able to do more because
    it suffers from significant gaps in capacity: It lacks sufficient independence
    and legal authority, it is seriously short of staff, and it struggles with a num-
    ber of other operational challenges. SIGAR concluded that the HOO needs
    a stronger commitment and better coordinated assistance from the United
    States and other donors.




  14                Special inspector general   I   Afghanistan reconstruction
                                            SIGAR Oversight




2.	 SIGAR found that, in contravention of generally accepted standards and ethi-
    cal codes for oversight organizations, both the Director General and Deputy
    Director General of the HOO are also employed as presidential advisors within
    the Office of the President. SIGAR believes that holding two government posi-
    tions simultaneously can, and in this case does, create a conflict of interest.
3.	 The existing GIRoA legislation does not provide the HOO with sufficient
    authority to be an effective oversight institution. While the HOO can collect
    information and determine whether a complaint warrants further investigation
    by other government agencies, it has no investigative or prosecutorial author-
    ity, nor does the legislation provide the HOO with adequate powers of enforce-
    ment. GIRoA agencies have no legal obligations to report corruption, and the
    legislation has no specified penalties for offices that refuse to cooperate with
    the HOO. Furthermore, the definition of corruption in the HOO legislation
    does not mention nepotism, and the Civil Service Code does not define conflict
    of interest or address the issue of making false claims.
4.	 The HOO currently has 100 employees—just 20% of the 500 staff members
    identified in its organizational chart. Its Prevention Department, which is
    responsible for working with government ministries to simplify bureaucratic
    procedures, has filled only 2 of its 26 authorized positions with private-sector
    salaries. HOO officials told SIGAR auditors that it is difficult to recruit quali-
    fied staff because salaries for many positions in the Afghan Civil Service are not
    competitive. The HOO is working with the Afghan Civil Service Commission
    to implement a merit-based pay and grade system. The HOO and the United
    Nations Development Programme (UNDP) are also considering a plan to have
    the UNDP fund a number of Afghan national positions at higher rates of pay
    than the Afghan Civil Service provides.
5.	 Although the HOO depends heavily on the international community for
    assistance, it has received limited financial support from the United States
    and other donors. The U.S. Agency for International Development (USAID)
    provided $1 million for the HOO from October 2008 to October 2009 through
    its Support for Strategic Needs of the Government of the Islamic Republic of
    Afghanistan Program, which is being implemented by the Asia Foundation.
    This money was used to pay staff salaries, purchase equipment, and support
    training. The Asia Foundation’s budget forecast calls for an additional $1.5 mil-
    lion through September 2010.
6.	 Most other international funding for the HOO comes through the UNDP’s
    Accountability and Transparency (ACT) Project, which was designed to help the
    GIRoA develop the capacity to deter corruption. Of the $22.3 million in the ACT
    budget, $7.3 million has been allocated to the HOO through March 2012. Through
    ACT, the UNDP has procured equipment, supported information technology,
    rented office space and vehicles, paid for security upgrades, and provided addi-
    tional international and national advisors in various HOO departments.




         Report to the united states congress   I   january 30, 2010           15
SIGAR Oversight




7.	 The HOO has also received limited assistance from the UN Office on Drugs
    and Crime (UNODC), the World Bank’s Management Capacity Program, the
    U.S. Department of Justice (DoJ), and the United Kingdom. The UNODC,
    the UN agency responsible for the implementation of the United Nations
    Convention against Corruption (UNCAC), helped the HOO coordinate the
    response of Afghan ministries to a self-assessment checklist used to gauge
    progress in UNCAC implementation. The UNODC also helped the HOO
    develop a database for its Asset Registration Department. The World Bank
    provided western-level salaries for a small number of experts hired by the
    HOO. Officials from DoJ, the United Kingdom, the UNDP, and the UNODC
    are also helping prepare draft revisions of the HOO legislation that will pro-
    vide the HOO with more authority.

Recommendations
To address the issues identified in this audit, SIGAR recommended that the U.S.
Ambassador to Afghanistan take these actions:
•	 Determine—in consultation with the HOO, USAID, and other donors—condi-
   tions on which to base future assistance. These conditions would include the
   enactment of mutually agreeable legislative reforms based on key principles
   that are necessary to enhance the HOO’s authority and independence, as well
   as the establishment by the HOO of measurable performance benchmarks.
•	 Urge through appropriate diplomatic channels that the HOO Director
   General and Deputy Director General either resign from their presidential
   advisory positions or resign from their HOO positions to remedy the impair-
   ment of personal independence.
•	 Designate an agency or individual to oversee U.S. assistance to the HOO, in
   terms of both institutional capacity building and legislative reform, in con-
   junction with international partners.
•	 Ensure that the designated agency or individual oversees the appointment
   of high-level advisors, such as judges and anti-corruption specialists, to be
   embedded at the HOO to provide sustained counsel, mentoring, and strategic
   advice to the HOO’s leadership.
•	 Engage the international community to reinvigorate donor coordination
   efforts, perhaps under the auspices of the United Nations Assistance Mission
   in Afghanistan (UNAMA).

Management Comments
The U.S. Embassy and USAID Mission in Kabul concurred with the report’s find-
ings and recommendations. They also noted that a draft anti-corruption study
currently under review by the U.S. government envisions a substantial transfor-
mation of the HOO along the lines recommended in the SIGAR report.




  16                Special inspector general   I   Afghanistan reconstruction
                                                   SIGAR Oversight




The Special Inspector General for Afghanistan Reconstruction (right) meets with the Chief Justice
of the Afghan Supreme Court to discuss enhancing anti-corruption efforts, strengthening the
nation’s accountability organizations, and bolstering the rule of law in Afghanistan. (SIGAR photo)


Actions Needed To Protect Afghanistan’s Judicial Officials,
SIGAR Audit 10-3
The United States, the single largest contributor to Afghanistan’s justice sec-
tor, has invested more than $160 million in programs to develop an effective
judiciary, which is essential to establishing rule of law and good governance.
Because of the risks faced by Afghanistan’s judicial officials, providing secu-
rity for them is an important element of the GIRoA’s National Anti-Corruption
Strategy and the ANDS.

Objectives
As part of its initiative to address U.S. efforts to strengthen Afghanistan’s anti-
corruption capabilities and the rule of law, SIGAR examined the approach used
by U.S. agencies to provide judicial security assistance and the factors that could
impact the effectiveness of this assistance.
   Because of the sensitive nature of the issues discussed, SIGAR restricted
distribution of the full report to relevant agency and congressional officials as
Controlled Unclassified Information. SIGAR also issued an unrestricted report
summary, which excludes sensitive information.




          Report to the united states congress         I   january 30, 2010                17
SIGAR Oversight




Findings
SIGAR’s audit had three main findings:
1.	 The United States provides training and infrastructure support to
    Afghanistan’s Judicial Security Unit (JSU), a specialized unit of the Counter-
    Narcotics Police of Afghanistan under the Ministry of Interior. Several
    U.S. agencies—including the DoJ, the Department of Defense (DoD), and
    the Department of State (DoS)—are assisting the JSU. The U.S. Marshals
    Service, a component of DoJ, mentors and trains JSU personnel in court-
    room and personal security. DoD designed, funded, and built a $4.5 mil-
    lion compound in Kabul to house and support the JSU. The DoS Bureau of
    International Narcotics and Law Enforcement Affairs (INL) has provided
    money to fund the compound’s operations and maintenance (O&M), as well
    as procure its furniture and equipment. The U.S. and Afghan governments
    are discussing expanding judicial security assistance. The discussion has
    included proposals from both governments on scope, size, and funding, as
    well as a timeline for implementation of a broader judicial security program.
2.	 SIGAR found that the U.S. government does not have a strategic approach
    to providing assistance for judicial security and that its efforts have at times
    been uncoordinated. Key elements of a strategy are lacking—such as leader-
    ship, agreed-upon standards, assessment of risk, and a planning process that
    takes into account requirements and stakeholders. Although several U.S.
    agencies are responsible for developing, funding, and implementing judicial
    security assistance, no single agency or individual has been officially desig-
    nated to lead or coordinate U.S. efforts. This contributed to delays in open-
    ing the JSU compound. Because the U.S. and Afghan governments have not
    established judicial security standards, the initial U.S. and Afghan proposals
    for a broader judicial security program varied widely in size, scope, and cost.
    Threat and risk assessments are also necessary to determine, among other
    things, the number of security personnel as well as the type and quantity of
    equipment needed to protect judicial personnel. Lack of adequate planning
    and coordination between agencies delayed the opening of the JSU center
    by more than six months; moreover, costs for O&M are now estimated to
    exceed the allocated funding level.
3.	 Additional challenges related to planning, human resources, command
    structure, and jurisdiction could hinder plans for a broader judicial security
    program. For example, the GIRoA’s initial proposal estimated costs for sala-
    ries, uniforms, equipment, and vehicles but did not include costs for infra-
    structure requirements for facilities to train the security force or for offices
    throughout Afghanistan.

   SIGAR concluded that action is needed to ensure that progress made in
establishing the JSU is not lost and that implementation challenges are mitigated
as the United States and Afghanistan work together to develop a broader judicial
security program.




  18                Special inspector general   I   Afghanistan reconstruction
                                           SIGAR Oversight




Recommendations
SIGAR recommends that the U.S. Ambassador designate a lead agency or
office to coordinate the planning and implementation of multi-agency judicial
security assistance. SIGAR also recommends that the lead agency or office
take these actions:
•	 Assist GIRoA partners in establishing judicial security standards and devel-
    oping appropriate job descriptions for members of the current and future
    Afghan judicial security forces.
•	 Fully involve important stakeholders—especially those who could provide
    potential funding for infrastructure, equipment, or O&M in the planning process.
SIGAR made additional recommendations that could not be included in the pub-
lic summary because they involve sensitive information.

Management Comments
The U.S. Embassy in Kabul concurred with the report’s findings and recommen-
dations and outlined actions that it has taken in response to the recommenda-
tions. It has appointed its Rule of Law office as the lead agency and established a
multi-agency planning team that includes the relevant stakeholders. While SIGAR
welcomes these actions, it reiterates the need to work with GIRoA partners to
establish security standards. SIGAR believes that its recommendations can help
U.S. agencies determine the size, scope, and implementation phases of a judicial
security program that is based on the prioritized needs of key judicial officials.
To prioritize these needs, U.S. and Afghan officials need to establish security
standards and conduct security assessments based on those standards.

Afghanistan’s Energy Supply Has Increased, But an Updated
Master Plan Is Needed, and Delays and Sustainability Concerns
Remain, SIGAR Audit 10-4
The United States, other international donors, and the GIRoA have placed a high
priority on increasing Afghanistan’s capacity to generate and distribute elec-
tricity. The ANDS, approved by the GIRoA in 2008, set four ambitious goals for
increasing the country’s electricity supply:
•	 reaching at least 65% of households in major urban areas
•	 reaching 90% of non-residential establishments in major urban areas
•	 reaching 25% of households in rural areas
•	 covering at least 75% of total operating costs through user fees by the
    end of 2010

   Since 2002, the international community has made available or pledged at
least $2 billion to improve the energy sector. Of this, the United States has
provided more than $732 million, including approximately $423 million for the
ongoing construction of the North East Power System (NEPS), which is designed




         Report to the united states congress   I   january 30, 2010          19
SIGAR Oversight




to provide lower-cost power to cities and towns in northeastern Afghanistan,
including Kabul. International donors have funded or committed $1.2 billion to
developing the NEPS, much of which involves building the transmission lines
and distribution systems needed to import power from neighboring Tajikistan,
Turkmenistan, and Uzbekistan. In addition to the NEPS, the United States is
funding several other projects to rehabilitate hydropower plants, develop new
energy sources, build Afghan technical capacity, and promote clean energy.

Objectives
This SIGAR audit assessed four elements:
•	 the strategy for prioritizing projects and establishing goals and time frames
   for the development of Afghanistan’s energy sector
•	 the status of Afghanistan’s energy sector and U.S. and donor projects
•	 the status of USAID energy-sector projects
•	 the coordination between the United States, international donors, and
   Afghanistan on energy projects

Findings
The audit had eight findings:
1.	 SIGAR found that the GIRoA lacks a current energy sector master plan that
    establishes the priorities, time frames, and costs needed to achieve energy
    sector objectives. Although the Afghan government worked with the interna-
    tional community to develop the ANDS, donor officials told SIGAR auditors
    that the ANDS goals were poorly defined, too ambitious, and based on inac-
    curate information. As a result, according to the Asian Development Bank
    and the World Bank, energy projects are being implemented in an ad hoc
    manner, rather than as part of an integrated strategy.
2.	 Primarily as a result of U.S. and international donor assistance, Afghanistan’s
    installed electrical capacity has increased by an estimated 139%—from
    approximately 430 megawatts (MW) in 2001 to 1,028.5 MW as of September
    2009. In addition to domestic production, Afghanistan also imports electricity
    from its neighbors. The NEPS—the largest internationally funded energy proj-
    ect in Afghanistan—involves the construction of power lines and distribution
    systems needed to import additional power from Tajikistan, Turkmenistan,
    and Uzbekistan. The GIRoA and its international donors have been working
    with these countries to establish long-term power purchase agreements that
    could eventually yield a total supply of 900 MW a day.
3.	 SIGAR identified two key issues that could affect the GIRoA’s capacity to
    sustain and increase the generation and distribution of electricity—the ability
    to collect revenue from end users, and the capacity to operate and maintain
    facilities. The GIRoA is currently unable to collect the revenue it needs to
    pay for fuel and to cover other O&M expenses. Afghanistan’s power facilities
    are operating at just 60% of installed capacity because of problems related to
    the consequent fuel shortages and lack of maintenance. To cover some of the




  20               Special inspector general   I   Afghanistan reconstruction
                                              SIGAR Oversight




      GIRoA’s financial shortfall in the energy sector, USAID provided $15.2 million
      from 2007 to 2009 for O&M on power plants. It plans to spend an additional
      $15.3 million through April 2011.
4.	   The United States and other international donors are assisting the GIRoA’s
      efforts to operate the electric utilities on a commercial basis and deter corrup-
      tion in its operation. The payment of extra fees for connections and bribes
      to meter readers, the bypassing of meters, and the submission of incomplete
      revenue returns have decreased the GIRoA’s ability to collect revenue. With
      the support of USAID and other donors, the Afghan government transferred the
      assets of the state-owned electric utility to a commercial entity in September
      2009. According to USAID, this step should help reduce commercial losses,
      minimize corruption, and increase revenue.
5.	   Afghanistan’s energy sector also suffers from the lack of an experienced
      workforce with the technical and managerial skills necessary to operate and
      maintain complex facilities. All USAID projects include a capacity develop-
      ment component; in addition, USAID has provided training for energy sector
      workers. However, officials note that the GIRoA has had difficulty retaining
      trained staff because private contractors can offer higher pay.
6.	   USAID-funded energy projects have faced delays and cost overruns
      because of the dangerous security environment and a general lack of quality
      assurance oversight, in addition to problems with land titles and customs.
      In fiscal year (FY) 2009, five of USAID’s six energy infrastructure projects
      (valued at an estimated $422.6 million) were behind schedule. Deteriorating
      security has particularly affected certain projects, such as the rehabilitation
      of the Kajakai Hydropower Plant in southern Afghanistan. The security costs
      for that project have increased from 9% to 30% of the contract’s value. USAID
      has lacked independent quality assurance personnel on most of its energy
      infrastructure projects. To address this problem, the agency has hired a con-
      tractor to perform independent oversight of some projects. USAID expected
      this contractor to be providing consistent reporting on the energy projects
      by late 2009.
7.	   USAID has established a goal to provide reliable and affordable electricity
      by increasing Afghanistan’s operational capacity to 1,000 MW by 2012, but
      it has not established goals and time frames in other critical areas, such
      as building Afghan capacity to operate and maintain the energy infrastruc-
      ture. Furthermore, although USAID is tracking output metrics—production
      capacity, the number of people with increased access to electricity, and the
      number of people receiving training—at the contract level through perfor-
      mance management plans, these plans do not help USAID assess progress in
      a strategic manner.
8.	   Afghanistan’s Inter-Ministerial Commission on Energy is responsible for
      coordinating donor activities in the energy sector. Although the Commission
      appears to effectively coordinate the large projects to develop the North and
      South East Power Systems, it needs to improve information sharing on the




           Report to the united states congress   I   january 30, 2010           21
SIGAR Oversight




   smaller, rural energy projects. U.S. and international donors have not agreed
   on technical standards for rural energy projects, increasing the risk that com-
   munities will not be able to connect in the future. SIGAR also found a lack of
   coordination between USAID and U.S. Forces - Afghanistan at the project level.

Recommendations
To improve the effectiveness of USAID-funded projects and planning for
future projects, SIGAR recommends that the Director of the USAID Mission to
Afghanistan take four actions:
•	 Work with the GIRoA and international donors to update the Afghanistan
   Energy Master Plan and prioritize needs.
•	 Establish milestone targets for capacity building and O&M support for the
   energy sector.
•	 Ensure that applicable output and outcome metrics are applied consistently
   to all USAID energy projects.
•	 Work with U.S. Forces - Afghanistan and international donors to establish
   common technical standards on energy projects.

Management Comments
In a joint response, the U.S. Embassy in Kabul and the USAID Mission in
Afghanistan concurred with the recommendations. They outlined steps they have
taken and are planning to take to implement the recommendations.

Contract Delays Led to Cost Overruns for the Kabul Power Plant,
and Sustainability Remains a Key Challenge, SIGAR Audit 10-6
In May 2007, as part of the U.S. effort to improve Afghanistan’s energy infrastruc-
ture, USAID agreed to build a dual-fuel power plant, capable of running on diesel
or heavy fuel oil, that would generate 105 MW of electricity for Kabul. In July
2007, USAID issued a task order under the $1.4 billion Afghanistan Infrastructure
and Rehabilitation Program (AIRP) contract with the Louis Berger Group, Inc./
Black and Veatch Joint Venture. This “fast track” project was designed to install
18 generators in 3 blocks of 6 generators each; each block would provide 35 MW
of electricity. The project was scheduled to have been completed by March 31,
2009. A series of contract modifications raised the cost of the project to more than
$300 million and delayed its expected completion by 12 months to March 31, 2010.
At least $40 million of the increased costs is a direct result of the project delays.
   The USAID Office of Inspector General (USAID OIG) identified a wide range
of factors—attributable to USAID, the prime contractor (Black & Veatch), and




  22                Special inspector general   I   Afghanistan reconstruction
                                                SIGAR Oversight




subcontractors—that contributed to the construction delays and the increased
cost of the plant:
•	 inability to obtain adequate title to land for construction
•	 ambiguous statement of work that led to poor planning and implementation
•	 delays in subcontract award and mobilization
•	 subcontractor performance problems
•	 lack of timely approvals from USAID’s contracting officer
•	 lack of onsite quality assurance
•	 inconsistent communication between the contractor and USAID
•	 USAID transportation and customs clearance problems

Objectives
SIGAR examined the USAID-funded effort to build a 105 MW power plant on
the outskirts of Kabul; the project has experienced significant delays and major
cost overruns. Building on the findings of an audit conducted by the USAID OIG,
SIGAR examined three issues:
•	 the basis for reported project delays and cost overruns
•	 actions taken to respond to these problems
•	 whether the GIRoA will be able to sustain the plant’s operations




This quarter, a SIGAR audit of the Kabul Power Plant construction project examined the
reasons for project delays and cost overruns and whether the GIRoA can sustain the plant’s
operations in the future. (SIGAR photo)




          Report to the united states congress      I   january 30, 2010               23
SIGAR Oversight




Findings
The SIGAR audit had two major findings:
1.	 To address problems raised by USAID OIG and SIGAR, both USAID and
    Black & Veatch have taken several steps to ensure that all 18 generators
    were installed by December 2009, to prevent any further delays beyond
    March 2010, and to help reduce project costs. USAID hired an independent
    quality assurance firm, which now has staff onsite at the Kabul Power Plant.
    In addition, the agency conducted an extensive internal review of all AIRP
    task orders to identify systemic causes for the project delays and cost over-
    runs. Black & Veatch developed detailed execution and related work plans,
    which included lower-cost engineering options. The contractor also agreed
    to eliminate its fixed fee for the completion of the work on the Kabul Power
    Plant. These measures reduced program costs by $5 million.
2.	 The long-term sustainability of the Kabul Power Plant remains a serious con-
    cern. That sustainability largely depends on the ability of the GIRoA to pur-
    chase the required fuel and cover O&M costs. Despite its earlier commitments
    to pay for these costs, USAID has concluded that the GIRoA will likely require
    international assistance for both expenditures because it currently lacks the
    ability to collect sufficient revenues to cover its operating costs. Although
    international donors and USAID are implementing programs to help the GIRoA
    commercialize its utility sector, USAID officials estimate that it will be at least
    five years before the GIRoA will be able to generate enough revenue from the
    Kabul electric utility to cover the costs of operating the plant.




An electricity generator, 1 of 18 in the Kabul Power Plant. (SIGAR photo)




   24                 Special inspector general     I   Afghanistan reconstruction
                                                SIGAR Oversight




   	 USAID reported to SIGAR that it is planning to contract for the bulk of
   O&M support over the next several years. If the Kabul electric utility is unable
   to generate sufficient revenue after this period of support, USAID may face
   the difficult decision of whether to continue funding operations or to termi-
   nate U.S. involvement with the project and put the future of the $300 million
   facility at risk.
   	 USAID has not yet provided any direct fuel support for the Kabul Power
   Plant; however, at the request of the Afghan Minister of the Economy, USAID
   provided fuel support for the North West Kabul Power Plant during the winter
   of 2008/2009. USAID kept $28 million that had been set aside for the Afghan
   Reconstruction Trust Fund for this purpose and spent $15.6 million of it, leav-
   ing $12.4 million to either give to the trust fund or use for another purpose.
   The GIRoA has formally asked for $12.4 million for fuel support, but USAID
   has yet to respond to this latest request.
   	 The decision by the GIRoA and the United States to build a dual-fuel use
   facility that is capable of operating on either diesel or heavy fuel oil has addi-
   tional long-term implications for the sustainability of the power plant. SIGAR
   understands that the GIRoA wanted a dual-fuel facility because heavy fuel oil
   is considerably cheaper than diesel, a savings that could improve the chances
   that the government could operate the plant with its own resources. The
   engineering and construction costs of building a dual-fuel plant are higher
   than those of a single-fuel facility. In addition, dual-fuel plants are far more
   complex to operate and maintain, and their O&M expenses are likely to be
   significantly higher because of the greater wear and tear placed on generators
   using heavy fuel oil.




During the Kabul Power Plant audit, personnel from SIGAR, USAID, and Black & Veatch inspect the
control room. (SIGAR photo)




          Report to the united states congress      I   january 30, 2010               25
SIGAR Oversight




Recommendation
SIGAR recommends that the USAID Mission Director produce a definitive study
on the technical feasibility and advisability of using heavy fuel oil in the Kabul
Power Plant and factor this information into decisions concerning the completion
of the facility, as well as the post-construction use of heavy fuel oil in the facility.

Management Comments
The U.S. Embassy in Kabul and the USAID Mission to Afghanistan concurred
with the report’s findings and recommendation and said that a definitive study on
the technical feasibility and advisability of using heavy fuel oil at the plant would
be prepared by the end of March 2010. They also noted that government changes
since the 2009 presidential elections provide an opportunity to reexamine the
choice of using a dual-fuel plan “in the light of the study’s technical input, several
months of plant operations, and ongoing efforts to commercialize the sector and
improve revenue flows.”

New Audits Announced This Quarter
During this reporting period, SIGAR initiated seven new audits. They included
four focused contract audits—one each of the construction contracts for Afghan
National Army (ANA) facilities in Farah and Kunduz provinces, and at Gamberi
in Nangarhar province, and one of the security services contract with Global
Strategies Group. Two other audits were begun as part of the anti-corruption
initiative: one is assessing U.S. and other donor efforts to strengthen the capa-
bilities of Afghanistan’s Control and Audit Office (CAO); the other is examining
USAID assistance to pay the salaries of GIRoA officials and advisors. An addi-
tional audit will identify contractors that are the prime vendors on major U.S.
contracts for the reconstruction of Afghanistan.

Focused Contract Audit: Construction of the ANA Brigade Garrison
in Farah Province
SIGAR is examining the U.S. Army Corps of Engineers (USACE) construction
contracts for Phases I and II of the U.S.-funded ANA Brigade Garrison in Farah
Province. The audit addresses these questions:
•	 Was the Brigade Garrison completed within the terms of the contract,
   including schedule and cost?
•	 What support and documentation was submitted for contract modifications
   and contractor costs and payments, and did these submissions meet appli-
   cable requirements?
•	 Did U.S. contract administration and oversight meet applicable requirements?
•	 Can the ANA, which has taken possession of the garrison, operate and main-
   tain the facilities?




  26                 Special inspector general   I   Afghanistan reconstruction
                                          SIGAR Oversight




This audit will also identify the subcontractors used by the prime contractor and
determine 1) which, if any, subcontractors were hired to provide personnel or
site security and 2) whether the GIRoA had approved the Afghan subcontractors
to operate in Afghanistan at the time.

Focused Contract Audit: Construction of the ANA 2/209th
Headquarters Facilities in Kunduz Province
SIGAR is examining the USACE construction contracts for Phases I and II of
the U.S.-funded ANA 2/209th Headquarters facilities in Kunduz to address these
questions:
•	 Are the facilities being completed within the terms of the contract, including
    schedule and cost?
•	 What support and documentation has been submitted for contract modi-
    fications and contractor costs and payments, and does it meet applicable
    requirements?
•	 Does U.S. contract administration and oversight meet applicable standards?
•	 What plans are there for the ANA to take possession of the facilities, perform
    maintenance, and pay for sustainment costs?
This audit will also identify the subcontractors used by the prime contractor and
determine 1) which, if any, subcontractors were hired to provide personnel or
site security and 2) whether the GIRoA had approved the Afghan subcontractors
to operate in Afghanistan at the time.

Focused Contract Audit: Construction of ANA Brigade Garrison at
Gamberi in Nangarhar Province
SIGAR is examining the USACE construction contracts for Phases I, II, and III
of the U.S.-funded ANA Brigade Garrison in Gamberi and a contract for the
Gamberi Range Complex. SIGAR will address these questions:
•	 Are the facilities being completed within the terms of the contract, including
    schedule and cost?
•	 What support and documentation has been submitted for contract modifi-
    cations and contractor costs and payments, and do these meet applicable
    requirements?
•	 Does U.S. contract administration and oversight meet applicable standards?
•	 What plans are there for the ANA to take possession of the facilities, perform
    maintenance, and pay for sustainment costs?
This audit will also identify the subcontractors used by the prime contractor and
determine 1) which, if any, subcontractors were hired to provide personnel or
site security and 2) whether the GIRoA had approved the Afghan subcontractors
to operate in Afghanistan at the time.




         Report to the united states congress   I   january 30, 2010        27
SIGAR Oversight




Focused Contract Audit: Reconstruction Security Support
Services from Global Strategies Group Inc.
This audit, which is related to SIGAR’s review of private security contractors in
Afghanistan (see “Ongoing Audits”), is examining whether USACE received the
security services it needed from the contractor at a reasonable cost. The audit
will address these questions:
•	 Are the contract requirements being completed within the terms of the con-
   tract, including schedule and cost?
•	 What support and documentation has been submitted for contract modifi-
   cations and contractor costs and payments, and do these meet applicable
   requirements?
•	 Does U.S. contract administration and oversight meet applicable requirements?
•	 Were any private security subcontractors used by the prime contractor? If
   so, were the requirements of the prime contract included in the subcontract?

Review of U.S. and Other Donor Efforts To Strengthen the
Capabilities of Afghanistan’s Control and Audit Office
This audit is part of SIGAR’s initiative to evaluate U.S. and other donor assis-
tance to support the anti-corruption capabilities of GIRoA institutions. SIGAR is
identifying U.S. and donor assistance to strengthen the CAO, assess its capabili-
ties and performance, and determine the effectiveness of U.S. and other donor
assistance to it.

Review of USAID-Funded Salaries Paid to Afghan Government
Officials and Advisors
This audit, which is part of SIGAR’s effort to assess the internal controls and
accountability procedures of key Afghan institutions, has these objectives:
•	 Identify all USAID-funded salaries paid to officials and advisors of the GIRoA.
•	 Examine the internal controls and other accountability mechanisms for
   determining the recipients of salaries and the amounts paid.
•	 Determine the effectiveness of these mechanisms in safeguarding U.S. funds
   against improper use.

Identification of Major Vendors for Reconstruction Contracts
in Afghanistan
SIGAR initiated this audit to identify and describe the largest U.S. reconstruc-
tion contracts. This will help guide SIGAR’s future focused contract audits. The
Government Accountability Office (GAO) has provided SIGAR with access to the
database it compiled to prepare its reports addressing contracting in Afghanistan
during FYs 2007 and 2008 and the first six months of 2009. SIGAR has analyzed
GAO’s data to identify and rank the prime vendors by total obligations during
that period. SIGAR will carry out three tasks:




  28               Special inspector general   I   Afghanistan reconstruction
                                          SIGAR Oversight




•	 Ensure that the vendors and associated contracts identified are for recon-
   struction in Afghanistan (rather than support for the U.S. presence).
•	 Determine the full value and purpose of the contracts identified.
•	 Document each contract’s reported total obligations and expenditures
   through FY 2009.

   SIGAR will work with DoS, DoD, and USAID to identify any prime contrac-
tors that have active contracts for substantive reconstruction assistance to
Afghanistan that did not appear in GAO’s database. To minimize duplication of
effort, SIGAR is coordinating this work with GAO’s ongoing compilation of con-
tract obligations for the last six months of FY 2009.


Ongoing Audits
During this quarter, SIGAR continued work on nine other audits, including
contract and program reviews, as well as assessments related to SIGAR’s
anti-corruption initiative. They address issues of security, governance,
and development.

Review of Agencies’ Management Oversight, Procedures,
and Practices for Reconstruction Funds and Projects
SIGAR is conducting a series of audits to evaluate how implementing agencies
are managing the reconstruction program. These audits assess an agency’s ability
to develop and manage projects, establish performance metrics, and control and
account for funding flows. SIGAR has already reported on the CSTC-A’s oversight
of its reconstruction programs. SIGAR is currently reviewing USAID’s oversight
of its reconstruction programs.

Review of U.S. Assistance for the Preparation and Conduct of
Presidential and Provincial Council Elections in Afghanistan
This audit, the third in a series of reports on the election process, addresses
one objective: to identify the strengths and weaknesses of the election process
and make recommendations for electoral reform. As part of this work, SIGAR
conducted a public opinion poll to gauge Afghan views on the elections. It is
also reviewing independent assessments of the 2009 presidential and provincial
council elections.

Review of U.S. Agencies’ Use of Contractors To Provide Security
for Reconstruction Programs in Afghanistan
SIGAR is conducting this audit to identify the number and volume of contracts
in place to provide security services in Afghanistan. The audit will address
these objectives:
•	 Determine the number of security contractors and personnel working for
    federal agencies in Afghanistan.




        Report to the united states congress   I   january 30, 2010         29
SIGAR Oversight




•	 Assess agencies’ management and oversight of security contractors and
   subcontractors.
•	 Determine the extent to which GAO and the inspector general community
   have conducted audits of private security contracts.

Assessment of the Capabilities of the Afghan National
Security Forces
SIGAR is conducting this audit to evaluate the reliability of the capability rat-
ings that are being used to measure the capabilities of the ANSF. The audit will
address these objectives:
•	 Identify the methods used to measure and verify ANSF capabilities.
•	 Assess the extent to which readiness assessment methods vary between and
   within the ANA and the ANP.
•	 Determine the degree to which the capability rating system provides a reli-
   able profile of ANSF capabilities.
•	 Identify the extent to which challenges have impeded the ability of the U.S.
   government to assess ANSF capabilities.

Review of Afghan National Security Forces Personnel
Management
SIGAR is conducting this audit to evaluate the extent to which the ANSF have
developed accurate systems for personnel accounting. It will describe and
assess four elements:
•	 the extent to which ANA and ANP personnel have been counted and validated
•	 the actions taken by the United States and international donors to support
   the development of ANSF personnel accounting systems
•	 the challenges associated with the completion and maintenance of routine
   systems for personnel accounting
•	 the extent to which inaccurate personnel numbers have led to additional
   challenges, including the fraudulent collection of ANSF salaries

Review of the Construction Contract of the Joint Regional
Afghan National Security Forces Complex Outside the
Kandahar Airfield in Kandahar Province
This review began as a SIGAR inspection and has been expanded to conform
to contract audit objectives. SIGAR is examining U.S.-funded construction
contracts for the Joint Regional ANSF Complex facilities, which are nearing
completion, to address these questions:
•	 Are the infrastructure projects being completed within the terms of the con-
   tract, including schedule and cost?
•	 What support and documentation has been submitted for contract modifica-
   tions and contractor costs and payments, and is this submission adequate?




  30               Special inspector general   I   Afghanistan reconstruction
                                           SIGAR Oversight




•	 What is the quality of U.S. contract administration and oversight?
•	 What plans exist for the ANA to take possession of the facilities, perform
   maintenance, and pay for sustainment costs?

Review of the Use of Funds Earmarked for Afghan Women and Girls
SIGAR is conducting this audit to identify the process for earmarking funds by
the Congress for women and girls in Afghanistan, and the extent to which their
use has complied with U.S. legislative requirements. SIGAR is also assessing how
agencies measure the effectiveness of these programs and what agencies are
doing to ensure program sustainability.

Review of Contractor Performance and Agency Oversight of
USAID Contracts in Afghanistan with Louis Berger Group
This audit will assess USAID’s oversight of this contractor. As part of its assess-
ment, SIGAR is analyzing USAID OIG’s findings about the work performed by the
Louis Berger Group.

Review of the Construction Contract for the Tojg Bridge,
Farah Province
Provincial Reconstruction Teams (PRTs) are at the forefront of the reconstruc-
tion effort in Afghanistan’s provinces. PRTs frequently draw on the Commander’s
Emergency Response Program (CERP) to fund projects. SIGAR is assessing the
effort by the U.S.-led PRT in Farah to build a $1.7 million bridge using CERP funds.

Forensic Audit
SIGAR is launching a forensic audit program using data-mining techniques to
identify anomalies in payments that could indicate fraud or waste, as well as to
identify poor internal controls and lack of accountability. This program will begin
to implement the requirement in SIGAR’s legislation for a forensic audit of recon-
struction funds. As the first step, SIGAR will obtain data from the Defense Finance
and Accounting Service on all payments made under the reconstruction program.
   Using data-mining techniques, SIGAR will look for anomalies that warrant
further investigation. Among others, such anomalies include duplicate payments,
payments to fictitious vendors, or payments authorized, approved, and received
by the same person. When an anomaly is identified, SIGAR will assign auditors to
do additional research or refer the case to Investigations.
   The forensic audit will help SIGAR develop a more finely tuned, risk-based
approach to identifying the audits it will conduct. It will also provide evidence
that can both improve internal controls and accountability, and lead to the dis-
covery and prosecution of fraud and the recovery of improper payments. SIGAR
expects the forensic audit program to yield results later this fiscal year.




         Report to the united states congress   I   january 30, 2010          31
SIGAR Oversight




Planned Audits
SIGAR is planning to conduct a wide range of audits, including focused contract
audits and broader performance audits of various aspects of reconstruction.
SIGAR will begin these audits as it hires additional auditors and completes
ongoing work. The audits that SIGAR believes are priorities and that it hopes to
initiate within the next six months include reviews of the following issues:
•	 the implementation of the civilian surge
•	 internal controls and accountability for the Afghanistan National
    Solidarity Program
•	 oversight and performance of the USAID contract with International
    Relief and Development, Inc.
•	 U.S. and other donor support to the agriculture sector
•	 the DoS $100 million Good Performer’s Initiative
•	 the oversight and performance of the CSTC-A contract with MPRI


Investigations
This quarter, SIGAR’s Criminal Investigations Directorate significantly expanded
its operations. It opened 17 new cases and issued an official referral for action
recommending the suspension and debarment of a contractor involved in a
major reconstruction project in Afghanistan. The directorate also hired four new
investigators and assumed responsibility for the SIGAR Hotline and Complaint
Management Program.
    Since SIGAR’s last quarterly report, two dual-citizenship Afghan-American
nationals were sentenced in a federal district court to four years in prison for
attempting to bribe a U.S. Army contracting official. SIGAR actively participated
in the joint investigation that resulted in their conviction.


International Contract Corruption Task Force
SIGAR’s Deputy Assistant Inspector General for Criminal Investigations was
named to the Board of Governors of the International Contract Corruption
Task Force (ICCTF). The ICCTF investigates criminal and civil cases of fraud,
waste, and abuse, and facilitates federal prosecutions through the International
Sub-Committee of the Department of Justice National Procurement Fraud Task
Force. Its members include the major U.S. criminal investigation and inspector
general community organizations.9 SIGAR also became the first of the nine task
force members to assign a full-time investigator to the ICCTF’s Joint Operations
Center, located at the Federal Bureau of Investigation in Washington, D.C. The
Joint Operations Center provides strategic and operational support to member
agencies, including intelligence analysis, investigative coordination, and prosecu-
torial liaison. The ICCTF has three offices in Afghanistan. SIGAR conducts joint
investigations with ICCTF members at all three locations. SIGAR is also leading
the effort to expand the number of ICCTF offices to other areas in Afghanistan
where the United States is funding significant reconstruction efforts.




  32                Special inspector general   I   Afghanistan reconstruction
                                            SIGAR Oversight




Status of Cases
From October 1 to December 31, 2009, SIGAR opened 17 cases and closed 5 others.
Currently, SIGAR is investigating 37 cases in collaboration with the ICCTF.
   These are some of the highlights of recent SIGAR investigative activity:
•	 Two Afghan-American nationals were sentenced for attempted bribery
    (described in the following subsection).
•	 SIGAR issued an official referral for action recommending the suspension
    and debarment of a major contractor for violations of federal law.
•	 SIGAR participated in the issuance of seven federal grand jury subpoenas
    and three residential searches in support of a criminal bribery investigation
    involving a U.S. federal employee.
•	 Seven other investigations have identified potential fraud in excess of
    $150 million.
SIGAR’s new cases involve procurement fraud, contract fraud, bribery, theft, and
a civil investigation.


Two Men Sentenced in Virginia for Attempting
To Bribe a U.S. Army Contractor In Kabul
SIGAR played an active role in a joint bribery investigation that led to the
November 13, 2009 sentencing of two Afghan-American contractors in the U.S.
District Court for the Eastern District of Virginia in Alexandria. Rohullah Farooqi
Lodin, 48, of Irvine, California, and Hashmatullah Farooqi, 38, of New York City,
brothers, each received a four-year prison sentence and a $30,000 fine for attempt-
ing to bribe a U.S. Army contracting official while they were in Afghanistan in
early 2009. The contract involved an $18 million design-and-build project, funded
by the CERP in Logar province. The men attempted to influence the award of the
                                                                                       Rohullah Farooqi   Hashmatullah
contract by offering to wire transfer $1 million to the contracting official’s U.S.
                                                                                       Lodin              Farooqi
bank account and to deliver a luxury automobile to the contracting official’s resi-
dence. Farooqi and Lodin had pled guilty earlier last year. The U.S. District Court
judge who sentenced them stated that the two men’s actions “showed an eager-
ness to corrupt a system that was set up to help an embattled country.”

SIGAR Investigation Reveals Fraud in Construction Project
As a result of an ongoing investigation, SIGAR uncovered contract-related fraud
by a subcontractor on a major reconstruction project in the energy sector. SIGAR
obtained documentary evidence that showed that this subcontractor had made
false claims, falsified records, and conspired to defraud the U.S. government.
Consequently, SIGAR issued an official referral for action to have the subcontractor
suspended and debarred from further U.S. government contract work.




         Report to the united states congress   I   january 30, 2010          33
SIGAR Oversight




SIGAR Hotline
This quarter, SIGAR moved the Hotline to the Criminal Investigations Directorate
to streamline operations and better evaluate complaints. SIGAR intends to raise
awareness of the Hotline in the United States and Afghanistan and expand
opportunities for individuals to report allegations of fraud, waste, and abuse in
the reconstruction program.
   Hotline complaints can be lodged by telephone, on the SIGAR Web site
(www.sigar.mil/fraud), by letter, or in person. During this reporting period, SIGAR
received 13 complaints via the Hotline. Since the Hotline’s launch in May 2009,
SIGAR has received a total of 86 complaints. Allegations have included theft,
contract fraud, unfair hiring, non-payment for goods and services delivered,
retaliation against whistleblowers, and waste of reconstruction funds. SIGAR has
referred 32 of these complaints to the appropriate agencies’ inspectors general
and is looking into 29 other complaints. SIGAR has determined that 25 of these
complaints had no merit.


SIGAR Budget
Since the appointment of the Inspector General in July 2008, the Congress has
appropriated $23.2 million to SIGAR. This includes $7.2 million, which was
provided in June 2009 as part of the FY 2009 supplemental appropriation and is
available for 16 months. SIGAR’s FY 2010 appropriation is $23 million. Combined
with the $7.2 million from the supplemental appropriation, SIGAR has a total of
$30.2 million for FY 2010. This funding enables SIGAR to expand its staff and
operations to meet the increasing need for oversight to detect and deter fraud,
waste, and abuse of U.S. reconstruction funds in Afghanistan. Table 2.1 provides
a funding summary.

Table 2.1

SIGAR Funding Summary ($ Millions)
Appropriation                      Public Law     Appropriated   Made Available Expires     Amount
Supplemental Appropriations for    P.L. 110-252   6/30/2008      6/30/2008      9/30/2009     $2.0
Fiscal Year 2008, H.R. 2642
Supplemental Appropriations for    P.L. 110-252   6/30/2008      10/1/2008      9/30/2009     $5.0
Fiscal Year 2008, H.R. 2642
Consolidated Security, Disaster    P.L. 110-329   9/30/2008      9/30/2008      9/30/2010     $9.0
Assistance, and Continuing
Appropriations Act, 2009
Supplemental Appropriations for    P.L. 111-32    6/24/2009      6/24/2009      9/30/2010     $7.2
Fiscal Year 2009, H.R. 2346
Consolidated Appropriations Act,   P.L. 111-117   12/16/2009     10/1/2009      9/30/2010    $23.0
2010, H.R. 3288
Total                                                                                       $46.2




   34                       Special inspector general      I   Afghanistan reconstruction
                                           SIGAR Oversight




SIGAR Staff
During this reporting period, SIGAR increased the number of its federal
employees from 57 to 72. They include 67 professionals hired under the 3161
authority, 3 on detail from DoD, and 2 foreign service nationals in Kabul. Next
quarter, SIGAR expects to hire another 15 employees. To provide effective over-
sight of the expanding reconstruction program, SIGAR plans to expand its staff
to 118 during FY 2010 and 132 in FY 2011.
   New hires this quarter included four special agents, six auditors, and one
engineer. The special agents have extensive criminal investigative experience in
procurement and contract fraud. All four—one special agent of the Department of
Interior, one special agent of the Special Inspector General for Iraq Reconstruction
(SIGIR), and one former assistant special agent in charge and one supervisory
special agent of the Federal Bureau of Investigation—have been deployed to
Afghanistan or are in the process of being deployed. At the end of this quarter, the
Criminal Investigations Division had 14 staff; it expects to hire an additional 9
during FY 2010.
   SIGAR hired 6 new auditors and 1 engineer this quarter; the Audit Directorate
now comprises 28 people. The new employees came from GAO, the World Bank,
SIGIR, and USAID. By the end of FY 2010, SIGAR intends to have more than 50
auditors on board.
   Under its current agreement with the U.S. Embassy in Kabul, SIGAR can
station up to 32 staff at the Embassy and three satellite offices in Afghanistan.
SIGAR is working with the Embassy to expand the office’s presence and to
staff additional locations in Afghanistan. As of this report, approximately 75%
of SIGAR staff members in Afghanistan are permanently based in the country.
SIGAR uses the remaining staff spaces to deploy auditors and investigators on
temporary duty to conduct specific missions. Once they complete their work
in Afghanistan, these individuals return to SIGAR headquarters to finalize their
written reports.




         Report to the united states congress   I   january 30, 2010          35
              Alternative Crops
              A father and his children sell pomegranates at a market.
              Pomegranates are among the traditional Afghan crops that
              are high-value alternatives to poppy. (UNODC photo)




36   Special inspector general   I   Afghanistan reconstruction
3   reconstruction
    Update




       37
          reconstruction Update




“[The Afghan] people have the right
to enjoy security and a comfortable
  life with a democratically elected
system of governance. Recognizing
 this right of my people, in the next
   five years, I want Afghanistan to
become a country that is capable of
  defending itself, and where peace
   reigns across the whole nation.”
         —Afghan President Hamid Karzai




          Source: Islamic Republic of Afghanistan, Office of the President, “Inauguration Speech by His Excellency Hamid Karzai, President of the Islamic
          Republic of Afghanistan at the Oath-Taking Ceremony,” accessed online 11/19/2009.




              38                           Special inspector general                   I   Afghanistan reconstruction
                        reconstruction Update




Overview
Section 3 presents a holistic view of U.S. reconstruction efforts in Afghanistan,
including an update on challenges and local initiatives. This review of the condi-
tions in the country provides a broad context for the accomplishments and chal-
lenges experienced during reconstruction.
   The section is divided into five subsections: Status of Funds; Security; Governance,
Rule of Law, and Human Rights; Economic and Social Development; and Counter-
Narcotics. The Security, Governance, and Economic and Social Development
subsections mirror the three pillars set forth in the Afghanistan National
Development Strategy (ANDS). The Counter-Narcotics subsection focuses on a
cross-cutting issue identified in the ANDS. The Graphics Key at the end of this over-
view identifies how graphics are used throughout this section.

Topics
Section 3 discusses five broad topics: historical and current funding information,
security conditions, governance activities, economic and social development pro-
grams, and counter-narcotics initiatives. Quarterly highlights dispersed through-
out this section accent a single topic related to reconstruction efforts within a
specific subsection.
    The Status of Funds subsection provides a comprehensive discussion of the
monies pledged and spent for Afghanistan reconstruction. It also includes spe-
cific information on major U.S. funds, international contributions, and the budget
of the Government of the Islamic Republic of Afghanistan (GIRoA). A quarterly
highlight provides context about GIRoA financing.
    The Security subsection details the activities of the Afghan National Security
Forces, including the Afghan National Army and the Afghan National Police, and
discusses U.S. and international efforts to bolster security in Afghanistan. A quar-
terly highlight discusses improvised explosive devices, the greatest cause of loss
of life in Afghanistan.
    The Governance, Rule of Law, and Human Rights subsection provides an over-
view of the GIRoA’s efforts and progress toward achieving good governance. It pres-
ents a comprehensive overview of progress in justice reform, anti-corruption efforts,
and aspects of religious freedom. This subsection concludes with a discussion of the
work of Provincial Reconstruction Teams (PRTs) throughout the country.
    The Economic and Social Development subsection focuses on reconstruction
activities in areas ranging from agriculture to transportation to health services.
It provides a snapshot of the state of the economy and updates on the progress



         Report to the united states congress    I   January 30, 2010            39
reconstruction Update




being made in delivering essential services, boosting agricultural output, and
growing the private sector. A quarterly highlight describes the Afghan economy
and its unique challenges.
   The Counter-Narcotics section describes efforts to reduce the prevalence
of narcotics in the Afghan economy. It provides updates on progress in achiev-
ing poppy-free provinces, alternative development programming, and capacity
development to conduct counter-narcotics work. This subsection highlights U.S.
and Afghan joint efforts to combat the drug trade and discusses the challenges
impeding the success of those efforts.


Methodology
Section 3 was created using information and data from public sources in addi-
tion to information provided from U.S. agencies. Except where SIGAR audits or
investigations are specifically referenced, SIGAR has not audited this data; the
information does not reflect SIGAR’s opinions. All data and information is attrib-
uted to the reporting organization in endnotes to the text or notes to the tables
and figures. For a complete discussion of SIGAR audits and investigations during
this quarter, see Section 2, “SIGAR Oversight.”


Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
•	 Department of State
•	 Department of Defense
•	 U.S. Agency for International Development
•	 Department of the Treasury
•	 Overseas Private Investment Corporation
A preliminary draft of the report was provided to the responding agencies prior to
publication to allow these agencies to verify and clarify the content of this section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
•	 White House
•	 U.S. agencies represented in the data call
•	 United Nations (and relevant branches)
•	 International Monetary Fund
•	 World Bank
•	 International Security Assistance Force
Most of the open-source research is included in the preliminary draft that is distributed
to agencies participating in the data call for review before this report is published.



  40                 Special inspector general   I   Afghanistan reconstruction
                                                          Graphics Key




Understanding the graphics
All figures and tables report information for the quarter (October 1 to December 31, 2009), except where
identified in titles or notes.

                                                                                                                  DAYKUNDI PROVINCE
Bar Charts                                                                    Province Maps
This report discusses many                       $500                         Province maps indicate locations discussed
funds and projects with dollar                   $450
                                                                              in the text. Referenced provinces
values ranging from millions to                                               are highlighted.
billions. To provide an accurate                 $400
graphical representation of these
                                                 $350
numbers, some bar graphs
appear with a break (a wavy line)
to indicate a jump between zero
                      ASFF  CERP          ESF       INCLE
                                                   $0
and a higher number.

                           DoD           USAID      DoS

Distinguishing Billions and Millions                                          ANDS Graphic
Because this report details funding in both billions                          This graphic represents the three pillars of the ANDS
and millions of dollars, it uses a visual cue to distin-                      and the six cross-cutting issues affecting them.
guish the two measurement
                     ASFF        units. Dollars reported                      Throughout this section, the pillar or cross-cutting
in billions are                                                               issue being discussed      is highlighted in the margin.
                                                                                            AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)
represented in      Pie Chart in Billions  Pie Chart in Millions
                          DoD
blue, and                                                                                                            SEC         GOV
                                                                                                                                    ERN
                                                                                                                                             DEVE
                                                                                                                                                 LOPM
                                                                                                                        URIT            ANC
                                                                                                                             Y                       ENT
dollars reported                                                                                                                           E

in millions                                                                                   REGIONAL COOPERATION
are depicted
in brown.                                                                                     COUNTER-NARCOTICS
                                  CERP
                                                                                              ANTI-CORRUPTION


                                                                                              GENDER EQUALITY
                            DoD

Funding Markers                                                                               CAPACITY

Funding markers identify individual funds discussed                                           ENVIRONMENTAL
in the text. The agency responsible for managing the
fund is listed in the tan box below the fund name.
These markers
are displayed
                                    ESF
in the margin.

                                         USAID




                                                    INCLE
          Report to the united states congress              I   January 30, 2010               41
                                                    DoS
Status of Funds




 42    Special inspector general   I   Afghanistan reconstruction
                                                                  Status of Funds




status of funds
As of December 31, 2009, the United States had appropriated approximately
$51.01 billion for relief and reconstruction in Afghanistan since FY 2002. This
cumulative funding total is based on data reported by agencies and amounts
appropriated in FY 2010, as shown in Appendix B. This total has been allocated
as follows: $26.75 billion for security, $14.75 billion for governance and develop-
ment, $3.75 billion for counter-narcotics efforts, $2.05 billion for humanitarian
aid, and $3.72 billion for oversight and operations. Figure 3.1 provides an over-
view of the major U.S. funds that contribute to these efforts.

Figure 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $51.01)
                                                                                                                          ASFF: Afghanistan Security Forces Fund

         ASFF                     CERP                      ESF                     INCLE                    Other        CERP: Commander’s Emergency
                                                                                                                          Response Program
        $25.23                    $2.64                    $9.74                    $2.50                   $10.90
                                                                                                                          ESF: Economic Support Fund
                                                        AGENCIES
                                                                                                                          INCLE: International Narcotics Control
                                                                                Department of              Distributed    and Law Enforcement
        Department of Defense (DoD)                        USAID
                                                                                 State (DoS)               to Multiple
                 $27.87                                    $9.74
                                                                                    $2.50                   Agenciesa
                                                                                                                          Other: Other Funding




                           AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY (ANDS)

                Security                               Governance                                   Development


Notes: Numbers affected by rounding. a. DoJ, DoD, DoS, Treasury, USDA, USAID, and other agencies.
Sources: OMB, response to SIGAR vetting, 1/21/2010; OMB, response to SIGAR data call, 1/8/2010; DoD, responses to SIGAR
data call, 1/13/2010, 1/12/2010, 1/6/2010, 10/14/2009 (preliminary numbers), and 10/1/2009; FY 2010 DoD Appropriations
Act Explanatory Statement; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and 10/9/2009; DoS, responses to
SIGAR data call, 1/8/2010 and 10/16/2009; DoT, response to SIGAR data call, 1/6/2010; DoJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009.




             Report to the united states congress                     I   January 30, 2010                           43
                                                                Status of Funds




                                                                U.S. Reconstruction Funding For Afghanistan
                                                                As of December 31, 2009, cumulative appropriations for relief and reconstruc-
  ASFF         CERP          ESF       INCLE
                                                                tion in Afghanistan amounted to approximately $51.01 billion. This total can
                                                                be divided into five major categories of reconstruction funding: Security,
                                                                Governance and Development, Counter-Narcotics, Humanitarian, and
         DoD            USAID          DoS                      Oversight and Operations. Figure 3.2 displays cumulative appropriations
                                                                by funding category. Previously reported cumulative funding totals reflect
                                                                updated agency data. For complete information regarding U.S. appropriations,
The amounts provided by the four major U.S.                     see Appendix B.
funds represent 78.6% ($40.11 billion) of                          From FY 2009 to FY 2010, cumulative appropriations increased by 29.4%—
   ASFF
reconstruction assistance in Afghanistan                        from $39.42 billion in FY 2009 to $51.01 billion in FY 2010. Security efforts have
since 2002. Of this amount, 72.1%                               received the largest cumulative appropriations. Appropriations for security
($28.91 billion) has been obligated, and                        ($26.75 billion) account for 52.4% of total U.S. reconstruction assistance. In
        DoD
62.8% ($25.20 billion) has been disbursed.                      FY 2010, security had the largest gain in cumulative appropriations (32.6%) over
The following pages provide additional
                                                                FY 2009, followed by governance and development, which had an increase of
details on these funds.
                                                                27.6% in cumulative appropriations.


               CERP

Figure 3.2

         DoD
CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY AS OF DECEMBER 31, 2009                                       ($ BILLIONS)

                                                                                                                                                                       $51.01
  $50
  $45
                                                                                                                                                      $39.42
  $40
  $35
                             ESF                                                                                                   $29.23
  $30
  $25                                                                                                            $23.04
  $20                    USAID
  $15                                                                                      $13.01
  $10                                                                   $9.52
                                                      $4.68
   $5                                 $2.07
                $1.06
   $0
                2002                  2003
                                       INCLE           2004              2005              2006                  2007               2008              2009             2010


                  Security             Governance/Development          Counter-Narcotics          Humanitarian             Oversight and Operations            Total
Note: Numbers affected by rounding.
                                       DoS
Sources: OMB, response to SIGAR vetting, 1/21/2010; OMB, response to SIGAR data call, 1/8/2010; DoD, responses to SIGAR data call, 1/13/2010, 1/12/2010, 1/6/2010, 10/14/2009
(preliminary numbers), and 10/1/2009; FY 2010 DoD Appropriations Act Explanatory Statement; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and 10/9/2009; DoS, responses
to SIGAR data call, 1/8/2010 and 10/16/2009; DoT, response to SIGAR data call, 1/6/2010; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                  44                       Special inspector general                 I   Afghanistan reconstruction
                                                                Status of Funds




   In FY 2010, almost $11.60 billion was appropriated for Afghanistan recon-
struction efforts, surpassing FY 2009 levels by 13.8%. This is the highest amount
appropriated in a single year for the reconstruction effort in Afghanistan since 2002.
   FY 2010 appropriations for security increased by 16.9% over FY 2009 appro-
priations, to more than $6.56 billion. Of the total appropriations for FY 2010,
security initiatives account for 56.6%, followed by governance and development
activities with 27.5%. Appropriations in FY 2010 for security are the second-
highest appropriations made in a single year; the highest ($7.41 billion) occurred
in FY 2007.
   Figure 3.3 displays annual appropriations by funding category from FY 2002
to FY 2010. The bars represent the amount appropriated by category, and the pie
charts represent the proportion appropriated by category. These figures reflect
amounts as reported by the respective agencies, the Office of Management and
Budget (OMB), the FY 2010 Department of Defense Appropriations Act (FY 2010
DoD Appropriations Act), and the FY 2010 Departments of Transportation and
Housing and Urban Development, and Related Agencies Appropriations Act
(FY 2010 Consolidated Appropriations Act).



Figure 3.3


APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                              ($ BILLIONS)


      $12                                                                                                                                                                   $11.60
      $11
                                                                                                                   $10.03                               $10.19
      $10
        $9
        $8
        $7                                                                                                                          $6.19
        $6
                                                                           $4.85
        $5
        $4                                                                                        $3.49
        $3                                              $2.61
        $2
                   $1.06              $1.01
        $1
        $0
                   2002               2003               2004               2005                  2006               2007            2008               2009                2010


Percentage




                        Security         Governance/Development            Counter-Narcotics              Humanitarian       Oversight and Operations               Total

Note: Numbers affected by rounding.
Sources: OMB, response to SIGAR vetting, 1/21/2010; OMB, response to SIGAR data call, 1/8/2010; DoD, responses to SIGAR data call, 1/13/2010, 1/12/2010, 1/6/2010, 10/14/2009
(preliminary numbers), and 10/1/2009; FY 2010 DoD Appropriations Act Explanatory Statement; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and 10/9/2009; DoS, responses to
SIGAR data call, 1/8/2010 and 10/16/2009; DoT, response to SIGAR data call, 1/6/2010; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




             Report to the united states congress                    I   January 30, 2010                            45
                                                       Status of Funds

   ASFF         CERP       ESF       INCLE



          DoD           USAID         DoS


                                                       Afghanistan Security Forces Fund
                                                       The Combined Security Transition Command - Afghanistan (CSTC-A) is the
                                                       primary organization responsible for building the Afghan National Security
   ASFF
                                                       Forces (ANSF).10 CSTC-A uses ASFF monies to provide the ANSF with equip-
                                                       ment, supplies, services, and training, as well as facility and infrastructure
          DoD                                          repair, renovation, and construction.11


ASFF Funds Terminology                                 Status of Funds
                                                       The FY 2010 DoD Appropriations Act—signed by the U.S. President on
DoD reported ASFF funds as available,                  December 19, 2009—provides more than $6.56 billion for ASFF. This brings the
obligated, or disbursed.                               cumulative total funding for ASFF to $25.23 billion—approximately 49.5% of
                CERP
Available: Total monies available for                  total U.S. reconstruction assistance in Afghanistan.12 As of December 31, 2009,
commitments                                            DoD reported that $18.67 billion has been made available, of which more than
Obligations:
       DoD Commitments to pay monies                   $17.76 billion had been obligated, and almost $17.55 billion disbursed. Figure 3.4
Disbursements: Monies that have been                   displays the amounts made available for the ASFF by fiscal year.13
expended                                                  From September 30 to December 31, 2009, DoD obligated approximately
                                                       $460.06 million and disbursed almost $970.49 million to support ANSF initia-
Source: DoD, response to SIGAR data call, 1/13/2010.
                                                       tives.14 Figure 3.5 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for the ASFF.

                          ESF


                                                       Figure 3.4                                                       Figure 3.5
                         USAID
                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                              ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                     ($ BILLIONS)


                                                                                                                                                                           Projected
                                                       $8.0                                                             $25.0                                              $25.23
                                     INCLE
                                                       $6.0
                                                                                                                                                 Available                 Available
                                                                                                                        $20.0
                                      DoS                                                                                                        $18.67                    $18.67
                                                       $4.0                                                                                                                Obligated
                                                                                                                                                 Obligated                 $17.76
                                                                                                                                                 $17.30
                                                                                                                                                                           Disbursed
                                                       $2.0                                                             $15.0                                              $17.55
                                                                                                                                                 Disbursed
                                                                                                                                                 $16.58

                                                         $0                                                                $0
                                                              2005      06       07      08       09       10                          As of Sept 30, 2009 As of Dec 31, 2009

                                                       Notes: Numbers affected by rounding. ASFF funding terms          Notes: Numbers affected by rounding. ASFF funding terms
                                                       (available, obligated, disbursed) and amounts for FY 2005–2009   (available, obligated, disbursed) and amounts reported as
                                                       reported as provided by DoD.                                     provided by DoD except as specified.
                                                       Sources: DoD, response to SIGAR data call, 1/13/2010; OMB,       Sources: OMB, response to SIGAR data call, 1/21/2010;
                                                       response to SIGAR data call, 1/21/2010.                          DoD, responses to SIGAR data call, 10/9/2009 and
                                                                                                                        1/13/2010.




                                                           46                         Special inspector general             I   Afghanistan reconstruction
                                                              Status of Funds




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:                                                          Budget Activity Groups: Categories within
•	 Defense Forces (Afghan National Army, or ANA)                                                                              each appropriation or fund account that
•	 Interior Forces (Afghan National Police, or ANP)                                                                           identify the purposes, projects, or types
                                                                                                                              of activities financed by the appropriation
•	 Related Activities (primarily Detainee Operations)
                                                                                                                              or fund
Funds for each budget activity group are further allocated to sub-activity groups:
Infrastructure, Equipment and Transportation, Training and Operations,                                                        Sub-Activity Groups: Accounting groups
and Sustainment.15                                                                                                            that break down the command’s disburse-
                                                                                                                              ments into functional areas
Funding by Budget Activity Group
As of December 31, 2009, almost $17.55 billion had been disbursed. Of this
amount, more than $11.47 billion (65.4%) was disbursed for the ANA and more                                                 Source: DoD, “Manual 7110.1-M Department of Defense
                                                                                                                            Budget Guidance Manual,” accessed 9/28/2009;
than $6.00 billion (34.2%) for the ANP; the remaining $0.07 billion (0.42%) was                                             Department of the Navy, “Medical Facility Manager
                                                                                                                            Handbook,” accessed 10/2/2009, p. 5.
directed toward other related activities.16
   As shown in Figure 3.6, most of the funds for the ANA were disbursed
for Equipment and Transportation (more than $4.95 billion), followed by
Sustainment activities (more than $2.99 billion). Most of the funds for the ANP
were disbursed for Sustainment activities (almost $1.68 billion), followed by
Infrastructure initiatives (more than $1.59 billion), as shown in Figure 3.7.17




Figure 3.6                                                    Figure 3.7

ASFF DISBURSEMENTS FOR THE ANA                                ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                        By Sub-Activity Group,
FY 2005–December 2009 ($ BILLIONS)                            FY 2005–December 2009 ($ BILLIONS)


                      Total: $11.47                                                 Total: $6.00
                                                                                                       Equipment and
                                                                                                       Transportation
                                                                                                       $1.35
                      Equipment and
                      Transportation
                      $4.95
                                                                          Sustainment        Infrastructure
              Sustainment       Infrastructure                            $1.68              $1.59
              $2.99             $2.44




           Training and                                                Training and
           Operations                                                  Operations
           $1.09                                                       $1.38

Notes: Numbers affected by rounding. Numbers are as of        Notes: Numbers affected by rounding. Numbers are as of
12/31/2009. ASFF funding terms (available, obligated,         12/31/2009. ASFF funding terms (available, obligated,
disbursed) reported as provided by DoD except as specified.   disbursed) reported as provided by DoD except as specified.
Source: DoD, response to SIGAR data call, 1/13/2010.          Source: DoD, response to SIGAR data call, 1/13/2010.




              Report to the united states congress               I   January 30, 2010                            47
          DoD           USAID         DoS



                                                       Status of Funds
   ASFF



          DoD



                                                       Commander’s Emergency Response Program
                                                       The Commander’s Emergency Response Program (CERP) enables U.S.
                CERP                                   commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                                                       programs that will immediately assist the local population. Funding under this
          DoD                                          program is intended for small-scale projects that cost less than $500,000 each.
                                                       Projects that cost more than $2 million are permitted but require approval from
                                                       the Commander of U.S. Central Command.18
CERP Funds Terminology

DoD reported CERP funds as appropriated,               Status of Funds
obligated, or disbursed.                               The FY 2010 DoD Appropriations Act provides $1.00 billion for CERP to promote
                                                       and support development activities. This brings the cumulative total funding for
Appropriations: Total monies available for
commitments           ESF                              CERP to $2.64 billion—approximately 5.2% of total U.S. reconstruction assis-
Obligations: Commitments to pay monies                 tance in Afghanistan.19 As of December 31, 2009, DoD reported that more than
Disbursements: Monies that have been                   $1.65 billion has been appropriated, of which more than $1.59 billion had been
                    USAID
expended                                               obligated, and more than $1.06 billion disbursed. Figure 3.8 shows CERP appro-
                                                       priations by fiscal year.20
Source: DoD, response to SIGAR data call, 1/21/2010.
                                                          Updated data from DoD reflected a nearly $20 million decrease in obligations
                                                       from the obligation figure reported as of September 30, 2009. From September 30,
                                                       2009, to December 31, 2009, DoD disbursed more than $102.52 million.21 Figure 3.9
                                     INCLE             provides a cumulative comparison of the amounts appropriated, obligated, and
                                                       disbursed for CERP projects.

                                      DoS              CERP Reporting Requirements
                                                       An explanatory statement from the House Committee on Appropriations for the
                                                       FY 2010 DoD Appropriations Act indicated that DoD needs to “greatly improve
                                                       its management and oversight and its justifications of CERP budget requests.”
                                                       According to the statement, although DoD plans to increase the use of CERP
                                                       funds in Afghanistan, the House Committee on Appropriations is concerned that
                                                       DoD may not have enough qualified personnel to conduct oversight and manage-
                                                       ment of these increased funds.22
                                                           To address these concerns, the FY 2010 DoD Appropriations Act requires the
                                                       Secretary of Defense to submit quarterly reports discussing the source, alloca-
                                                       tion, and use of CERP funds during that quarter. Furthermore, of the funds made
                                                       available, $500 million will be withheld until five days after the Secretary of
                                                       Defense conducts a thorough review of the CERP and submits a report detailing
                                                       findings to the congressional defense committees.23




                                                         48               Special inspector general   I   Afghanistan reconstruction
                                                              Status of Funds




One-Year Extension and Expansion of CERP
The National Defense Authorization Act for FY 2010 extended and expanded
the authority for the use of CERP funds for one fiscal year. As outlined in the
legislation, the Secretary of Defense may transfer funds to the Secretary of State
to support the Afghanistan National Solidarity Program. This authority is given                                                  Afghanistan National Solidarity Program:
only if the Secretary of Defense determines that such a transfer would “enhance                                                  A program created in 2003 by the GIRoA
counterinsurgency operations or stability operations in Afghanistan.” Amounts                                                    to develop the ability of Afghan communi-
transferred under this authority may not exceed $50 million.24                                                                   ties to identify, plan, manage, and monitor
   This legislation also provides authority for reintegration activities. Specifically,                                          their own development projects
CERP funds may be used for the “reintegration into Afghan society of those indi-
viduals who have renounced violence against the Government of Afghanistan.”
The extension and expansion of the use of CERP funds is set to expire on                                                       Source: MRRD, “National Solidarity Programme,” accessed
                                                                                                                               online 12/14/2009.
September 30, 2010.25




Figure 3.8                                                    Figure 3.9


CERP APPROPRIATIONS BY FISCAL YEAR                            CERP FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                  ($ BILLIONS)



$1,000                                                        $3.0

                                                                                                                Projected
                                                              $2.5                                              $2.64
  $800


                                                              $2.0
                                                                                    Appropriated                Appropriated
  $600
                                                                                    $1.64                       $1.65
                                                              $1.5                  Obligated                   Obligated
                                                                                    $1.61                       $1.59
  $400
                                                                                                                Disbursed
                                                              $1.0                  Disbursed                   $1.06
                                                                                    $0.96
  $200
                                                              $0.5


    $0                                                          $0
         2004 05        06      07      08     09      10              As of Sept 30, 2009         As of Dec 31, 2009

Notes: Data may include inter-agency transfers. Numbers       Notes: Numbers affected by rounding. CERP funding terms
affected by rounding. CERP funding terms (appropriated,       (appropriated, obligated, disbursed) and amounts reported as
obligated, disbursed) and amounts reported as provided by     provided by DoD except as specified. Updated data from DoD
DoD for FY 2004–2009.                                         resulted in a lower obligation figure than that reported as of
                                                              9/30/09.
Sources: House of Representatives, Committee on
Appropriations, “Division A, DoD Appropriations Act, Fiscal   Sources: House of Representatives, Committee on
Year 2010,” p. 405; DoD, response to SIGAR data call,         Appropriations, “Division A, DoD Appropriations Act, Fiscal
1/13/2010; OMB, response to SIGAR data call, 1/21/2010.       Year 2010,” p. 405; DoD, responses to SIGAR data call,
                                                              10/14/2009 and 1/13/2010; OMB, response to SIGAR data
                                                              call, 1/21/2010.




               Report to the united states congress                I   January 30, 2010                              49
               CERP
                                                         Status of Funds

         DoD




                                                         Economic Support Fund
                                                         Economic Support Fund (ESF) programs advance U.S. interests by helping
                          ESF
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counter-terrorism; bolster national economies; and assist
                                                         in the development of effective, accessible, independent legal systems for a more
                         USAID                           transparent and accountable government.26


ESF Funds Terminology                                    Status of Funds
                                                         The FY 2010 Consolidated Appropriations Act provides almost $2.04 billion
USAID reported ESF funds as appropriated,                for the ESF. This brings the cumulative total funding for the ESF to nearly
obligated, or disbursed.                                 $9.74 billion—approximately 19.1% of total U.S. assistance to the reconstruction
                                     INCLE
Appropriations: Total monies available for               effort.27 As of December 31, 2009, USAID reported that more than $7.70 billion has
commitments                                              been appropriated, of which more than $7.53 billion had been obligated, and more
Obligations: Commitments to pay
                              DoS monies                 than $4.97 billion disbursed.28 Figure 3.10 displays ESF appropriations by fiscal
Disbursements: Monies that have been                     year. Since September 30, 2009, USAID has obligated almost $560.18 million and
expended                                                 disbursed almost $382.13 million to support ESF programs.29 Figure 3.11 provides
                                                         a cumulative comparison of the amount of ESF funds appropriated, obligated,
Source: USAID, response to SIGAR data call, 1/21/2010.
                                                         and disbursed.

                                                         Figure 3.10                                                  Figure 3.11

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                            ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                 ($ BILLIONS)




                                                         $2.0                                                        $10.0                                            Projected
                                                                                                                                                                      $9.74

                                                                                                                      $8.0
                                                                                                                                          Appropriated                Appropriated
                                                                                                                                          $7.70                       $7.70
                                                         $1.5
                                                                                                                      $7.0                Obligated                   Obligated
                                                                                                                                          $6.97                       $7.53
                                                                                                                     $6.0

                                                         $1.0
                                                                                                                     $5.0                                             Disbursed
                                                                                                                                          Disbursed                   $4.97
                                                                                                                                          $4.59
                                                                                                                      $4.0
                                                         $0.5
                                                                                                                     $3.0



                                                           $0                                                           $0
                                                                2002 03     04    05    06    07    08    09 10               As of Sept 30, 2009         As of Dec 31, 2009

                                                         Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
                                                         affected by rounding. ESF funding terms (appropriated,       affected by rounding. ESF funding terms (appropriated,
                                                         obligated, disbursed) and amounts reported as provided by    obligated, disbursed) and amounts reported as provided by
                                                         USAID for FY 2002–2009.                                      USAID except as specified.
                                                         Sources: USAID, response to SIGAR data call, 1/15/2010;      Sources: USAID, response to SIGAR data call, 1/15/2010;
                                                         OMB, response to SIGAR data call, 1/21/2010.                 OMB, response to SIGAR data call, 1/21/2010.




                                                             50                        Special inspector general          I   Afghanistan reconstruction
                                                             Status of Funds
                                                                                                                                                           ESF



                                                                                                                                                         USAID




International Narcotics Control
and Law Enforcement
The Bureau of International Narcotics and Law Enforcement Affairs (INL) man-                                                                                          INCLE
ages an account to advance rule of law and to combat narcotics production and
trafficking—the International Narcotics Control and Law Enforcement (INCLE)
                                                                                                                                                                       DoS
account. INCLE supports several INL program groups, including police, counter-
narcotics, and rule of law and justice.30
                                                                                                                               INL Funds Terminology
Status of Funds                                                                                                                INL reported INCLE and other INL funds
The FY 2010 Consolidated Appropriations Act provides $0.42 billion for INCLE.                                                  as allotted, obligated, or liquidated.
This brings the cumulative total funding for INCLE to more than $2.50 billion—
approximately 4.9% of total U.S. reconstruction assistance in Afghanistan.31 As                                                Allotments: Total monies available
of December 31, 2009, INL reported that almost $2.20 billion had been allotted, of                                             for commitments
which more than $2.02 billion had been obligated, and more than $1.61 billion liq-                                             Obligations: Commitments to pay monies
uidated. Figure 3.12 displays INCLE allotments by fiscal year.32 Since September                                               Liquidations: Monies that have been
30, 2009, almost $103.22 million has been obligated, and almost $63.14 million has                                             expended
been liquidated.33 Figure 3.13 provides a cumulative comparison of the amount of                                               Source: DoS, response to SIGAR data call, 1/21/2010.
INCLE funds allotted, obligated, and liquidated.


Figure 3.12                                                  Figure 3.13


INCLE ALLOTMENTS BY FISCAL YEAR                              INCLE FUNDS, CUMULATIVE COMPARISON                                Funds allotted to the INCLE account
($ MILLIONS)                                                 ($ BILLIONS)                                                      support a variety of recipients. Allotments
                                                                                                                               to each recipient category are as follows:

                                                             $2.50                                              Projected      • 	68%  to domestic contractors
                                                                                                                               • 	7% totointernational
$700
                                                                                                                $2.50            	20%      GIRoA ministries
$600                                                                                                                           • organizations (foreign)
                                                             $2.25
$500                                                                                 Allotted
                                                                                                                Allotted
                                                                                                                $2.20          • 	3% to U.S. government and quasi-
                                                                                                                                  governmental organizations

$400
                                                             $2.00
                                                                                     $2.03                      Obligated
                                                                                                                $2.02
                                                                                                                               • 	2% to U.S.-based non-governmental
                                                                                                                                  organizations
                                                                                     Obligated
                                                                                     $1.92
$300                                                         $1.75
                                                                                                                               Note: Derived from informal data, as provided by DoS.
                                                                                                                               Sources: DoS, response to SIGAR vetting, 1/19/2010; DoS,
                                                                                                                               response to SIGAR data call, 1/9/2010.
$200                                                                                                            Liquidated
                                                                                     Liquidated                 $1.61
                                                             $1.50                   $1.55
$100


   $0                                                           $0
        2002 03 04 05 06 07 08 09 10                                    As of Sept 30, 2009        As of Dec 31, 2009


Notes: Data may include inter-agency transfers. Numbers      Notes: Data may include inter-agency transfers. Numbers
affected by rounding. INCLE funding terms (allotted,         affected by rounding. INCLE funding terms (allotted, obligated,
obligated, liquidated) and amounts reported as provided by   liquidated) and amounts reported as provided by DoS and INL
DoS and INL for FY 2002–2009.                                except as specified.
Sources: DoS, response to SIGAR data call, 1/8/2010;         Sources: DoS, responses to SIGAR data call, 7/10/2009 and
OMB, response to SIGAR data call, 1/21/2010.                 1/8/2010; OMB, response to SIGAR data call, 1/21/2010.




               Report to the united states congress              I   January 30, 2010                              51
                                                            Status of Funds




                                                            GIRoA Reconstruction Funding
                                                            In addition to the international donations that the Government of the Islamic
                                                            Republic of Afghanistan (GIRoA) receives for reconstruction efforts, the GIRoA
                                                            also provides funding for that purpose. The Afghan Ministry of Finance (MoF)
                                                            is responsible for the management and execution of the budget, which includes
                                                            Afghan funds for reconstruction efforts. The MoF is also accountable for interna-
                                                            tional funds that are routed through government ministries.34

                                                            Domestic Budget and Budget Execution
Figure 3.14                                                 As of December 31, 2009, the U.S. Department of the Treasury (Treasury) esti-
                                                            mated the GIRoA budget for FY 2009/2010 to be $7.87 billion. The budget is broken
GIRoA BUDGET, 2009–2010 ($ BILLIONS)                        into two major categories: the $2.97 billion core budget and the $4.9 billion exter-
                                                            nal budget.35 Figure 3.14 displays a breakdown of budget amounts by category.
                      Total: $7.87

                                                            Core Budget
                                                            The core budget receives funding from multiple sources; trust funds constitute
                    External Budget
                    $4.9
                                                            a significant portion of international contributions to the core budget. The core
                                                            budget is further divided into two subcategories: the operating budget ($1.94 bil-
                                                            lion) and the development budget ($1.03 billion). At the end of the third quarter
                                                            of Afghanistan’s fiscal year, disbursement rates for the core budget stood at 52%.
                                                            Low disbursement rates are attributed to low capacity in the line ministries and a
                                                            poor security environment, as reported by Treasury.36
       Core Budget-                 Core Budget-
       Operating                    Development             Operating Budget
       $1.94                        $1.03
                                                            As of November 2009, Treasury reported that of the $1.94 billion budgeted
Notes: Numbers affected by rounding. External budget data
                                                            for FY 2009/2010 operating expenditures, $1.20 billion had been allotted, and
reflects information provided as of 9/30/2009.              $994 million of that amount had been disbursed. According to Treasury, the
Sources: Treasury, responses to SIGAR data call, 1/5/2010
and 9/24/2009.                                              GIRoA executed 100% of its operating budget, which primarily covers recurrent
                                                            costs such as wages and salaries.37

                                                            Development Budget
                                                            Treasury also reported that of the $1.03 billion budgeted for FY 2009/2010 devel-
                                                            opment efforts, $773 million has been allotted and $541 million of that amount
                                                            has been disbursed. According to Treasury, the GIRoA has trouble executing its
                                                            development budget.38

                                                            External Budget
                                                            For FY 2009/2010, the GIRoA’s external budget was approximately $4.9 billion.
                                                            The external budget is composed primarily of security expenses, though some
                                                            development funding is included. The external budget is entirely dependent on
                                                            international assistance.39




                                                              52                Special inspector general   I   Afghanistan reconstruction
                                                                        Status of Funds




International Contributions to Afghanistan Reconstruction
According to the November 2009 Donor Financial Review (DFR), 47 countries                                              Some of the largest contributors to
have provided assistance to Afghanistan since 2002.40 As of August 2009, interna-                                      reconstruction in Afghanistan include
tional pledges amounted to approximately $62 billion. Of this amount, roughly                                          the following:
$46 billion had been committed and approximately $36 billion disbursed.41                                              •United States
   Because of significant concerns regarding capacity in Afghan government                                             •United Kingdom
institutions, many international donors use trust funds as a method to provide                                         •European Union
assistance to Afghanistan, as noted in the DFR.42 Trust fund resources are used                                        •World Bank
to finance both operating and development costs of the GIRoA. Currently, three                                         •Asian Development Bank

trust funds serve as the main sources of pooled funding:43                                                             Source: MoF, “Donor Financial Review: Report 1388,”
                                                                                                                       11/2009, p. 11.
•	 the Afghanistan Reconstruction Trust Fund (ARTF)
•	 the Law and Order Trust Fund for Afghanistan (LOTFA)
•	 the Counter-Narcotics Trust Fund (CNTF)

Contributions to the Afghanistan Reconstruction Trust Fund
As of December 21, 2009, the World Bank reported that 32 international donors
have contributed more than $3.5 billion to the ARTF since 2002. This makes the
ARTF the largest source of funds to the Afghan budget for operating and devel-
opment costs.44 Of these donors, approximately half contribute on an annual
basis.45 Figure 3.15 shows the amounts contributed by donors for 2009.


Figure 3.15

ARTF CONTRIBUTIONS FOR 2009, AS OF DECEMBER 21, 2009 ($ MILLIONS)

                                                          Total Commitments: $717
                                                             Total Paid In: $600


   United States                                                                                         264   279
United Kingdom                                            99      105
        Germany                   37             51
           Spain                  35             51
    Netherlands                        42        50
         Canada              34                  47
         Norway                    38 38
         Sweden         0             25
          EC/EU         14        17
        Australia       15 15
          Others             21             37
                    0                       50              100           150           200             250      300


                            Paid In               Commitments
Note: Numbers affected by rounding. EC/EU = European Commission/European Union.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2009,” p. 1.




              Report to the united states congress                          I   January 30, 2010               53
Status of Funds




   Twenty active projects were funded through the ARTF as of November 2009,
according to the World Bank. International donors have committed approximately
$1.00 billion for these projects, of which $761 million has been disbursed. Funds
contributed to the ARTF are allocated to the Recurrent Cost (RC) Window and
the Investment Window. The RC Window finances the operating costs of the
government, and the Investment Window provides substantial support for the
development budget. According to the World Bank, a total of $1.80 billion has
been disbursed through the RC Window since its inception to ensure the govern-
ment’s delivery of basic services such as education and health care. Investment
Window commitments have increased substantially in the last two years; as of
November 21, 2009, disbursement rates were at 74%.46

Contributions to the LOTFA
The LOTFA is also a key contributor to the Afghan budget, according to the
U.S. Agency for International Development (USAID). In 2009, international
donors committed more than $292 million to the LOTFA, of which almost
$267 million has been paid in.47 Figure 3.16 displays 2009 contributions to the
LOTFA by donor country. Administered by the United Nations Development Pro-
gramme (UNDP), the LOTFA pools resources to be used in support of the ANP.

Figure 3.16

LOTFA CONTRIBUTIONS FOR 2009 ($ MILLIONS)

                                                    Total Commitments: $292
                                                       Total Paid In: $267


          Japan                                                                                                    125 125
  United States                                                                         93 93
    Netherlands                           26 26
         Canada        7              17
United Kingdom             12        15
         Norway       0         10
              EC 2 3
       Denmark 0 2
            Italy 1 1
           CIDA       0.9|0.9
          UNDP        0.3|0.3
                  0                        25              50                 75               100                   125


                          Paid In           Commitments
Notes: Numbers affected by rounding. EC = European Commission. CIDA = Canadian International Development Agency.
UNDP = United Nations Development Programme.
Source: USAID, response to SIGAR vetting, 1/15/2010.




    54                              Special inspector general        I   Afghanistan reconstruction
                                           Status of Funds




The LOTFA finances recurrent expenditures and infrastructure projects for the
ANP. The LOTFA is currently in its fifth implementation stage, which has the fol-
lowing priorities:48
•	 payment of ANP salaries
•	 institutional development
•	 procurement, maintenance, and operations of non-lethal police equipment
   and supplies
•	 rehabilitation, maintenance, and operations of police facilities
•	 gender orientation (selection, recruitment, and training of police)
•	 payment of the salaries of uniformed personnel employed by the Central
   Prisons Department through specially earmarked contributions

Contributions to the Counter-Narcotics Trust Fund
According to the DFR, $65 million has been paid in to the CNTF as of July
2009. Resources provided through the CNTF are used to finance major projects
designed to achieve the National Drug Control Strategy.49 Responsibility over the
CNTF largely rests with the MoF and the Ministry of Counter-Narcotics, while
the UNDP ensures effective and efficient delivery of funds under national leader-
ship, according to the UNDP.50 The CNTF had an initial end-date of December           Figure 3.17
2008, but because project activities were extended, the CNTF end-date was
changed to December 31, 2009.51                                                       GIRoA DOMESTIC REVENUE,
                                                                                      2009–2010 ($ MILLIONS)
Domestic Revenue
For FY 2009/2010, Treasury estimates the GIRoA’s revenues to be almost $1.09                               Total: $1,088
billion—exceeding $1 billion for the first time. This achievement is mainly attrib-
uted to improved tax collection, as reported by Treasury. Figure 3.17 provides a
breakdown of domestic revenue for the GIRoA. Principal sources of revenue for
the GIRoA include the following:52                                                                  Tax Revenue        Customs
•	 corporate and sales taxes (46%)                                                                  $500               Revenue
•	 customs revenues (34%)                                                                                              $374
                                                                                                               Non-tax
•	 non-tax revenue (20%)                                                                                       Revenue
According to Treasury, FY 2009/2010 corporate and sales tax revenue is expected                                $214
to be $500 million; customs revenue is expected to be $374 million; and non-tax
revenue is expected to be $214 million. The GIRoA relies on donor grants to fund      Note: Numbers affected by rounding.
any core budget expenditures not covered by the domestic revenues.53                  Source: Treasury, response to SIGAR data call, 1/5/2010.




         Report to the united states congress   I   January 30, 2010         55
                                                   Quarterly Highlight




GIRoA Financing
The National Budget of the GIRoA is the central                                                     “International aid providers need
instrument used to finance implementation of the
                                                                                                   to improve resource effectiveness,
Afghanistan National Development Strategy (ANDS).54
The availability of appropriate finance in support of                                               to prevent squandering their tax-
the budget is essential to realize the goals outlined in                                           payers’ money, as well as to impart
the ANDS. Furthermore, prioritization of investment of                                              a good example for Afghanistan’s
the available domestic resources and donor financing                                                      budgetary processes.”
will promote effective implementation of the ANDS,
as noted in the “ANDS First Annual Report.”55                                                                                            —-Antonio Maria Costa,
   The GIRoA has three primary sources of financing:                                                                                   Executive Director, UNODC
domestic revenues, donor grants, and non-grant
                                                                                                                 Source: UNODC, “Corruption in Afghanistan: Bribery as reported by the
financing.56                                                                                                                                                   victims,” 1/2010, p. 7.



Revenue Collection                                                                            Reforms and New Policies in Revenue Collection
The GIRoA has been successful in surpassing the                                               The Minister of Finance has included in the budget a
7.3% goal laid out in the ANDS Annual Report.                                                 number of reforms to increase the revenue-generating
Increasing revenue collection is a priority for the                                           ability of the GIRoA.59 The International Monetary Fund
GIRoA to further aid in the implementation of the                                             (IMF) has reported the need for policy changes to meet
ANDS, but meeting revenue targets and controlling                                             expected fiscal targets.60 Table 3.1 lists some of the
expenditures continues to be difficult.57 Domestic                                            ongoing and planned administrative reforms in revenue
revenues finance only approximately 64% of operat-                                            that are proposed in the budget.
ing expenditures, while external donors finance 100%                                             The policy changes have two main objectives. First,
of the development expenditures, as reported in the                                           the changes aim to reform the business receipts tax in
November 2009 Donor Financial Review (DFR).58                                                 preparation for its future replacement by a fully opera-
                                                                                              tional value-added tax. Second, the changes seek to

Table 3.1


Administrative reforms
Reforms                                            Description
Liquidation and Privatization of                   Apply proceeds to past unpaid taxes for the respective enterprises and income tax liabilities that arise in respect
State-Owned Enterprises                            to sale or transfer of assets under the liquidation process.
Review of Tax Exemptions of Donor                  Ensure that tax exemptions claimed by donors have been correctly applied in terms of overriding donor agreements.
Contractors/Subcontractors
Expanding the Large and Medium                     Increase staffing by 50% at both offices and establish five MTOs to strengthen capability.
Taxpayer Offices (LTO, MTOs)
Expanding the Tax Base Across                      Address issues of non-compliance on a sector-by-sector basis.
Business Sectors
Continuing to Roll Out the Implementation          Strengthen the single registration body for investments and businesses that was established in 2008/2009.
of ASYCUDA to Customs Border Posts
Continuing to Assist Line Ministries in            Focus on increasing collection of overflight revenues, landing and parking fees, and departure fees.
Collection of Revenues
Source: MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” pp. 31–32.




                                                          56                       Special inspector general              I   Afghanistan reconstruction
                                  Quarterly Highlight




simplify the tax system by rationalizing the range of             Budget. Insecurity dramatically hinders the collection
fixed taxes and “nuisance” taxes collected by the MoF             of revenue and promotes the continuation of “nui-
through the drafting of four laws in FY 2009, which               sance” taxes. The current state of security inhibits
together would constitute a tax code for Afghanistan:61           the growth of trade and limits the growth of the
• 	 a revised and simplified income tax law                       productive economy.68
• 	 a new business receipts tax law                                  The FY 2009/2010 National Budget also identi-
• 	 a new tax administration law                                  fied a concern about the level of continued funding
• 	 a new value-added tax law (set to replace the busi-           provided through the ARTF RC Window; donors and
    ness receipts tax in 2011)                                    the GIRoA agreed to reduce contributions by $25
                                                                  million each year beginning in 2009. The ARTF RC
Challenges                                                        Window is the main funding mechanism for the
According to the DFR, Afghanistan faces significant               operating budget. Losing a substantial amount of
capacity and corruption issues that contribute to the             operating financing would create “pressure on the
reluctance of international donors to route funding               prioritization of available resources in an environ-
through the GIRoA.62 The DFR noted that approximately             ment where everything is a priority,” according to the
80% of external donor financing has bypassed the                  FY 2009/2010 National Budget.69
GIRoA and has been implemented directly by donors.63                 Currently, there are no proposals for new sources
The remaining 20% has been routed through the                     of revenue, as indicated in the FY 2009/2010
GIRoA; that amount includes assistance channeled                  National Budget. This forces the government to rely
through trust funds.64 The direct implementation of               on customs and tax revenues, further straining the
assistance by donors reduces the impact and effec-                revenue base. Furthermore, this additional pressure
tiveness of aid, according to the DFR, because lack               on the existing revenue base forces the revenue
of consultation with the GIRoA has often resulted in              agencies to meet or exceed defined targets.70
donors funding activities that are not GIRoA priorities.65
For assistance to be effective, the DFR stated that the
GIRoA must be involved in the allocation of resources             “Experience has shown that increased
and that donors need to increase their willingness                    information sharing serves the
to consider GIRoA priorities when contributing aid to               interest of the entire international
specific activities.66
   The DFR noted that corruption is a prevalent issue
                                                                   community—not only Afghanistan.
in Afghanistan and that the GIRoA is implementing                  Development assistance is effective
measures to address it. Specifically, an international             when we work together on the basis
standard public finance system has been established.                of the five principles of [the] Paris
In addition, the implementation of the Public Finance
and Expenditure Management Law in 2005 and its
                                                                     Declaration on Aid Effectiveness:
regulations in 2006 have helped to strengthen bud-                Ownership; Alignment; Harmonization;
getary processes. Furthermore, assessments of the                   Managing for Results; and Mutual
GIRoA’s vulnerability to corruption have helped pinpoint                      Accountability.”
areas with high corruption risk and have led to actions
to mitigate those risks.67                                                                            —Dr. Omar Zakhailwal,
                                                                                                      Minister of Finance and
Risks and Uncertainties                                                                              Senior Economic Advisor
One of the most significant risks to more stable
                                                                               Source: MoF, “Donor Financial Review: Report 1388,” 11/2009, p. I.
financing mechanisms for the GIRoA is the security
situation, as noted in the FY 2009/2010 National



         Report to the united states congress   I   January 30, 2010             57
security




 58    Special inspector general   I   Afghanistan reconstruction
                                                                  security




Security
                                                                                                             GOV   DEV
On December 1, 2009, the U.S. President announced the way forward in                                    SEC      E     EL
                                                                                                           URIT RNANC OPMEN
Afghanistan. Part of the new strategy emphasizes reversing the momentum of                                     Y     E      T
the Taliban and building local security capacity.71 The U.S. Secretary of Defense
                                                                                      REGIONAL
reported that this strategy seeks to achieve these goals:72                           COOPERATION
•	 reversing the momentum of the Taliban through sustained military action and        COUNTER-NARCOTICS
   by denying them access to key population centers and communication lines
•	 disrupting the Taliban outside secured areas and preventing al-Qaeda from          ANTI-CORRUPTION

   regaining sanctuary in Afghanistan                                                 GENDER EQUALITY
•	 degrading the Taliban to levels manageable by the Afghan National Security
   Forces (ANSF) and building the capability of the ANSF and local security           CAPACITY

   forces, to begin transitioning responsibility for security to the Afghans in       ENVIRONMENTAL
   18 months
•	 building capacity in key ministries of the Government of the Islamic
   Republic of Afghanistan (GIRoA)

   The Secretary of Defense reported that going forward, more leadership
will be given to Afghans, and work will flow through Afghan structures.73 In
December 2009, the Secretary-General of the United Nations (UN) asserted that
the GIRoA will have to implement political reforms that focus on the root cause
of insurgency—through improved governance and a political process to establish
peace.74 This section describes the status of the security efforts under way.

Security Goals
The Afghan National Development Strategy (ANDS) provides metrics to measure
progress related to security. The status of progress toward those security goals is
shown in Table 3.2 on the following page. Since last quarter, the Afghan National
Police (ANP) has made the greatest progress toward its ANDS goal, growing
from 81,509 personnel last quarter to 94,958 this quarter—an increase of approxi-
mately 16.5%.75

Security Update
On December 28, 2009, the UN Secretary-General reported that in the last quarter
the security situation in Afghanistan had deteriorated.76 The abilities of the ANSF
remain inadequate, according to the UN Secretary-General, and a clear frame-
work to define their roles and functions has yet to be developed.77 Insurgents
used improvised explosive devices (IEDs) more often during the quarter, and



         Report to the united states congress   I   January 30, 2010         59
                                                                     security




Table 3.2


Strategic PrioritiEs For Security
ANDS Security Pillar                 ANDS Target                                       Current Target                             Status                                  ANDS Completion Date
Afghan National Army                 80,000 troops (plus 6,600 in training)            134,000 troops (by September 2010)         100,131 troops                          End of 2010
Afghan National Police               82,180 professional policemen                     109,000 professional policemen (by         94,958 professional policemen           End of 2010
                                                                                       September 2010)
Disarmament of Illegal               All illegal armed groups disbanded in all                                                    88 of 132 DIAG targeted                 March 20, 2011
Armed Groups                         provinces                                                                                    districts declared compliant
Removing Unexploded                  Land area contaminated by mines and                                                          ANDS Update: 25%                        End of 2010
Ordnance                             unexploded ordnance reduced by 70%                                                           of target area cleared
                                     90% of all known mine- or explosive
                                     remnants of war (ERW)–contaminated areas                                                     DoS: 1.70 billion square meters         2012
                                     cleared                                                                                      cleared, 690 million square
                                     All emplaced anti-personnel mines cleared                                                    meters remain                           2013
Counter-Narcoticsa                   Areas under poppy cultivation reduced by                                                     Areas under poppy cultivation           2013
                                     half compared with 2007 levels                                                               reduced by 36% compared with
                                                                                                                                  2007 levels
Note: Numbers affected by rounding. a. For more detail on the counter-narcotics metric, see the “Counter-Narcotics” section.

Sources: GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6; CSTC-A, responses to SIGAR data call, 1/4/2010 and 10/2/2009; DoD, “Progress Toward Security and Stability
in Afghanistan,” 6/2009, p. 28; GIRoA, “ANDS First Annual Report 1387 (2008/2009), Part II – Appendices,” 8/1/2009, p. 36; DoS, responses to SIGAR data call, 1/6/2010 and 10/2/2009; UNODC,
“Afghanistan Opium Survey 2009: Summary Findings,” 12/2009, p. 7.




                                                                     insurgent violence reportedly increased in the northern provinces of Kunduz and
                                                                     Baghlan, both of which had been relatively peaceful.78
                                                                        The International Security Assistance Force Joint Command (IJC) reported
  Direct attacks: initiated with direct fire                         attacks on coalition forces and international civilians in four categories: direct
  weapons only                                                       attacks, indirect attacks, complex attacks, and IED attacks. From September 21 to
                                                                     December 27, 2009, there were 4,412 recorded attacks, 1,423 of which were direct
  Indirect attacks: involving indirect fire                          attacks in Helmand. Attack data for this quarter is reported from September 21 to
  weapons systems—including mortars and                              December 27, 2009, to ensure continuity with data reported last quarter.79
  rockets—but no other weapons                                          Examples of serious attacks include the October 28 insurgent attack that
                                                                     killed six UN staff members staying in a UN guest house in Kabul and the
  Complex attacks: involving a combina-                              December 30 insurgent attack that killed seven CIA agents and injured six oth-
  tion of weapon deployment systems, such                            ers at a forward operating base in Khowst.80 A January 18 attack in Kabul killed
  as direct fire following an IED attack and
                                                                     two Afghan National Army (ANA) members, two ANP members, and a currently
  direct attacks following a mortar attack
                                                                     unknown number of civilians.81
  IED attacks: incidents caused by an IED
                                                                         In the new strategy, the U.S. President highlighted the importance of coor-
  detonation against a coalition or civilian                         dinated cross-border efforts, particularly between Afghanistan and Pakistan.82
  target                                                             Afghanistan’s borders total 5,529 km: 2,430 km shared with Pakistan; 1,206
                                                                     km with Tajikistan; 936 km with Iran; 744 km with Turkmenistan; 137 km with
                                                                     Uzbekistan; and 76 km with China.83 By FY 2010, the International Security
Source: IJC, response to SIGAR vetting, 1/21/2010; CSTC-A,
                                                                     Assistance Force (ISAF) and Afghan forces plan to have six Border Coordination
response to SIGAR data call, 1/4/2010.                               Centers, according to the Congressional Research Service (CRS). Border
                                                                     Coordination Centers improve collaboration and communication between
                                                                     Pakistani, Afghan, and coalition forces at the borders.84




                                                                          60                          Special inspector general            I   Afghanistan reconstruction
                                                                                               security




Civilian Casualties
From September 21 to December 27, 2009, there were 903 civilian casualties, 836                                     Figure 3.18

of whom were Afghans, according to IJC. Of the civilian casualties represented
                                                                                                                    CIVILIAN CASUALTIES
in Figure 3.18, 283 were killed and 620 were wounded.85 This is a decrease from
the civilian casualties reported last quarter, as shown in Figure 3.19.86 Civilian
casualties represent 43% of the total for this period. The province with the high-
est civilian casualties was Kandahar.87 Casualties this quarter are reported from
September 21 to December 27, 2009, to ensure continuity with casualty data
reported last quarter.
   In 2009, the number of civilian casualties was the highest since 2001, accord-
                                                                                                                                                                  0
ing to the United Nations Assistance Mission in Afghanistan (UNAMA). UNAMA                                                                                        1–20
recorded 2,412 deaths in 2009, a 14% increase from the 2,118 deaths recorded in                                                                                   21–40
2008. Of all civilian deaths reported by UNAMA in 2009, 67% were attributed to                                                                                    41–60
anti-government elements and 25% to pro-government forces. The remaining 8%                                                                                       61–156

could not be attributed to either category because some civilians were killed in
                                                                                                                    Note: Casualties reported from 9/21/2009 to 12/27/2009.
cross-fire or when unexploded ordnance detonates.88
                                                                                                                    Source: IJC, response to SIGAR vetting, 1/21/2010;
                                                                                                                    CSTC-A, response to SIGAR data call, 1/4/2010.

Afghan National Army
As of December 20, 2009, the troop strength of the ANA was 100,131, an increase                                     Figure 3.19

of 6,151 from September 30, 2009, according to the Combined Security Transition
                                                                                                                    TOTAL CASUALTIES BY MONTH,
Command - Afghanistan (CSTC-A).89 As of October 2009, the ANA’s target was to                                       JULY–DECEMBER 2009
grow to 134,000 troops by September 2010.90 According to the CRS, the ANA has
a growth rate of 28,800 troops per year and an attrition rate of 8–9%.91
                                                                                                                    1,500           1,395
   In working to attain the ANA’s targeted troop strength, retention has been a
challenge, especially in areas of greater conflict—the south and east. To address                                   1,200                    1,115
this challenge, the GIRoA recently announced an increase in troop salary. Base                                              1,036
pay has increased, and troops in the most dangerous areas get additional combat                                      900
pay.92 In Helmand, Ghazni, and Kunduz, for example, new recruits now earn the                                                                        676      675
Afghan equivalent of $240 a month—almost twice what recruits earned before.93                                        600                                                 515
   During the first week of December, 2,659 recruits joined the ANA—half of
                                                                                                                     300
the month’s objective of 5,253. In prior months, the ANA has struggled to meet
recruitment objectives, as shown in Table 3.3.94                                                                       0
                                                                                                                             July    Aug      Sept    Oct     Nov        Dec

Table 3.3                                                                                                                       ANP
                                                                                                                                ANA
ANA Recruitment, September–november 2009                                                                                        Coalition Forces
                                                                                                                                Civilian
Month                                                                  Recruitment Objective     Number Recruited
                                                                                                                    Note: Casualties recorded in December as of 12/27/2009.
November                                                                              5,442                 4,303
                                                                                                                    Sources: IJC, response to SIGAR vetting, 1/21/2010;
October                                                                               4,408                 3,811   CSTC-A, response to SIGAR data call, 10/2/2009; CSTC-A,
                                                                                                                    response to SIGAR data call, 1/4/2010.
September                                                                             2,400                  831
Source: DoD, “Incentives Show Promise for Afghan Forces,” 12/9/2009.




              Report to the united states congress                      I   January 30, 2010              61
                                                security




                                                   The ANA also faces other challenges, including insufficient intelligence, sur-
                                                veillance, and reconnaissance capabilities, as well as inadequate air capabilities
                                                (such as close air support) and insufficient MEDEVAC capabilities. Currently
                                                these capabilities are provided by the U.S. and international forces.95

                                                ANA Training Status
                                                From October 1 to December 24, 2009, ANA training organizations graduated
                                                12,625 soldiers, a 9% decrease from the preceding quarter. Most graduated from
                                                the Kabul Military Training Center, as shown in Figure 3.20. Other training this
                                                quarter included explosive ordnance disposal, counter-insurgency, logistics, and
                                                command and staff training.96 ANA graduates were assigned to 1 of 15 units. This
                                                quarter, more graduates were assigned to the 205th Corps than to any
                                                other unit.97
                                                    Language barriers continue to challenge ANA training and operations. Dari
                                                and Pashtu, Afghanistan’s most widely spoken languages, are not mutually intel-
                                                ligible and are difficult to learn; thus, translators are in short supply. Regional
                                                differences in dialect make it hard to find translators who can be successful and
                                                accepted, according to the CRS.98
                                                    The low literacy rate in Afghanistan also continues to pose a challenge
                                                for ANA training. The North Atlantic Treaty Organization Training Mission -
                                                Afghanistan (NTM-A) and CSTC-A have increased their literacy training capacity.
                                                Literacy training now serves as a way to improve the quality of the ANA and also
                                                as an incentive for joining the service, according to the Office of the Secretary of
                                                Defense (OSD).99

                                                Figure 3.20
ANA soldiers learn to clean and maintain
their rifles during a NATO-sponsored training   ANA TRAINING GRADUATES BY PROGRAM
program. (ISAF photo, SPC Christopher
Nicholas)
                                                       Total Graduates: 12,625                                                                 Other Training Programs: 369


                                                                                                               Explosive Ordnance
                                                                                                                          Disposal                                             132

                                                          Kabul Military                                       Counter-insurgency
                                                          Training                                               Training Center–                                     93
                                                                                            Other                     Afghanistan
                                                          Center
                                                                                            Training
                                                          10,591                                                   Command and
                                                                                            Programs                                                                 92
                                                                                                              General Staff College
                                                                                            369
                                                                                                                            Logistics                      52
                                                                                                                              School
                                                                                     Consolidated
                                                                                     Fielding Center a                                  0     25      50        75   100 125
                                                                                     1,665

                                                a. At the Consolidated Fielding Center, units form, equip, and conduct initial collective training.
                                                Source: CSTC-A, response to SIGAR data call, 1/4/2010.




                                                    62                          Special inspector general                    I   Afghanistan reconstruction
                                                                                                     security




Figure 3.21

ANA UNIT CM RATINGS, PERIOD-TO-PERIOD COMPARISON

Capability Milestone (CM)
                                                                                                                  34
CM1: capable of operating independently          CM1
                                                                                                                                  44


CM2: capable of planning, executing, and                                                                                          44
sustaining operations at the battalion level     CM2
with international support                                                                                             37


CM3: partially capable of conducting                                                                                                   46
operations at the company level with             CM3
support from international forces                                                                                            41


CM4: formed but not yet capable of                                              13
conducting primary operational missions          CM4
                                                                  5

                                                       0               10              20              30               40


                                                           As of Dec 31, 2009               As of Sept 13, 2009

Notes: May not include fire support, close air support, and MEDEVAC.
CM1 = All criteria adequately met, quantitative measures >85%, qualitative assessment of functionality in role >85%.
CM2 = Most criteria adequately met, quantitative measures 70–85%, qualitative assessment of functionality in role 70–85%.
CM3 = Few criteria adequately met, quantitative measures 50–70%, qualitative assessment of functionality in role 50–70%.
CM4 = No criteria adequately met, quantitative measures <50%, qualitative assessment of functionality in role <50%.
SIGAR is conducting an ongoing audit to evaluate the reliability of ANSF assessments, including the CM rating system.
Sources: CSTC-A, response to SIGAR data call, 1/4/2010; CSTC-A, response to SIGAR data call, 10/2/2009; DoD OSD,
response to SIGAR data call, 7/8/2009.


    The age demographic presents another challenge to the development of the
ANA. Because of Afghanistan’s years of warfare, there is a dearth of troops aged
35 to 55. The CRS reports that because of the small number of personnel in this
age range, it will take up to a generation to train the next set of senior leaders.100
    The ANA currently has an inadequate number of training teams and instruc-
tors, according to the OSD. As of December 2009, there was a requirement for
104 Operational Mentor and Liaison Teams (OMLTs), which are the training
teams that work in the field with the ANA. Currently, 63 OMLTs are on the ground
and 21 have been planned. OSD is working with the international community to
fill the need for more instructors and training teams.101

ANA Readiness
To express incremental improvements in the capability of the ANSF, CSTC-A uses
Capability Milestone (CM) ratings, as shown in Figure 3.21.102 As of December 31,
2009, CSTC-A reported that 34 ANA units—approximately 25% of the units rated
for this quarter—were at the highest rating, CM1. Last quarter, approximately 35%
of ANA units were rated CM1. Ten additional units were rated this quarter.103
   As of October 2009, the ANA participates in approximately 90% of ISAF
operations and leads 62% of joint operations, according to the North Atlantic



               Report to the united states congress                         I   January 30, 2010                             63
                                                          security




                                                          Treaty Organization (NATO).104 The Afghan National Army Air Corps (ANAAC)
                                                          continues to develop, focusing mainly on air mobility to transport forces and
                                                          supplies.105 The ANAAC flew 90% of ANA air support missions in 2009, com-
                                                          pared with 10% in mid-2008. Every month, the ANAAC moves more than 5,000
                                                          passengers and more than 40,000 kg of cargo, according to NATO.106 The CRS
                                                          reported that the ANAAC will begin to acquire attack capabilities over the next
                                                          five years.107 As of October 2009, the ANAAC has 187 pilots; its fleet comprises 29
                                                          rotary-wing and 10 fixed-wing aircraft, according to NATO:108
                                                          •	 17 Mi-17, 3 DV Mi-17, and 9 Mi-35 helicopters
An Afghan officer discusses lessons
learned from observing a training exercise
                                                          •	 5 AN-32, 1 AN-26, and 2 C-27 transport aircraft
in combating terrorism during counter-                    •	 2 L-39 “Albatros” jet trainer aircraft
insurgency operations. (U.S. Marine Corps
photo, GySgt Christian M. Harding)                           Current and near-future acquisitions are for aircraft of Soviet origin, owing to
                                                          Afghan pilots’ familiarity with them, but the intent of the Combined Air Power
                                                          Transition Force (which is part of CSTC-A) is to move away from such aircraft
                                                          in future planning.109 According to OSD, current plans include the delivery of
                                                          20 C-27s, which will serve as the ANAAC’s primary fixed-wing aircraft and will
                                                          expand airlift and air-delivery capabilities for the ANSF.110 The target strength
                                                          for the ANAAC is 7,500 personnel and 125 rotary-wing and fixed-wing aircraft by
                                                          December 2016, according to NATO.111

                                                          ANA Infrastructure Status
                                                          Infrastructure projects for the ANA include barracks, headquarters, training
                                                          buildings and ranges, administrative spaces, warehouses and storage buildings,
                                                          and maintenance facilities. According to CSTC-A, 11 ANA infrastructure projects
                                                          worth $160.62 million were scheduled for completion between October 1 and
                                                          December 31, 2009, compared with 18 projects valued at $176.98 million last
                                                          quarter. This quarter, no contracts were awarded; last quarter, 27 contracts worth
                                                          $239.21 million were awarded.112
Figure 3.22

ANA CASUALTIES BY PROVINCE                                ANA Casualties
                                                          From September 21 to December 27, 2009, there were 238 ANA casualties,
                                                          according to IJC: 173 soldiers wounded in action and 65 killed in action. The
                                                          number of ANA casualties decreased by 46% from the preceding quarter. The
                                                          greatest number of casualties occurred in Helmand, as shown in Figure 3.22.113

                                                          ANA Equipment Status
                                                          From October 1 to December 31, 2009, the ANA fielded 1,791 radios, 980 vehicles,
                                              0           and 15,097 weapons (see Figure 3.23), according to CSTC-A. The only weapons
                                              1–20        that the ANA procured this quarter were 12,305 M16A4 rifles.114 The largest dif-
                                              21–40
                                                          ference in equipment fielded was the number of weapons, which was more than
                                              41–56
                                                          seven times as many as last quarter.115
Note: Casualties reported from 9/21/2009 to 12/27/2009.
Source: IJC, response to SIGAR vetting, 1/21/2010;
CSTC-A, response to SIGAR data call, 1/4/2010.




                                                            64                Special inspector general   I   Afghanistan reconstruction
                                                                                                 security




Figure 3.23

ANA EQUIPMENT
                                                                                                          15,097
15,000                    13,803
                                                                                                 12,305
12,000

 9,000                                                                                   7,793

 6,000                                                           4,174
                  3,396
 3,000                              1,791                1,487               980
     0
                          Radios                                 Vehicles                          Weapons


                                            Planned          Procured              Fielded
Source: CSTC-A, response to SIGAR data call, 1/4/2010.




Afghan National Police
As of December 31, 2009, the ANP’s personnel strength was 94,958, an increase
of 13,449 from May 2009, according to CSTC-A.116 The target personnel strength
is 109,000 by September 2010.117
   The Law and Order Trust Fund for Afghanistan (LOTFA) recently approved a
comprehensive pay package for the ANP, according to OSD. It provides person-
nel with longevity pay, which increases with every three years of service. The pay
package also increases base pay by $45 per month and adds hazardous duty pay
for personnel serving in medium- and high-threat districts.118
   Because of Afghan cultural traditions, only a small number of women serve in
the ANP. To address needs such as interviewing female victims of violent crime
and searching women at border checkpoints and airports, the U.S. Department
of State (DoS) provides basic training to female ANP officers in a single-gender
environment at the Women’s Police Corps training centers. DoS civilian police
advisors also provide support to Family Response Units, which respond to cases
of domestic violence and are staffed largely by female police officers.119
   In October 2009, the UN Development Programme (UNDP) published the
Police Perception Survey, 2009, which portrays the Afghan public’s view of the
ANP. The survey sampled 5,156 Afghans from July 9 through July 21, 2009.120 The
results showed that 49% of respondents thought the police were keeping crime
under control and that 42% believed that police performance had improved over
the past two years.121 On the negative side, Afghans believed that corruption was
a problem in the ANP: 52% responded that “some” or “a lot of” police misused
their authority. Opinions of corruption in the ANP ran higher in Kabul, where 54%
of respondents thought that the police were involved in the drug trade and 44%
believed that the police were involved in crime.122
   Respondents were also asked what types of violent activity had occurred
in their area over the past year. More respondents replied “yes” to bombing



             Report to the united states congress                        I   January 30, 2010                      65
                                              security




                                              Table 3.4


                                              Afghans’ Perception of Violent Events
                                              Type of Activity                                                                         Respondents Who Replied Yes (%)
                                              Bombing or shelling by U.S., NATO, or ISAF forces                                                                    72
                                              Civilians killed or hurt by U.S., NATO, or ISAF forces                                                               69
                                              Civilians killed or hurt by ANA or ANP                                                                               67
                                              Car bombs, suicide attacks                                                                                           66
                                              Snipers, cross-fire                                                                                                  64
                                              Civilians killed or hurt by Taliban, al-Qaeda, or foreign jihadists                                                  60
                                              Kidnappings for ransom                                                                                               59

                                              Note: Percentage represents total “yes” replies out of 5,156 surveyed.
                                              Source: UNDP, “Police Perception Survey 2009: The Afghan Perspective,” 10/2009, p. 11.



                                              or shelling by U.S., NATO, or ISAF forces than to any other violent event, as
                                              shown in Table 3.4.
                                                 The Afghan Ministry of Interior (MoI) is conducting a Personnel Asset
                                              Inventory to help the police force maintain accountability and minimize oppor-
                                              tunities for corruption. The inventory process includes registration, drug testing,
                                              re-vetting, and obtaining biometrics information for all ANP personnel. To
                                              date, the MoI has successfully accounted for 41,000 ANP personnel in Kabul,
                                              Kandahar, and six other high-threat provinces. Police in the remaining provinces
                                              will begin to be registered on February 1, 2010; the anticipated completion date
                                              is April 1, 2010.123

                                              ANP Training Status
                                              From October 1 to December 17, 2009, ANP training organizations graduated
                                              4,286 personnel, a 48% decrease from the preceding quarter.124 ANP training orga-
                                              nizations offer the following courses:
                                              •	 Basic Patrolman
                                              •	 Advanced Patrolman
                                              •	 Afghan Civil Order Police (16-week program)
                                              •	 Border Police (6 weeks)
                                              •	 Counter-Narcotics
ANP officers participate in a training        •	 Police Academy Officer Training
course conducted by Civil Affairs personnel   •	 Police Academy Non-Commissioned Officer Training
from the Ghazni PRT designed to build good    •	 Officer Candidate School
relationships with the villagers, enhance     •	 Provincial Response Company (14 weeks)
public support for police actions, and
                                              •	 Focused District Development Leadership and Management Development
decrease support for insurgent activities.
(Combined Joint Task Force - 82 PAO Photo,    •	 Focused District Development Officer and Non-Commissioned Officer Basic
MSgt Sarah Webb)                              •	 Women’s Police Centers (8 weeks)
                                              •	 Crime Scene Investigator (6 weeks)
                                              •	 Intelligence Course for Female ANP (6 days)
                                              •	 Intelligence Training (2 weeks)
                                              •	 Instructor Development (4 weeks)



                                                  66                         Special inspector general                I   Afghanistan reconstruction
                                                                  security




•	 Trauma Assistance Personnel (8 weeks)
•	 Criminal Investigation Department and Prosecutors (4 weeks)
•	 Driver Training (various programs)
As of December 23, 2009, the ANP has 5,972 personnel in training. Some ANP             Figure 3.24
graduates this quarter were given provincial assignments. Graduates were
                                                                                       ANP TRAINING GRADUATES
assigned to seven provincial locations, as shown in Figure 3.24. The largest
                                                                                       BY PROVINCIAL ASSIGNMENT
number of graduates was assigned to Helmand.125
    ANP regional training centers address a high illiteracy rate among ANP
personnel by using various methods of instruction, including instructor demon-
strations, illustrative depictions of lessons, and hands-on training. Also at these
regional training centers, ANP personnel receive literacy training from non-
governmental organizations (NGOs) that are funded by DoD.126
    A key to the long-term sustainment of the ANP is developing the ability of
                                                                                                                                    0
the Afghans to carry out training without the assistance of the international                                                       1–60
community, according to the DoS Bureau of International Narcotics and Law                                                           61–120
Enforcement Affairs. International assistance is provided through “train the                                                        121–180
trainer” courses in which civilian police advisors work with Afghan trainers.127                                                    181–557

Currently, Afghans lead all training at regional training centers; civilian advisors
                                                                                       Source: CSTC-A, response to SIGAR data call, 1/4/2010.
oversee them.128 According to NATO, the ANP needs more robust training and
mentoring, as well as increased equipment supply.129
    To increase operational capabilities and survivability, NTM-A assists with
ANP development, focusing on reform at ANP districts and at lower levels of the
force. The European Union Police Mission (EUPOL) is also involved in train-
ing, focusing on conventional policing and higher-level police management and
standards. NTM-A and EUPOL development activities are coordinated through
the Joint Coordination and Monitoring Board and the International Police
Coordination Board.130
    In addition to training ANP personnel, DoS is also assisting the MoI with
training. It has provided the MoI with executive and professional mentors to
assist ministry officials in personnel management, administration, planning, and
other areas.131
    NTM-A and CSTC-A are working closely with the MoI to establish a new
ANP Training Command to take over the management, supervision, and
execution of all ANP training. Currently, ANP training centers are managed
by NTM-A, contractors, and coalition forces. The MoI will continue to provide
ANP instructors for the training centers. NTM-A is emphasizing improvement
in Afghan instructor selection and qualifications, including instructors for the
“train the trainer” programs.132 In conjunction with the MoI, NTM-A will focus
on leadership development for commissioned and non-commissioned officers
and will review instruction programs and standardize training delivery across
all training centers.133
    The MoI recently established a six-month officer school at the ANP Academy,
where 900 officer candidates attend training. The ministry is also exploring the
possibility of training ANP officers abroad.134




         Report to the united states congress   I   January 30, 2010          67
security




Figure 3.25

ANP UNIT CM RATINGS, PERIOD-TO-PERIOD COMPARISON

Capability Milestone (CM)
                                                                                  12
CM1: capable of operating independently          CM1
                                                                                 11


CM2: capable of planning, executing, and                                                                             29
sustaining operations at the battalion level     CM2
with international support                                                                                                        37


CM3: partially capable of conducting
                                                                                                                             35
operations at the company level with             CM3
support from international forces                                                                                           34


CM4: formed but not yet capable of                                                                  21
conducting primary operational missions          CM4
                                                                                      13

                                                       0                   10                  20                   30

                                                           As of Dec 31, 2009              As of Sept 13, 2009

Notes: One unit completed the District Development Program in December and thus is no longer rated.
CM1 = All criteria adequately met, quantitative measures >85%, qualitative assessment of functionality in role >85%.
CM2 = Most criteria adequately met, quantitative measures 70–85%, qualitative assessment of functionality in role 70–85%.
CM3 = Few criteria adequately met, quantitative measures 50–70%, qualitative assessment of functionality in role 50–70%.
CM4 = No criteria adequately met, quantitative measures <50%, qualitative assessment of functionality in role <50%.
SIGAR is conducting an ongoing audit to evaluate the reliability of ANSF assessments, including the CM rating system.
Sources: CSTC-A, response to SIGAR data call, 1/4/2010; CSTC-A, response to SIGAR data call, 10/2/2009; DoD OSD,
response to SIGAR data call, 7/8/2009.




   Despite the number of personnel graduating from training in recent quarters,
70% of ANP personnel have not been through any formal police training, accord-
ing to OSD. Training will be performed through Afghan Police Training Teams,
which are currently in short supply. OSD is working with the international com-
munity to fill the shortfall of 119 training teams.135

ANP Readiness
As of December 31, 2009, there were 12 ANP units—approximately 12% of
the units rated for this quarter—at CM1, according to CSTC-A.136 Last quarter,
approximately the same percentage of ANP units were rated CM1, as shown in
Figure 3.25.137 Two additional units were rated this quarter.138

ANP Infrastructure Status
Infrastructure contracts for the ANP—like those for the ANA—relate to bar-
racks, headquarters, training buildings and ranges, administrative spaces,
warehouses and storage buildings, and maintenance facilities. According to
CSTC-A, ANP facilities are sustained through a national operations and mainte-
nance contract. This contract includes training to enable the eventual handover
of full operations and maintenance responsibility to the MoI.139



    68                           Special inspector general                 I    Afghanistan reconstruction
                                                                                             security




Figure 3.26

ANP EQUIPMENT

                                                                                          2,448
2,500
2,000
                                                                                                   1,515
1,500                                                                                                       1,257
1,000         629                                    536                  520
 500                            309                          395
                        0
    0
                            Radios                         Vehicles                               Weapons


                                          Planned          Procured             Fielded

Source: CSTC-A, response to SIGAR data call, 1/4/2010.




    As of December 31, 2009, CSTC-A reported 250 active infrastructure contracts,
compared with 269 in the preceding quarter; the largest group of these contracts
is for projects in the north. Seventy-seven contracts with a collective value of
$174.35 million were scheduled to be completed during the quarter. Seventeen
contracts with a collective value of $14.50 million were terminated this quarter,
one for security concerns and the others for contractor performance. No new
contracts were awarded from October 1 to December 31, 2009.140

ANP Equipment Status
From October 1 to December 31, 2009, the ANP fielded 309 radios, 520 vehicles, and
1,257 weapons, according to CSTC-A (see Figure 3.26). The only ANP procurements
this quarter were 1,515 AK-47 assault rifles and 395 light tactical vehicles.141

ANP Casualties                                                                                                           Figure 3.27

From September 21 to December 27, 2009, there were 258 ANP casualties,                                                   ANP CASUALTIES BY PROVINCE
according to IJC: 155 personnel wounded in action and 103 killed in action. Total
ANP casualties decreased by 52% from the preceding quarter. Casualties were
concentrated in the southern provinces, as shown in Figure 3.27. The greatest
number of casualties occurred in Helmand.142


Disarmament of Illegal Armed Groups
The UNDP-initiated Afghanistan New Beginnings Program (ANBP) supports
the Disbandment of Illegal Armed Groups (DIAG) program.143 The ANBP classi-
                                                                                                                                                                       0
fies and destroys safe or unsafe ammunition and operational or non-operational                                                                                         1–20
weapons.144 In addition, the ANBP has assigned staff members from the                                                                                                  21–37
Disarmament and Reintegration Commission to serve as a coordinating group
for national and international DIAG efforts. According to DoS, the ANBP has 350                                          Note: Casualties reported from 9/21/2009 to 12/27/2009.

national staff members, 6 international staff members, and 7 regional offices that                                       Source: IJC, response to SIGAR vetting, 1/21/2010;
                                                                                                                         CSTC-A, response to SIGAR data call, 1/4/2010.
conduct operations in all 34 provinces, provide assistance to regional governors,
and coordinate activities at the local level.145



             Report to the united states congress                     I   January 30, 2010                          69
                                             security




                                                The DIAG unit within the MoI is responsible for the registration of weapons,
                                             including the weapons of private security companies. LOTFA funds are used to
                                             assist this DIAG unit. The ANBP provides technical support and assistance in
                                             capacity building to the MoI DIAG unit so that it can continue to register pri-
                                             vate security companies and expand the weapons registration program to all
                                             provinces.146 To date, 33 officers have been appointed to the MoI’s DIAG unit,
                                             according to DoS; training began in October 2009.147
                                                Under Afghanistan’s Firearms, Ammunition and Explosives Law, any weapon
                                             that is not registered with the GIRoA is deemed illegal; licenses are obtained
                                             through the MoI. DIAG is working with the MoI to improve this process, which is
                                             long and challenging, according to DoS.148
ANP officers search a cave in Khowst for
illegal weapons caches during a joint mis-
sion with U.S. soldiers. (U.S. Army photo,   Status
SSgt Andrew Smith)                           According to DIAG, an illegal armed group is “any group of five or more armed
                                             persons under one command and control mechanism” that is not under the
                                             command of the GIRoA or part of the coalition forces.149 From October 1 to
                                             December 19, 2009, DIAG disbanded 17 illegal armed groups and collected
                                             245 weapons. As of December 19, of 132 districts targeted by DIAG District
                                             Implementation, 88 have been declared compliant, according to DoS. During this
                                             period, the MoI registered 1,494 weapons, and security forces confiscated 241
                                             weapons, which were to be handed over to DIAG.150 Table 3.5 identifies progress
                                             of the DIAG effort to date.

                                             Security Operations
                                             According to DoS, local security officials facilitate the collection of weapons and
                                             work with ANBP weapon collection teams, which maintain collection points in
                                             all provinces. Weapons are handed over by former commanders and placed in a
                                             weapons storage site maintained by the Afghan Ministry of Defense (MoD).
                                             If collected weapons are functional, they may be reissued to the ANA.151

                                             Table 3.5


                                             Disarmament Progress To Date
                                             Source                                                                              Number of Weapons
                                             Weapons collected by DIAG                                                                      45,830
                                             Weapons collected/confiscated by national security agencies                                    11,815
                                             Individual weapons registered by MoI                                                           18,961
                                             Private security companies’ registered weapons                                                 16,927
                                             Weapon destroyed or kept by ISAF, estimated                                                    14,000
                                             Total                                                                                        107,533
                                             Note: Data as of 12/19/2009.
                                             Source: DoS, response to SIGAR data call, 1/6/2009.




                                                 70                        Special inspector general       I   Afghanistan reconstruction
                                                                  security




Challenges
Several donors have stopped funding DIAG because of concerns over account-
ability, oversight, verification, and other issues; therefore, funding has become a
problem in sustaining DIAG, according to DoS. USAID has been a donor but is
unable to continue financial support because of regulations placed on the fund-
ing mechanisms it used for this program. The UNDP provided a $2 million grant
to sustain the program. Japan and several smaller donors are looking at support-
ing DIAG as well.152
   The United States and DIAG representatives are discussing DIAG’s role in
the GIRoA reintegration plan for groups that have been disarmed.153 According
to the UN Secretary-General, many disbanded groups have requested employ-
ment in the ANP or community police groups.154 Part of the development of the
reintegration plan is the establishment of strong verification and accountability
mechanisms. The international community is concerned about the minimal con-
tinuing oversight of disbanded groups and individuals, and the lack of ongoing
verification that disbanded group members remain unarmed and demobilized.
Many Afghans are reluctant to register weapons, for fear of losing the weapons
that they think they may need for self-protection. Also, individuals are report-
edly turning in old or non-working weapons to obtain DIAG reward money while
retaining functional weapons.155
   According to DoS, ISAF intelligence officers estimate that many of the insur-
gents who can be easily convinced to give up their arms have done so already.
The officers anticipate that remaining groups may be more ideologically commit-
ted and more resistant.156

Removing Unexploded Ordnance
From April 1, 2009, to March 30, 2010—within the Afghan solar year 1388—two
organizations share responsibility for control of all mine-action activities—the
UN-assisted Mine Action Coordination Center of Afghanistan (MACCA) and the
Afghan Department of Mine Clearance. The Department is the primary agency
responsible for explosive remnants of war (ERW) and mine-risk education; it
works with the Ministry of Education in this effort.157 MACCA has established
Area Mine Action Centers across the country—in Gardez, Herat, Jalalabad,
Kabul, Kandahar, Kunduz, and Mazar-e Sharif. These centers are staffed entirely
by Afghans. They coordinate, oversee, and monitor demining activities at the
regional and provincial levels.158 The Mine Action Program of Afghanistan
(MAPA), started by the UN in 1989 and overseen by MACCA, is another large
contributor to the effort.159
   The Ministry of Labour, Social Affairs, Martyrs, and Disabled (MoLSAMD) is the      A mortar round was found buried in the
main Afghan agency responsible for monitoring and reporting activities related         ground next to a house as part of an opera-
to victim-assistance. The MoLSAMD oversees the ministries and stakeholders             tion to remove unexploded ordnance. (U.S.
involved in assisting those affected by mines.160 In addition to destroying ERW, the   Army photo, SFC Leonardo Torres)
DoS Conventional Weapons Destruction Program protects victims of conflict and
provides humanitarian aid. The Office of Weapons Removal and Abatement in the
Bureau of Political-Military Affairs (PM/WRA) manages this program.161



         Report to the united states congress   I   January 30, 2010          71
                                                         security




                                                         Status
In August 2009, a large effort began to                  From January to November 2009, 48,769 anti-personnel mines, 644 anti-tank
clear 4 million square meters of mine-                   mines, and 1,092,527 ERW were destroyed, according to UNAMA. Also during
contaminated land for the site of the                    this period, 402,903 women and girls and 612,665 men and boys received educa-
Afghanistan Defense University. The U.S.                 tional training about the risks of mines.162 Training organizations have retained
Army Corps of Engineers (USACE) and                      several thousand defused mines for use in training exercises.163
CSTC-A are working together in this effort
                                                            Community-based demining is often used in areas considered too dangerous
with the help of a consulting firm. Ordnance
                                                         for NGOs or contractors. MACCA has planned for 43 community-based demining
is detected using the latest subsurface
detection equipment, which searches up to
                                                         teams; 23 were active as of June 2009.164
1 to 4 meters into the earth. The removal
team has found about 1,000 pieces of ord-                ANSF Operations
nance every 10 days, including large                     DoS reported that ANSF members who are engaged in the removal of mines
artillery projectiles, mortars, grenades,                and ERW are trained and monitored by U.S. Forces - Afghanistan (USFOR-A)
small arms, mines, and cluster munitions.                and CSTC-A. ANSF mine-removal training is conducted through the ANSF
                                                         Explosive Ordnance Disposal Counter-IED Program and the ANA Engineer
Source: USACE, “Dangerous Real Estate: USACE Cleans Up
Most Heavily Mined Region of Afghanistan,” 9/2/2009.     School in Mazar-e Sharif.165
                                                            In addition to humanitarian work, the PM/WRA assists with the destruction
                                                         of excess, unserviceable, and at-risk ANSF weapons and ordnance. According to
                                                         DoS, the PM/WRA also provides technical assistance for the security and stock-
                                                         pile management of serviceable ANSF weapons and ordnance.166
                                                            As DoD reported at the beginning of December 2009, more than 1,000 ISAF
                                                         troops are partnering with Afghan forces in an operation called Khareh Cobra
                                                         (Cobra’s Anger) to clear insurgents from the Now Zad valley in northern
                                                         Helmand province. A main objective of the operation is to provide security for
                                                         GIRoA agencies and NGOs so they can clear IEDs and mines from the region,
                                                         eventually enabling its repopulation.167

                                                         Challenges
                                                         In May 2009, the GIRoA reported that fulfillment of mine-clearance operations
                                                         will cost roughly $500 million over five years, according to the NGO Landmine
                                                         Monitor.168 Mine-clearing action is funded primarily by international donors, but
                                                         MAPA announced that there will be more substantial efforts to explore funding
                                                         capacity within the GIRoA.169

                                                         Coalition Forces
                                                         In October 2009, NATO established NTM-A to oversee higher-level training for
                                                         the ANA, as well as training and mentoring for the ANP.170 NTM-A works with
                                                         the U.S.-led CSTC-A to build on the expanding task of training and mentoring
                                                         the ANSF.171 The key elements of NTM-A include an increase in OMLTs and
                                                         police OMLTs, as well as an increase in the ANSF institutional training base. At
                                                         the same time as the establishment of NTM-A, NATO established the IJC to man-
                                                         age deployed mentoring and training teams for the ANSF. While NTM-A focuses
                                                         on ANSF institutional training, education, and professional development activi-
                                                         ties, the development of MoD and MoI will remain under the control of CSTC-A.



                                                           72               Special inspector general   I   Afghanistan reconstruction
                                                                  security




NTM-A will help to create a more robust and integrated training structure for        The troop surge will significantly affect
the ANSF, while helping to reduce duplication of effort.172 The commander of         logistics. Large quantities of personnel,
NTM-A stated that its mission lies in teaming, transparency, and transition.173      cargo, and supplies must be delivered.
   In its streamlined vision for Afghanistan in 2008, NATO established four guid-    Equipment transport is a challenge in
ing principles.174 Those principles have been adjusted slightly. When the NATO       Afghanistan, a landlocked nation with
                                                                                     some of the highest mountains in the world.
defense ministers met in Bratislava in October 2009, they set these priorities:175
                                                                                     Approximately 50% of the nation’s cargo
•	 focusing on the Afghan population
                                                                                     is transported by the main supply route
•	 building ANSF capacity
                                                                                     through Pakistan from the port of Karachi;
•	 promoting better Afghan governance                                                30% is moved through the Northern
•	 engaging better with regional neighbors such as Pakistan                          Distribution Network, using railroad lines;
                                                                                     and 20% is delivered by air, the most ex-
   On December 4, 2009, the ISAF foreign ministers met to discuss priorities         pensive method. For details on the Northern
for Afghanistan, which included protecting the Afghan people, building Afghan        Distribution Network, see the “Economic
security capacity, and facilitating governance and development. To build security    and Social Development” section.
capacity, ISAF contributing nations pledged to invest more in training, equipping,
                                                                                     Source: DoD, “Logisticians Ready for Afghan Transportation
and sustaining the ANSF.176                                                          Task,” 12/9/2009.
   The UN Security Council reported an extension of the authorization of the
ISAF for 12 months from October 13, 2009. Resolution 1890 calls on ISAF mem-
ber states to contribute personnel, equipment, and other resources to further
strengthen the ISAF and encourages the ISAF to use these resources to acceler-
ate the progress of the ANSF toward the goal of self-sufficiency.177
   On December 1, 2009, the U.S. President announced an increase of 30,000 U.S.
troops over the next year, accompanied by an increase in international forces.178
These forces will be concentrated in the southern and eastern regions. Also in
December, the Secretary of Defense sought an increase of approximately 5,000 to
7,000 troops from countries other than the United States.179

Coalition Force Casualties
From September 21 to December 27, 2009, there were 716 coalition force               Figure 3.28

casualties: 89 were killed in action, and 627 were wounded in action, according
                                                                                     COALITION FORCE CASUALTIES BY PROVINCE
to IJC. Coalition force casualties, which accounted for 34% of the total casual-
ties in this period, were concentrated in Helmand and Kandahar provinces, as
shown in Figure 3.28.180




                                                                                                                                    0
                                                                                                                                    1–20
                                                                                                                                    21–40
                                                                                                                                    41–60
                                                                                                                                    61–273


                                                                                     Note: Casualties reported from 9/21/2009 to 12/27/2009.
                                                                                     Source: IJC, response to SIGAR vetting, 1/21/2010;
                                                                                     CSTC-A, response to SIGAR data call, 1/4/2010.




         Report to the united states congress   I   January 30, 2010         73
                                  Quarterly Highlight




Improvised Explosive
Devices
After years of armed conflict and Soviet occupation,
many explosive remnants of war (ERW) remain in
Afghanistan.181 Easy access to explosives and the
ability to manufacture explosive materials, combined
with access to commercial technologies and simple
training, makes it possible to create a highly danger-
ous weapon at very little expense, according to the
Joint IED Defeat Organization (JIEDDO).182

Impact                                                              To remove IEDs, U.S. and coalition forces operate Buffalo
                                                                    mine-clearing vehicles, using their signature extending arms.
From September 21 to December 27, 2009, there
                                                                    (French Ministry of Defense photo)
were 836 IED attacks on coalition forces or interna-
tional civilians, according to IJC.183 Over the past year,
3,170 IED detonations killed more than 850 civilians.               signatures, chemical traces, and blast patterns to
Of all deaths from IEDs, 36% were civilians—most of                 develop an understanding of how IED attacks unfold.190
them children. Landmine Monitor reported that risky                    JIEDDO collaborates with other organizations in
activities for civilians include travel, recreation, animal         the common mission of countering IEDs.191 Experts in
tending, and collection of wood, water, and food.184                explosives investigation from the Bureau of Alcohol,
   IEDs in Afghanistan come in many forms. Three                    Tobacco, Firearms, and Explosives; the Defense
common forms are victim-operated IEDs, usually                      Intelligence Agency; the Central Intelligence Agency;
involving a pressure-plate initiator buried in the road;            and the National Ground Intelligence Center recently
command wire IEDs; and suicide IEDs.185 According                   trained counter-IED units on tactical site exploitation,
to the UN Secretary-General, there has been an                      post-blast investigative techniques, and weapons
increase in the use of IEDs triggered by pressure                   technical intelligence.192
plates, which explode when a vehicle passes over                       On November 12, 2009, the U.S. Secretary of
them.186 Despite the presence of ERW and the                        Defense announced the creation of a special task
increasing number of IEDs triggered by pressure                     force to counter the threat of roadside bombs.193
plates, most reported attacks involve remotely deto-                Among other efforts, the task force will study the
nated IEDs that target passing vehicles, according to               lessons learned by the mujahadeen in their struggle
Landmine Monitor.187                                                with the Soviet Union three decades ago, in the hope
                                                                    of improving current tactics, techniques, and proce-
Counter-IED Training                                                dures used in counter-IED activities.194
IEDs are the leading killer of soldiers in Afghanistan,
according to U.S. Central Command.188 To combat                     Actions Against IEDs
this threat, JIEDDO started a pilot training initiative in          From September 21 to December 27, 2009, a total
late September 2009 called “Tidal Sun,” which will                  of 1,580 IEDs were found prior to detonation, accord-
provide battalions with specialized counter-IED teams.              ing to IJC.195 Bomb technicians in explosive ordnance
Each counter-IED team provided through this initiative              disposal (EOD) units can use a wide range of materi-
consists of five or six specialists.189 The teams trained           als to defuse IEDs—from advanced robots to water
through Tidal Sun will examine and analyze explosive                and plastic bottles.196



                                       74                    Special inspector general   I   Afghanistan reconstruction
                                    Quarterly Highlight




    Mine-resistant, ambush-protected (MRAP) vehicles                  pounds) in a warehouse and an additional 4,000
are designed to resist IEDs. Their V-shaped hulls and                 bags at a nearby compound. Forces also seized
armor plating protect against and deflect explosions                  5,000 components used in IEDs.200
from mines and IEDs. The overall casualty rate of troops                 Forensic laboratories and other analytical
in MRAPs is 6%, making MRAPs the most survivable                      resources will be used to help identify and track the
vehicle in the DoD arsenal, according to the CRS.197 A                terrorist networks that are responsible for creating
special “Buffalo” MRAP uses a hydraulic arm to “inter-                bombs.201 Through the news media, regional gov-
rogate” suspected IEDs seen on the road, potentially                  ernment officials and public representatives have
leading to their disarming or controlled detonation.198               promoted the importance of citizens taking part in the
    Troops in Afghanistan also use a newly designed                   effort against IEDs.202
mine-resistant all-terrain vehicle (M-ATV). The M-ATV is                 The counter-IED mission goes beyond finding and
a lighter and more maneuverable vehicle than the tradi-               destroying found materials, according to DoD. It also
tional MRAP, designed with an independent suspension                  includes winning the hearts and minds of locals who
system to handle Afghanistan’s rugged terrain. The                    may support or may be aware of IED activity.203
M-ATV uses the same V-shaped hull as the MRAP to                         Award programs give monetary incentives ranging
deflect explosions and is designed to have the same                   from $50 to $10,000 for information leading to the
survivability as a traditional MRAP.199                               disruption or defeat of enemy activity and the capture
    On November 8, 2009, the ANP and ISAF seized                      of enemy weapons, including IEDs.204 Since October 1,
250 tons of suspected bomb-making material                            2009, about 150 Afghans have received cash rewards
and detained 15 people in a raid in southeastern                      for reporting weapons caches or providing tips leading
Afghanistan. The material included 1,000 bags of                      to their recovery, according to ISAF.205
ammonium nitrate fertilizer (each weighing 100




An IED was found and destroyed by Australian and ANA forces during a recent operation in southern Afghanistan. (ISAF photo)



          Report to the united states congress      I   January 30, 2010              75
Governance




76    Special inspector general   I   Afghanistan reconstruction
                                                       Governance




Governance, Rule of Law,                                                                 AFGHANISTAN NATIONAL
                                                                                         DEVELOPMENT STRATEGY (ANDS)
AND HUMAN RIGHTS
In the wake of the fraud and violence that marred the 2009 presidential                                         GOV   DEV
                                                                                                           SEC      E     EL
                                                                                                              URIT RNANC OPMEN
elections, many world leaders stressed the importance of good governance                                          Y     E      T
to reconstruction efforts in Afghanistan, including the U.S. President and the
                                                                                         REGIONAL
Secretary-General of the United Nations (UN).206 As this report went to press,           COOPERATION
an international conference was planned for January 28, 2010, in London to               COUNTER-NARCOTICS
improve governance and stability in Afghanistan. The President of Afghanistan,
the UN Secretary-General, and the Prime Minister of the United Kingdom (U.K.)            ANTI-CORRUPTION
were to host foreign ministers from the International Security Assistance Force          GENDER EQUALITY
(ISAF) member countries, representatives from Afghanistan’s neighbors, and key
regional players. Representatives from the North Atlantic Treaty Organization            CAPACITY

(NATO), the UN, the European Union, and international organizations such as              ENVIRONMENTAL
the World Bank were expected to attend.207
   The U.S. strategy for Afghanistan highlights the importance of new directions,
including a stronger civilian strategy built in partnership with the international
community. In his speech on December 1, 2009, President Barack Obama spoke
of the need to enhance the independence and efficiency of the Government of the
Islamic Republic of Afghanistan (GIRoA), emphasizing improved anti-corruption
measures and government accountability. He also stressed the importance of
clear transition time frames, which are designed to convey to the GIRoA the
urgent need to act quickly to take responsibility for its own governance.208
   As the President stated, “We must strengthen the capacity of Afghanistan’s
security forces and government so that they can take lead responsibility for
Afghanistan’s future.”209
   In keeping with these new strategy elements, the U.S. Department of State
(DoS) reported plans to increase the number of experts in governance and rule of
law in Afghanistan. DoS also plans to increase the number of technical advisors
supporting Afghan ministries. This increase in civilian staff will be drawn from
DoS, the U.S. Agency for International Development (USAID), the U.S. Department
of Agriculture, the U.S. Department of Justice (DoJ), the U.S. Department of the
Treasury, and other U.S. agencies. DoS anticipates that the increase in civilian advi-
sors at key government levels will help the GIRoA become “more visible, effective,
and accountable.”210




         Report to the united states congress   I   January 30, 2010           77
                                                          Governance




                                                          Recent Events
                                                          On November 2, 2009, Afghanistan’s Independent Election Commission
                                                          declared that President Hamid Karzai had been re-elected to a second term.
                                                          The announcement followed a contentious election, marked by widespread fraud
                                                          that left none of the candidates with a 50% majority of the votes. Dr. Abdullah
                                                          Abdullah’s decision to not participate in a second round of elections paved the
                                                          way for the IEC’s declaration.211
                                                             Following the elections, the international community called on President
                                                          Karzai to appoint a cabinet of reform-minded ministers to improve governance
                                                          and reduce corruption. As stated by the UN Secretary-General, “Given the
                                                          irregularities experienced in the 2009 presidential election, the newly appointed
                                                          government will have to demonstrate its legitimacy by the manner in which it
                                                          delivers on its commitments.”212
                                                             On December 19, 2009, President Karzai submitted the first round of candi-
  Wolesi Jirga: The lower house of the                    dates for his new cabinet to the Wolesi Jirga, which must issue a vote of confi-
  Afghan National Assembly, comprising 249                dence to confirm cabinet appointees.213 The Wolesi Jirga rejected most of the
  elected representatives                                 nominees, including the only woman nominated.214
                                                             On January 9, President Karzai presented a second group of nominees.215 On
                                                          January 16, the Wolesi Jirga approved 7 of them but rejected 10. The approved
Source: CRS, “Afghanistan: Politics, Elections, and       ministers will be appointed to the ministries of Foreign Affairs, Justice, Counter-
Government Performance,” 11/2/2009, p. 2.
                                                          Narcotics, Pilgrimage, and Rural Rehabilitation.216

Figure 3.29                                               Governance
                                                          The Afghanistan National Development Strategy (ANDS) stresses the develop-
CORRUPTION RANKINGS, 2005–2009
Afghanistan vs. All Countries Surveyed                    ment of governance as “essential” to attaining the national vision for the GIRoA
                                                          and to creating a stable and functional society.217 It identifies three major chal-
                                117/158                   lenges to strong governance in Afghanistan: corruption, low public-sector capac-
2005                                                      ity, and gender inequality.218 To combat these challenges, the ANDS specifies
                                                          several areas of focus, including a stronger IEC, public administration reform,
2006                    NOT RANKED                        and programs to fight corruption in the government.219
                                              172/179
2007                                                      Anti-Corruption
                                               176/180
                                                          The international community, including the U.S. President and Secretary of
2008
                                                          State, has voiced concerns about the levels of corruption in the GIRoA.220 In
                                               179/180
                                                          Transparency International’s “Corruption Perceptions Index 2009,” Afghanistan
2009
                                                          ranked 179, second only to Somalia in perceived levels of corruption.221 Figure 3.29
       0           50         100          150            reviews Afghanistan’s rank in the index over the past five years. Figure 3.30 shows
                                                          the countries ranked worst in terms of public perception of corruption in 2009.
           Countries Surveyed
                                                             President Karzai has announced plans to reduce corruption. They include
           Afghanistan’s Ranking
                                                          simplifying administrative systems and strengthening accountability for interna-
Note: Afghanistan was not ranked in 2006.
Sources: Transparency International, “Annual Report:
                                                          tional donor funds that pass through the GIRoA.222
2005,” 2005, p. 17; Transparency International, “Annual
Report: 2007,” 2007, p. 27; Transparency International,
                                                             Corruption undermines security, development, and state- and democracy-
“Annual Report: 2008,” 2008, p. 51; Transparency          building activities, according to a USAID-funded assessment. The assessment
International, “Corruption Perceptions Index 2009,”
accessed online 1/11/2010.                                found that corruption in Afghanistan has become “pervasive, entrenched, and



                                                            78                Special inspector general   I   Afghanistan reconstruction
                                                                              Governance




Figure 3.30


CORRUPTION: WORST-PERCEIVED COUNTRIES, 2009
Ranked Out of 180 Countries




                                                                                           IRAQ (tie) 176            179 AFGHANISTAN



                                                                                                                                       178 MYANMAR
                                                                                  CHAD 175             176 SUDAN (tie)


                                                                                                               180 SOMALIA




Note: The tie for 176 eliminated 177 from the ranking.
Source: Transparency International, “Corruption Perceptions Index 2009,” accessed online 1/13/2010.



systemic.”223 The Overseas Private Investment Corporation (OPIC) recently noted                                                  “We’ll support Afghan
that the high levels of corruption in permit and customs offices in Afghanistan
impede the success of private-sector projects.224
                                                                                                                               ministries, governors, and
   This quarter, SIGAR published an audit of Afghanistan’s High Office of                                                      local leaders that combat
Oversight (HOO) that found that the HOO does not meet the organizational,                                                        corruption and deliver
external, or personal independence requirements necessary to be an effective                                                   for the people. We expect
oversight body. The audit also found that the HOO continues to experience oper-
                                                                                                                               those who are ineffective
ational challenges, including limited availability of qualified personnel. In addi-
tion, it found that the United States, which has committed to support the HOO,                                                       or corrupt to be
has not designated an office or individual responsible for providing assistance.225                                                held accountable.”
SIGAR made several recommendations to improve the capabilities of the HOO.
                                                                                                                                    —U.S. President Barack Obama
For details, see Section 2, “SIGAR Oversight.”
                                                                                                                              Source: White House, “Remarks by the President in Address
                                                                                                                              to the Nation on the Way Forward in Afghanistan and
Capacity Development in Public Administration                                                                                 Pakistan,” 12/1/2009.

The ANDS goals for public administration focus on enhancing the capacity and
quality of the GIRoA workforce.226 One way in which the United States plans to
help the GIRoA achieve these goals, according to DoS, is by increasing the number
of Afghan ministries that are certified to receive direct U.S. funding. DoS stated
that increased direct funding will help enhance the ministries’ capacity, improve
the effectiveness of U.S. assistance, and decrease U.S. reliance on contractors to



              Report to the united states congress                     I   January 30, 2010                       79
                                                                Governance




                                                                provide that assistance.227 Direct funding to ministries has been restricted to about
                                                                10% of U.S. aid in order to prevent corruption, but the U.S. Special Representative
                                                                for Afghanistan and Pakistan stated in May 2009 that the figure would have to be
                                                                increased to 40% or 50% to improve capacity within ministries.228
                                                                   USAID reported a large discrepancy between the salaries of Afghan and expa-
                                                                triate advisors (paid by donors) and those of government employees (paid by the
                                                                GIRoA). This discrepancy has created what the World Bank has called a “second
                                                                civil service.” Similarly, USAID noted that it is difficult to determine where the
                                                                work of advising, mentoring, and coaching by advisors ends and the actual work
                                                                of GIRoA staff members begins.229
                                                                   To combat salary-related challenges, USAID and its implementing partners
                                                                plan to end all salary supplements and payments to GIRoA officials by January
                                                                31, 2010. Instead, all salary assistance will be made in the form of on-budget
                                                                direct transfers from USAID to the Afghan Ministry of Finance through the
                                                                Civilian Technical Assistance Plan (CTAP). In so doing, USAID hopes to prevent
                                                                multiple-source payments and align all government payments with the GIRoA
  Special Advisory Board: A five-member
  panel; two members are appointed by the
                                                                pay scale. The CTAP focuses on empowering the GIRoA to recruit, hire, and
  Afghan President. According to DoS, the                       place technical advisors at national, provincial, and district levels.230
  Board experienced difficulties at first, but                     Table 3.6 provides information about USAID plans to update public adminis-
  has seen an improvement in the number                         tration programming for 2010, including updates to older programs, and a new
  of consultations it has been asked to                         performance-based incentive program for provincial governors.
  undertake. The Board’s review is now a                           Another issue facing the development of the GIRoA’s capacity in public
  standard part of the appointment process                      administration is the political nature of the appointment process. According to
  for governors and district administrators.                    DoS, district administrator and governorship appointments are made through
                                                                the collaboration of the Independent Directorate of Local Governance (IDLG)
                                                                and the Special Advisory Board to the President for Senior Appointments. The
Source: DoS, response to SIGAR data call, 1/6/2010.             IDLG recommends candidates, and the Special Advisory Board vets them. DoS

Table 3.6


USAID Public Administration ReForm Programming for 2010
Current Program                                                           Plans for Updated Programming
Support to the Center of Government Program (2003–March                   Updated Programming: USAID plans to design three new technical assistance mechanisms to replace the
2010): Sponsored by the Asia Foundation, this program provides            existing program. The mechanisms will be designed on the basis of discussions with the three institutions
technical assistance and salary supplementation to the Office of          they will support: the Office of Administrative Affairs, the HOO, and the Ministry of Foreign Affairs.
Administrative Affairs, the HOO, and the Ministry of Foreign Affairs.
Capacity Development Program: This program provides general               Afghanistan Civil Support Program: This updated program will focus on building the capacity of the
capacity building and salary supplementation to several ministries        Independent Administrative Reform and Civil Service Commission, instead of individual ministries. The
and vocational institutions. It includes providing advisors to encour-    program also includes an exit strategy for U.S. support.
age a higher-quality workforce in GIRoA public administration.
No program is currently in place.                                         Performance-Based Governor’s Fund: This new program will provide each provincial governor with $25,000
                                                                          per month for operating expenses, and monitor the spending of the funds.
Municipal Governance Program: This program focuses on small-              Municipal Governance Program (updated): This program is expected to focus on three activities: building
scale infrastructure and some technical assistance. Currently, the        the capacity of municipal officials, providing a service-delivery grants fund for mayors, and building systems
program covers six municipalities.                                        to increase revenue generation at the municipal level. The program plans to cover at least 42 municipalities.
Source: USAID, response to SIGAR data call, 1/5/2010.




                                                                     80                    Special inspector general              I   Afghanistan reconstruction
                                                       Governance




reported that because the president of Afghanistan has ultimate authority over
all appointments, they are inextricably connected with factors other than strict
qualifications—a possible hindrance to enhancing the quality of the GIRoA work-
force. One potential resolution may lie in the proposed sub-national governance
policy. According to DoS, this policy would require that district administrators be
selected based on merit. The new cabinet is expected to review the policy during
one of its first meetings.231
    Overall, the quality of the GIRoA workforce remains weak, as reported by
DoS. Many government workers are ill qualified or under-trained for the jobs
they are expected to perform, and in some agencies (such as the police force),
finding literate workers is a challenge. To enhance the quality of the workforce,
the United States is assisting Afghan institutions in developing in-house training
programs. For example, U.S. funding supports the Independent National Legal
Training Center, which provides post-graduate training for young lawyers. It
also supports the Civil Service Commission, which expects to train 16,000 civil
servants in functionalities, including procurement, financial management, project
management, and human resources.232

Building Capacity for Elections
In December 2009, the UN Secretary-General stressed the need to reform the                “The elections were a
Afghan electoral system before the 2010 parliamentary elections, in light of the
                                                                                      revealing snapshot of what
violence and fraud reported during the 2009 presidential elections. The suggested
reform measures included reviews of five elements of Afghan elections:233               has not been achieved in
•	 the impartiality of the appointment mechanism for IEC commissioners                  Afghanistan. Despite the
•	 the construction of sustainable structures for the organization of elections        flaws, however, this is not
•	 ways to improve the voter registration system                                       a reason to abandon what
•	 the development of mechanisms for domestic observation
•	 the legal framework for elections
                                                                                         has been achieved and
                                                                                           what must now be
   DoS reported that the way in which the elections were conducted did not                     built upon.”
have a strong influence on public opinion about the government; however, UN
observations suggest that the process damaged Afghans’ trust in the country’s                             —UN Secretary-General
                                                                                                                   Ban Ki-moon
economic and social stability.234 Several banking institutions have reported
an increase in withdrawals from private banks, and embassies in Kabul have
                                                                                      Source: UN, “Report of the Secretary-General: The Situation
reported a large increase in the number of Afghans applying for visas.235             in Afghanistan and Its Implications for International Peace and
                                                                                      Security,” 12/28/2009, p. 11.
   The IEC announced this quarter that it plans to conduct parliamentary elec-
tions (for the Wolesi Jirga) on schedule in May 2010.236 However, district elec-
tions, initially scheduled to take place in 2010 as well, have been postponed
indefinitely. According to the Congressional Research Service (CRS), continued
corruption and the limited availability of qualified Afghan staff have contributed
to the delay.237




         Report to the united states congress   I   January 30, 2010         81
                                                                     Governance




                                                                     Legislative Updates
                                                                     By constitutional mandate, the National Assembly meets in two sessions each
                                                                     year for a total of nine months. For a vote to be taken, each house must establish a
                                                                     quorum: a majority of the Assembly members must be present.238 On January 6,
                                                                     2010, DoS reported that according to U.S. Embassy Kabul estimates, the National
Figure 3.31
                                                                     Assembly has had a quorum only 15% of the time it met.239
HOUSES OF THE AFGHAN NATIONAL ASSEMBLY                                  Figure 3.31 gives details on the two houses of the Afghan National Assembly.
                                                                     According to the CRS, because of the delayed district council elections, the
                                                                     responsibility for appointing two-thirds of the Meshrano Jirga will fall to provin-
     Meshrano Jirga                       Wolesi Jirga               cial councils. Ordinarily, the provincial councils would appoint only one-third of
                                                                     the seats.240
                                                                        Since 2003, the National Assembly has passed 17 criminal laws, according to
                                                                     INL; none were passed in either 2007 or 2009 (see Figure 3.32).241 DoS reported
  “House of Elders”                  “House of the People”
                                                                     that the main challenges to passing legislation in Afghanistan are ethnic and
   Upper House                        Lower House                    regional divisions, and the lack of formal political parties and structures.242
   102 seats                          249 seats
   Appointed:                         Elected by voters
    1/3 by President
    1/3 by provincial councils
                                                                     Afghan Census
    1/3 by district councils                                         A national census has never been completed in Afghanistan.243 A census would
                                                                     provide the GIRoA with population data and establish national economic and
Source: CRS, “Afghanistan: Politics, Elections, and
Government Performance,” 11/2/2009.                                  poverty baselines. The ANDS goal was to have a census done by the end of
                                                                     2008; instead, the census is now expected to start in 2010.244 The United Nations
                                                                     Population Fund (UNFPA) attributes the delay to security concerns, but the
                                                                     Afghan Central Statistics Organization (CSO) reported that its capabilities had

Figure 3.32


AFGHAN CRIMINAL LAW PASSAGE BY YEAR


  2002                    2003                         2004                  2005                   2006                2007               2008                  2009
  • • • • • • • • • • • • • • • • • • • •                                                            • • • • • • • • • •                    • • • • • • • • • •
                           1 LAW PASSED:               5 LAWS PASSED:        7 LAWS PASSED:         2 LAWS PASSED:                         2 LAWS PASSED:
                           Counter-Narcotics           Anti-Money            Combating the          Military Criminal                      Anti-Terrorism Law
                           Law (amended                Laundering Law        Financing of           Procedure Code                         Anti-Kidnapping and
                           2006)                       Campaign Against      Terrorism Law          Military Penal                         Human Trafficking
                                                       Financing Terrorism   Prisons and            Code                                   Law
                                                       Law                   Detention Centers
                                                       Campaign Against      Law
                                                       Money Laundering      Police Law
                                                       and Its Proceeds      Juvenile Law
                                                       Law                   (Juvenile Code)
                                                       Campaign Against      Firearms,
                                                       Bribery and           Ammunition, and
                                                       Administrative        Explosives Law
                                                       Corruption Law
                                                                             Military Court
                                                       Interim Code of       Reform Law
                                                       Criminal Procedure
                                                       for Courts            Military Courts Law                         Laws passed         No laws passed


Source: INL, response to SIGAR data call, 1/11/2010.




                                                                          82                       Special inspector general       I   Afghanistan reconstruction
                                                                               Governance




been “rendered almost completely ineffective” as a result of more than two                                                  Only eight countries have not completed
decades of war.245                                                                                                          a census since 1985: Afghanistan,
  Previous attempts to complete a national census also met with difficulty. A                                               Angola, the Democratic Republic of
1979 attempt was terminated after the Soviet Union invaded. In August 2002, the                                             the Congo, Djibouti, Eritrea, Lebanon,
UNFPA launched an effort to assist in a 2005 national census, but the project                                               Myanmar, and Togo.
was either abandoned or delayed; no information is available from that effort.246                                           Source: UN Statistics Division, “Census Dates for All
The Central Intelligence Agency (CIA) estimates the current population of                                                   Countries,” accessed online 1/11/2010.

Afghanistan at more than 28 million.247

Justice Reform
According to DoS, the Afghan statutory framework is still weak. Although some
laws have been updated with the help of mentors and drafting experts, DoS
stated that the overall framework remains “insufficient to provide clear
direction to government officials and to guarantee basic rights to citizens.”248 An
estimated 80% of local disputes continue to be solved by consultative councils
of local leaders.249
   Within the ANDS, the GIRoA recognized that strong justice reform and rule
of law are fundamental to improved economic growth, which would increase
employment opportunities and thereby reduce poverty.250 Table 3.7 provides
details on goals for justice reform.

Table 3.7


STRATEGIC PRIORITIES FOR Justice And RULE OF LAW
Benchmark                                                                                                Target
Number            Afghanistan Compact Rule of Law Benchmarks                                             Completion Date
1                 The legal framework required under the Constitution—including civil, criminal,         End of 2010
                  and commercial law—will be put in place, distributed to all judicial and
                  legislative institutions, and made available to the public.
2                 Functioning institutions of justice will be fully operational in each province         End of 2010
                  of Afghanistan, and the average time to resolve contract disputes will be
                  reduced as much as possible.
3a                Review and reform of oversight procedures relating to corruption, lack of due          End of 2010
                  process, and miscarriage of justice will be initiated.
3b                Reformations to strengthen the professionalism, credibility, and integrity of          End of 2010
                  key institutions of the justice system (Ministry of Justice, Judiciary, Attorney-
                  General’s Office, Ministry of Interior, and National Directorate of Security).
4                 Justice infrastructure will be rehabilitated, and prisons will have separate           End of 2010
                  facilities for women and juveniles.
Source: GIRoA, “Afghanistan National Development Strategy: Governance, Rule of Law, and Human Rights,” p. 65; GIRoA,
“The Afghanistan Compact,” 1/31–2/1/2006, p. 8.




              Report to the united states congress                      I   January 30, 2010                           83
                                                      Governance




                                                      Table 3.8


                                                      INL Justice Reform Goals
                                                      High-Level Goal                                   Quarterly Update
                                                      Focus on providing justice to a larger por-       INL modified task orders for the Justice Sector Support Program (JSSP)
                                                      tion of the population, including women,          and Correctional System Support Program (CSSP), expanding assis-
                                                      juveniles, and minorities                         tance to women and juveniles. As part of this effort, INL worked closely
                                                                                                        with the Ministry of Justice Directorate, which is responsible for juvenile
                                                                                                        justice within the GIRoA.
                                                      Encourage the GIRoA to take appropriate           INL, through the JSSP, is assisting in the development of a GIRoA policy for
                                                      steps to integrate existing traditional justice   integrating traditional justice into the formal justice system. The working
                                                      mechanisms into the new justice system            group decided to restart the process to include all Afghan ministries. During
                                                                                                        the previous iteration of this exercise, the Ministry of Women’s Affairs and
                                                                                                        the Afghan Independent Human Rights Commission boycotted the proceed-
                                                                                                        ings. The JSSP worked to re-engage both entities in the process.
                                                      Source: INL, response to SIGAR data call, 1/9/2010.




                                                         To assist the GIRoA in meeting these objectives, U.S. goals focus on obtaining
                                                      tangible improvements in the Afghan justice system.251 Table 3.8 lists two INL
                                                      goals specifically focused on justice reform, along with updates on progress for
                                                      this quarter.

                                                      Criminal Procedure Code
The mission of the Afghanistan JSSP:                  As of January 2010, the Afghan National Assembly has still not reviewed the
“To assist the government of Afghanistan in           draft version of the revised Criminal Procedure Code (CPC). As reported last
developing and strengthening the country’s            quarter, the draft CPC was delivered to the Ministry of Justice in June 2009 by the
criminal justice sector, as a means to en-            Criminal Law Reform Working Group—co-chaired by the Justice Sector Support
able the courts and the professionals in the          Program (JSSP) and the UN Office on Drugs and Crime. INL reported that the
justice sector to deliver fair and effective          new CPC comports with the new Constitution and works to meld Islamic law
services to the citizens of Afghanistan.”             principles with international standards. INL also stated that the greatest threat
Source: JSSP, “Mission,” accessed online 1/11/2010.
                                                      to improved criminal procedure is the replacement of the Minister of Justice,
                                                      because “a change at the top has the potential to paralyze the whole organization
                                                      for a long time.”252 President Karzai’s new Minister of Justice was approved on
                                                      January 16, 2010.253
                                                         According to INL, elements of the CPC are being implemented ad hoc, and
                                                      U.S. justice advisors do not distinguish between the new and old CPCs in trying
                                                      to ensure that current laws are enforced as written. U.S. funding through INL
                                                      supports nine DoJ advisors, who work directly with the Criminal Justice Task
                                                      Force, the Major Crimes Task Force, and the Anti-Corruption Unit (ACU).254

                                                      Afghanistan Justice Sector Support Program
                                                      The advisory responsibilities of the Afghanistan JSSP were expanded recently
                                                      to include the Afghan court system; previously, the program focused only on the
                                                      Ministry of Justice and the Attorney General’s Office. In addition to continuing
                                                      mentoring and advisory programs with the Afghan Supreme Court and train-
                                                      ing efforts in Kabul, the JSSP plans to include judges in its regional training




                                                          84                         Special inspector general              I   Afghanistan reconstruction
                                                                             Governance




Table 3.9


JSSP Quarterly Update
Area of Advisory Service Description of Activities
Training                     Prosecutors and Criminal Investigative Department (CID) police continued to receive training
                             at five regional centers.
                             Modifications to the JSSP task force expanded its responsibilities to include training for the
                             Public Affairs offices of the Ministry of Justice and the Attorney General’s Office.
Advising                     INL provided two assistance packages to the ACU, including motorcycles, cell phones,
                             cameras, and computer and office equipment.
                             The JSSP provided each regional center with a senior advisor, tasked with mentoring senior
                             Afghan justice officials in provincial capitals.
                             INL assigned a senior provincial justice advisor based in Kabul to visit every province and
                             assess the training and capacity building needs in each province.
Capacity Building            JSSP dedicated Afghan legal consultants in the Attorney General’s Office, the ACU, and the
                             Ministry of Justice who provide day-to-day assistance to the Attorney General, the Minister of
                             Justice, and their deputies.
                             INL provided international advisors to assist the Criminal Legal Reform Working Group, which
                             has been responsible for re-drafting the CPC and the Penal Code. Advisors on implementing
                             priority reorganization and reform were also provided for the Attorney General’s Office.
Source: INL, response to SIGAR data call, 1/9/2010.




programs, including specialized training for provincial judges.255 Table 3.9
provides details on JSSP activities during the last quarter, as provided by INL.

Corrections System Support Program
The Corrections System Support Program (CSSP) is an INL program that works
with the GIRoA to bolster the Afghan prison system. Its overarching goal is to
help the GIRoA create a safe, organized, modern prison system capable of effec-
tive prisoner rehabilitation. Currently, 35 U.S. corrections advisors are working
on the CSSP.256
   According to INL, the ongoing challenges to Afghan corrections include an
under-funded and under-staffed Central Prison Directorate (CPD), decrepit and
overcrowded facilities, and a lack of alternatives to incarceration.257
   INL’s goals for the CSSP in 2010 include an increased focus on deradicaliza-
tion, reintegration, and rehabilitation programming; a partnership with the CPD
to implement alternatives to incarceration; and the implementation of a stan-
dardized prisoner classification system across Afghanistan. In addition, INL plans
to expand the geographic reach of corrections mentors to include work and
training on the district level at key detention centers.258
   As reported by INL, the CSSP completed these activities this quarter:259
•	 provided training to the CPD guards in Lashkar Gah, in partnership with the
   United Kingdom, thereby aiding in the peaceful transfer of prisoners to a
   newly constructed facility




              Report to the united states congress                    I   January 30, 2010                         85
Governance



Table 3.10


INL Salary Support to the Afghan Justice Sector
Fund                Amount           Initiatives Supported                    Status of Funds
Afghan            $5 million         Pledged at the Rome Conference           As reported by INL, the ARTF has been slow
Reconstruction                       in 2007, these funds were set            to finalize the process for transferring funds
Trust Fund (ARTF)                    aside to support salaries for Afghan     into the Trust Fund. As of December 31,
                                     prosecutors.                             2009, these funds were still being held at
                                                                              the U.S. Embassy Kabul.
Law and Order       $10 million      Designed to last for two years,          All funds have been delivered to the LOTFA,
Trust Fund of                        these funds were provided as             and salaries are being distributed to correc-
Afghanistan                          salary support for Afghan                tions officers. The LOTFA started disbursing
(LOTFA)                              corrections officers.                    these funds in October 2009.
Source: INL, response to SIGAR data call, 1/9/2010.




•	 served as an impartial observer of the CPD Priority Reform and Reorganization
   testing process in almost all provincial prisons
•	 trained more than 100 guards, including 28 in emergency response and
   27 in computers

   INL also provided specific funding for salaries of Afghan correction officers.260
Table 3.10 shows the INL funding for two justice-related trust funds, the pro-
grams supported by these funds, and the status of each.

Ongoing Programs for Justice Reform
U.S. assistance to the Afghan justice sector includes management and financial
support for justice programs that address justice integration, improved legal
education and training, and enhanced anti-corruption programming.261

Justice Integration
The GIRoA’s poor communication across ministries and disintegration of ser-
vices has caused inefficiency and a lack of transparency, including difficulty in
processing criminal cases, according to DoS. The breakdown in communications
increases corruption and encourages a disregard for the rights of the accused.
To combat this problem, INL is sponsoring a program that organizes and reviews
prison records, seeking case closures if needed. DoS reported that this program
has already resulted in the release of more than 120 prisoners who were being held
in prison after finishing their sentences because of administrative confusion.262

Legal Education and Training
DoS is funding training sessions for all Afghan justice professionals, including
prosecutors, investigative police, and judges. This training focuses on investigat-
ing and prosecuting high-level criminal cases.263 In addition, Afghan legal consul-
tants (with significant expertise in Afghan constitutional and criminal law) are
conducting hands-on advisory and capacity-building services in 25 provinces,
working from 8 regional centers.264




    86                        Special inspector general                I   Afghanistan reconstruction
                                                       Governance




   INL sponsors the Legal Education and Access to Justice Program, which
expanded this quarter to include a moot court program for law students at three
Afghan universities. The program is also funding the development of a modern
legal curriculum at the American University at Kabul. INL plans to expand the
curriculum to other universities in Afghanistan.265
   INL also sponsors education for Afghan legal educators in the United States.
In both 2008 and 2009, INL provided funding for legal educators to study for a
Master of Laws degree in the United States. INL reported that it plans to sponsor
a similar program in 2010.266

Anti-Corruption in the Justice Sector
DoS stressed the importance of anti-corruption programming across all levels of
the GIRoA, including the Ministry of Justice. Corruption affects DoS/INL pro-
gramming for justice in several ways: it undermines foreign assistance, it diverts
funds from legitimate activities, and it makes it harder to find credible Afghan
advisors and ministry staff members.267 U.S. programs sustain the GIRoA’s long-
term efforts to combat corruption through various means:268
•	 financial, material, technical, and advisory support to the ACU and prosecu-
   tors supporting the Major Crimes Task Force and Criminal Justice Task Force
•	 joint police, prosecution, defense, and judicial capacity-building efforts,
   including workshops and mock trials, to create a more functional justice
   system
•	 ministerial-level capacity building through mentors to improve transparency,
   oversight, and management within the Supreme Court, the Attorney General’s
   Office, and the Ministry of Justice
•	 Afghan ministerial participation in regional rule of law workshops and other
   events in Asia and the Middle East
•	 mentoring of justice officials, leading to the implementation of ethics codes
   for judges and prosecutors

   In addition, INL reported that it has established a review process for all
contractor-submitted purchase requests and invoices to ensure that billing is in
line with proposals and comparable to fair market value within Afghanistan. INL
also reported that the U.S. Embassy has established a corruption reporting sys-
tem, which tracks allegations of corruption involving U.S. government property or
resources; the U.S. Embassy takes action on reports submitted to the system.269

Human Rights
In December 2009, the Afghan Independent Human Rights Commission (AIHRC)
reported that the GIRoA had made some progress in human rights, including
support for new legislation and the establishment of new policies and programs to    UNHCR recently launched a program
promote better human rights standards. However, despite the recent commitments       to assist recent returnees, IDPs, and
and efforts by the GIRoA, the AIHRC reported continued systematic discrimination     others living in Kabul city at risk
and weak judicial institutions.270                                                   during the cold winter. (UNAMA photo,
                                                                                     Fardin Waezi)



         Report to the united states congress   I   January 30, 2010        87
                                                         Governance




                                                         Refugees and Internally Displaced Persons
                                                         The ANDS objectives for refugees and internally displaced persons (IDPs) focus
  Refugee: The UNHCR subscribes to                       on a single principle—the efficient management of voluntary return and produc-
  the definition created during the 1951                 tive reintegration of all displaced Afghan citizens.271
  Refugee Convention: a refugee is a person                  More than 5 million refugees have returned to Afghanistan since 2002, almost
  who, “owing to a well-founded fear of                  all of whom had returned as of 2004.272 The influx of returnees increased the
  being persecuted for reasons of race,                  estimated population of Afghanistan by more than 20%. In a December 2009
  religion, nationality, membership of a                 report, the United Nations High Commissioner for Refugees (UNHCR) esti-
  particular social group or political opinion,          mated that in some areas, one in every three people is a returnee. UNHCR
  is outside the country of his nationality,             reported that the needs most often articulated by returnees are for shelter,
  and is unable to, or owing to such fear, is            water, and livelihood support. Returnee children face concerns including child
  unwilling to avail himself of the protection
                                                         labor, human trafficking, and early or forced marriage. The needs of returnee
  of that country.”
                                                         populations continue to strain resources and add to security concerns in some
                                                         regions.273 The UNHCR has established a set of goals to improve conditions for
  IDPs: Unlike refugees, IDPs have not
  crossed an international border to find
                                                         returnees in 2010, shown in Table 3.11.
  sanctuary but have remained in their home                  Although many refugees have returned to Afghanistan, the UN Assistance
  countries. IDPs legally remain under the               Mission in Afghanistan (UNAMA) reported that approximately 1.7 million Afghans
  protection of their own government—even                are still living in camps and urban areas in Pakistan. On December 15, 2009, the
  when that government is the reason for                 Pakistan Ministry of States and Frontier Regions submitted a document detail-
  their flight. As citizens, they retain all their       ing an Afghan refugee repatriation strategy to the Prime Minister of Pakistan;
  rights and protections under human rights              however, the government of Pakistan assured the UNHCR that no action would
  law and international humanitarian law.                be taken against registered Afghan refugees until the document was signed. The
                                                         prior strategy, agreed upon by Afghanistan, Pakistan, and the UNHCR, allowed
  Returnees: Refugees and internally dis-                Afghan refugees to remain in Pakistan after December 31, 2009.274
  placed persons returning to their homes

                                                         Gender Equity
                                                         In 2008, the UN Development Fund for Women (UNIFEM) stated that although
Sources: UNHCR, “Refugees,” accessed online 12/9/2009.
UNHCR, “Internally Displaced Persons,” accessed online   women in Afghanistan continued to face challenges, they were beginning to
12/9/2009. UNHCR, “Returnees,” accessed online
1/6/2010.
                                                         participate more openly in public, private, and non-profit arenas, including gov-
                                                         ernment.275 Afghan women have held such prominent positions as presidential
                                                         candidate, governor (of Bamyan province), cabinet member, and judge, as


                                                         Table 3.11


                                                         UNHCR Key Targets for Afghan Returnees in 2010
                                                         Target                                                                      Number of Afghans Affected
                                                         Provide two-room shelters to homeless refugees and IDP returnees            18,800 returnees
                                                         Water supplies                                                              3,800 communities with refugee
                                                                                                                                     returnees, 135 with IDP returnees
                                                         Transport and cash grants to allow returnees to meet basic needs            165,000 returnees
                                                         upon their return
                                                         Employment activities based in the community to promote livelihood          360 returnee communities
                                                         and income
                                                         Emergency response non-food items to cover essential needs                  100,000 newly displaced families
                                                         Source: UNHCR, “Global Appeal: Afghanistan, 2010–2011,” 12/1/2009, p. 2.




                                                             88                       Special inspector general              I   Afghanistan reconstruction
                                                       Governance




well as journalist and businesswoman.276 The UN Development Programme                                              GOV   DEV
                                                                                                             SEC       E     EL
(UNDP) reported that the Afghan National Assembly allocates one of the high-                                     URIT RNANC OPMEN
                                                                                                                     Y     E      T
est percentages of seats for women of any country—17 of the 102 seats in the
Meshrano Jirga and 62 of the 249 seats in the Wolesi Jirga.277 However, the UNDP        REGIONAL
                                                                                        COOPERATION
noted that without substantial female political participation at the local level,
high-level achievement will have little impact. Currently, women are not well           COUNTER-NARCOTICS
represented at local levels.278
                                                                                        ANTI-CORRUPTION
    With the requirement to wear the burqa lifted, women have also become the target
of increased attention from Taliban supporters and other extremists. Violence against   GENDER EQUALITY
women has increased in some regions of Afghanistan; incidents include attacks on
                                                                                        CAPACITY
girls’ schools and athletic facilities. Acid throwing has also been reported.279
    The GIRoA set a goal in the ANDS to create “an Afghanistan where men and            ENVIRONMENTAL
women enjoy security, equal rights, and equal opportunities in all spheres of
life.”280 To emphasize its commitment to gender equality, the GIRoA created the
National Action Plan for Women of Afghanistan (NAPWA), a 10-year action plan
to measure improved commitments to female constituents. Both the Afghan
Constitution and the ANDS have listed achievement of NAPWA goals as bench-
                                                                                        Some of the measurable elements in the
marks for gender equality.281 The NAPWA focuses on three high-level outcomes,
                                                                                        NAPWA include reduced illiteracy, higher net
as outlined in the ANDS:282
                                                                                        enrollment ratio in educational and training
•	 government entities emphasizing gender equality in their employment,                 programs, equal wages for equal work, lower
    promotion, policy making, and budgetary allocations                                 maternal mortality, increased leadership
•	 measurable improvements in women’s status                                            and participation in all spheres of life,
•	 greater social acceptance of gender equality in Afghanistan as a whole, includ-      greater economic opportunities and access
    ing increased female participation in public affairs and policy discussions         to and control over productive assets and
                                                                                        income, adequate access to equal justice,
   Illiteracy continues to be a challenge for gender equality. In 2006, according to    and reduced vulnerability to violence in
the Ministry of Rural Rehabilitation and Development (MRRD), women in every             public and domestic spheres.
province were less likely to be able to read than men. In 27 of the 34 provinces,
                                                                                        Source: GIRoA, “The Afghanistan National Development
men’s literacy rates were at least 10% greater than women’s.283 As reported by the      Strategy,” p. 14.

UNDP, Afghanistan still has the lowest female literacy rates among its neighbors,
other post-conflict nations, and landlocked Asian countries.284
   Traditional customs create challenges, as well. The AIHRC reported that
elopement, bad and badal marriages, and domestic violence—along with
other social problems—arise from certain conservative traditions practiced
in Afghanistan.285                                                                        Bad marriage: forced marriage
   The UNDP noted that violence against women is a pervasive issue. Along with
long-term exposure to hostility and conflict, it is one of the main factors contrib-      Badal marriage: marriage before the
uting to the continued low status of women in Afghanistan.286                             legally permissible age


Religious Freedom
Among the 99% of the Afghan population who are Muslim, observers estimate               Source: USAID, response to SIGAR data call, 10/2/2009.

that approximately 80% are Sunni and 19% Shi’a, as reported by DoS. Minority
religious groups, which make up less than 1% of the population, have reported




         Report to the united states congress   I   January 30, 2010           89
Governance




Figure 3.33

AFGHAN RELIGIOUS AFFILIATIONS (PERCENT)
                                                                                   Other Religious Groups: 1%

                                                            Sikh                                           71%
                       Shi’a
                       Muslim                             Hindu               16%
                       19%
      Sunni                                            Christian         7%
      Muslim
                                                          Baha’i        6%
      80%
                                                          Jewish       <1%
                                      Other
                                      Religious Groups             0          20         40         60          80   100
                                      1%

Notes: Reliable census figures are unavailable. Figures are based on observers’ estimates; estimates of
numbers of Christians range from 500 to 8,000.
Source: DoS, “International Religious Freedom Report 2009: Afghanistan,” 10/26/2009.




incidents of harassment during religious celebrations, difficulty obtaining
land for cremation, and challenges in obtaining government jobs.287 Figure 3.33
provides an overview of religious demographics in Afghanistan.
    In October 2009, DoS reported that “serious problems remain” in enforcing
the Afghan Constitution’s mandate of religious freedom. Among these problems
are the potentially contradictory commitments in the Constitution itself. Despite
its provision that Afghanistan will follow the Universal Declaration of Human
Rights, the Constitution also states that Islam is the official religion of the state
and that “no law can be contrary to the beliefs and provisions of the sacred reli-
gion of Islam.” When no specific law is laid out by the Constitution or penal code,
the UN reports that Afghan courts rely on Shari’a (Islamic) law.288 In May 2007,
according to the CRS, the Afghan Supreme Court declared the Baha’i faith a form
of blasphemy.289
    However, the CRS reports some progress. The Shiites, most of whom live
in Bamyan and Daykundi provinces, are now permitted to practice their faith
openly, a freedom that was prohibited under the Taliban.290

Provincial Reconstruction Teams
As discussed at the start of this section, the U.S. President has called for the
pursuit of “a more effective civilian strategy” in Afghanistan.291 Through the
Afghanistan Support Office, DoS is coordinating an inter-agency effort to
increase civilian staff levels in Provincial Reconstruction Teams (PRTs), “as
required by the President’s Afghanistan strategy.” The increased numbers will
include more governance and rule of law experts, who will work to combat cor-
ruption and enhance capacity in the GIRoA.292




   90                          Special inspector general                 I    Afghanistan reconstruction
                                                                                Governance




   Twenty-six PRTs are operating in Afghanistan, each based in a different
province; however, some PRTs work in more than one province. The United
States supports and manages 12 PRTs, and other member nations of the
International Security Assistance Force (ISAF) support and manage 14 PRTs.293
Figure 3.34 shows the provinces in which the U.S. and other ISAF PRTs have
bases. According to USAID, PRTs are “key instruments” through which other
countries and international organizations can assist provinces and districts.294
U.S. civilian personnel assigned to both U.S.- and ISAF-run PRTs focus on build-
ing the capacity of the GIRoA and creating economic opportunities in order to
minimize the appeal of the insurgency for Afghans.295


Figure 3.34

PROVINCES WITH PRT BASES




                                                                    JOWZJAN                a        KUNDUZ              BADAKHSHAN
                                                                                   BALKH                       TAKHAR


                                                                                        SAMANGAN
                                                     FARYAB                                    BAGHLAN
                                                                    SAR-E PUL                         PANJSHIR                       U.S.
                                                                                                              NURISTAN
                                        BADGHIS                                                                                      Other ISAF
                                                                                              PARWAN KAPISA        KUNAR
                                                                                   BAMYAN                  LAGHMAN
                                                                                                                                     None
                                                                                                   KABUL
                      HERAT                                                               WARDAK
                                                                                                             NANGARHAR
                                                     GHOR                                        LOGAR
                                                                     DAYKUNDI                       PAKTIYA
                                                                                           GHAZNI                KHOWST

                                                                 URUZGAN
                        FARAH
                                                                                                     PAKTIKA
                                                                                ZABUL




                       NIMROZ
                                        HELMAND
                                                            KANDAHAR




Note: Map depicts PRT base locations; some PRTs manage projects for more than one province.
a. Balkh PRT also supports Jowzjan, Sar-e Pul, and Samangan provinces.
Sources: DoS, response to SIGAR data call, 1/6/2010; NATO, "PRTs," 4/29/2009; USAID, "Paktya," accessed online 1/13/2010.




              Report to the united states congress                       I   January 30, 2010                      91
                                                            Governance




Figure 3.35
                                                            U.S. PRTs
PAKTIYA PROVINCE                                            This subsection highlights 3 of the 12 PRTs currently supported by the United
                                                            States in Afghanistan: Gardez PRT in Paktiya province and Bagram PRT in
                                                            Parwan province (shown in Figure 3.35), and Farah PRT (shown in Figure 3.36).
Estimated Population: 491,000
Attacks This Quarter: 68
Literacy Rate (2006): overall 31.3%                         Gardez PRT in Paktiya Province
                      men 38.8%, women 21.6%                According to USAID, Paktiya continues to experience political unrest in part
PRT Managing Country: United States
PRT Staff:            not available                         because local commanders have more power in the province than the central gov-
                                                            ernment does.296 Despite the instability in the province, the United States has more
                                                            than 20 projects under way. The local PRT is managing three of those projects:297
                                                            •	 Afghan Civilian Assistance Program (ACAP): provides support for Afghan civil-
                                                               ian families and communities that have suffered losses as a result of military
                                                               operations between coalition forces and insurgents
                                                            •	 Food Insecurity Response for Urban Populations: promotes stability through
                                                               temporary employment and income generation in targeted populations to
                                                               reduce the number of food-insecure and unemployed Afghans joining the
                                                               insurgency
                                                            •	 Local Governance and Community Development (LGCD): builds local gover-
                                                               nance in unstable areas, encourages local communities to develop and stabilize
Note: Attacks include direct, indirect, complex, and IED       their area, and combats the causes of instability and insurgency
attacks as of 12/27/2009, as reported by CSTC-A.
Sources: USAID, “Afghanistan’s Provinces: Piktya,”
PARWAN     PROVINCE
accessed online 1/13/2010; CSTC-A, response to SIGAR
data call, 1/4/2010; Ministry of Rural Rehabilitation and
                                                            Bagram PRT in Parwan Province
Development, “Literacy Rate for All Age in Rural            Parwan province has a reputation as a tourist destination, according to USAID.
Afghanistan,” 10/2006; DoS, response to SIGAR data call,
Estimated Population: 590,000
1/6/2010.                                                   Situated along the Salang River, the province is known for its fresh fish, and
Attacks This Quarter: 13
                                                            many people travel to the province from neighboring Kabul to eat at its restau-
Literacy Rate (2007): overall 30.8%
                      men 43.4%, women 16.1%                rants. USAID has 30 ongoing projects in Parwan, including ACAP and LGCD
PRT Managing Country: United States                         projects managed by the province’s PRT, which is based in Bagram.298
PRT Staff:            not available                            Bagram PRT also manages projects in Kapisa, a province with a smaller popu-
                                                            lation than Parwan (393,000 people) but four times the number of attacks this
                                                            quarter (58 in Kapisa, 13 in Parwan).299 Kapisa also lacks many basic services,
                                                            including high-quality roads, according to USAID.300
                                                                In 2009, Bagram PRT participated in several construction site surveys in
                                                            Kapisa, including the Tagab district center road, the Alasay district road, the
                                                            Afghanya road, the Kohi girls’ school, and other schools and road projects in
                                                            the Nijrab district. In July 2009, members of the PRT conducted a meeting with
                                                            Tagab district leaders to discuss concerns about the ongoing road construc-
                                                            tion.301 In December 2008, USAID referred to Tagab as “one of the country’s most
                                                            under-served and insecure districts.”302

Note: Attacks include direct, indirect, complex, and IED
attacks, 10/1/2009–12/27/2009, as reported by CSTC-A.
                                                            Farah PRT
Sources: USAID, "Paktya," accessed online 1/13/2010;        USAID reported that Afghans living in Farah “suffer from economic marginaliza-
USAID, "Parwan," accessed online 1/18/2010; CSTC-A,
response to SIGAR data call, 1/4/2010; MRRD, "Literacy      tion and heightened criminal and insurgent activity, which disrupts governance
Rate for All Age in Rural Afghanistan," 10/2006; DoS,
response to SIGAR data call, 1/6/2010.
                                                            progress and aid operations.”303 In addition to ACAP and LGCD projects currently
                                                            under way, the PRT reported the completion of several projects in the province
                                                            this year, including two key ones:



                                                              92                Special inspector general   I   Afghanistan reconstruction
                                                             Governance




•	 construction of a Radio Television Afghanistan studio in May 2009, includ-                     Figure 3.36

   ing a new transmission tower and antenna system, to expand the broadcast                       FARAH PROVINCE
   area to include remote locations (in cooperation with USAID and Intranews
   Network)304
                                                                                                  Estimated Population: 457,000
•	 completion of a public library in January 2009, including separate reading
                                                                                                  Attacks This Quarter: 51
   rooms for boys and girls, donated books, a conference room, and offices305                     Literacy Rate (2007): overall 17.8%
                                                                                                                        men 23.1%, women 11.8%
Other ISAF PRTs                                                                                   PRT Managing Country: United States
                                                                                                  PRT Staff:            not available
Other ISAF countries also provide substantial PRT support to Afghanistan. This
subsection highlights three of these teams: Balkh PRT in the north (operated
by Sweden), Helmand PRT in the south (operated by the United Kingdom), and
Logar PRT in the east (operated by the Czech Republic).

Balkh PRT
Balkh PRT (also known as PRT MeS or PRT Mazar-e Sharif) is based in Balkh’s
capital city of Mazar-e Sharif. It supports the northern province of Balkh (shown
in Figure 3.36), as well as Jowzjan, Samangan, and Sar-e Pul. The PRT is man-
aged by Sweden, which assumed control from the United Kingdom in March
2006. Finland provides substantial personnel support.306 Sweden’s support is
made in conjunction with the Embassy of the Islamic Republic of Afghanistan to                    Note: Attacks include direct, indirect, complex, and IED
Oslo, which is accredited to Norway, Sweden, Denmark, Finland, and Iceland.307                    attacks, 10/1/2009–12/27/2009, as reported by CSTC-A.

   According to the Embassy of Afghanistan in Oslo, Balkh PRT emphasizes                          BALKH    PROVINCE
                                                                                                  Sources: USAID, “Afghanistan: Farah,” accessed online
                                                                                                  1/18/2010; CSTC-A, response to SIGAR data call,
programs that support capacity development through civil-military cooperation.                    1/4/2009; Ministry of Rural Rehabilitation and
                                                                                                  Development, “Literacy Rate for All Age in Rural
Its efforts focus on mentoring and training programs for the Afghan National                      Afghanistan,” 10/2006; DoS, response to SIGAR data call,
                                                                                                  Estimated
                                                                                                  1/6/2010. Population: 1,145,000
Army and civil projects conducted in cooperation with international and Afghan                    Attacks This Quarter: 12
non-governmental organizations.308                                                                Literacy Rate (2007): overall 44%
                                                                                                                        men 54%, women 32%
                                                                                                  PRT Managing Country: Sweden
                                                                                                  PRT Staff:            378
                                                                                                                        375 officers and soldiers;
                                                                                                                        3 civilian advisors




                                                                                                  Note: Attacks include direct, indirect, complex, and IED
                                                                                                  attacks as of 12/27/2009, as reported by CSTC-A.
The Farah PRT tours the remains of the Citadel in Farah City after completing a presence          Sources: USAID, “Balkh,” accessed online 1/13/2010;
patrol. The Citadel was one of a series of fortresses constructed by Alexander the Great. (ISAF   USAID, “Farah,” accessed online 1/18/2010; CSTC-A,
                                                                                                  response to SIGAR data call, 1/4/2010; MRRD, “Balkh,”
photo, U.S. Navy Mass Communications Specialist PO1 Monica R. Nelson)                             10/2007, p. 10; MRRD, “Literacy Rate for All Age in Rural
                                                                                                  Afghanistan,” 10/2006; CENTCOM, “Sweden,” accessed
                                                                                                  online 1/13/2010.




          Report to the united states congress        I   January 30, 2010               93
                                                           Governance




Figure 3.37                                                Helmand PRT
HELMAND PROVINCE                                           Although the U.K. government operates Helmand PRT (see Figure 3.37), it also
                                                           receives staffing and funding from the United States, Denmark, and Estonia. The
                                                           PRT assists the Helmand provincial government in delivering security and effective
Estimated Population:      822,000
Attacks This Quarter:      1,706                           government. According to the British Embassy in Afghanistan, the PRT is currently
Literacy Rate:             men <10%, women <1%             working on an over-arching plan that will focus on seven areas of development:309
PRT Managing Country:      United Kingdom                  •	 politics and reconciliation
PRT Staff:                 242
                           91 civilian, 94 military,
                                                           •	 governance
                           and 27 civilian police staff    •	 rule of law (including justice, police, and prisons)
                           in Lashkar Gah; 30 locally      •	 security
                           engaged staff
                                                           •	 economic and social development
                                                           •	 counter-narcotics
                                                           •	 strategic communications

                                                              Within the last year, Helmand PRT reported on three of its achievements in
                                                           the province:310
                                                           •	 increases in school enrollment from December 2008 to June 2009: 18% for
                                                              boys and 14.5% for girls
                                                           •	 a modern prison, opened in October 2009, with a new wing slated for comple-
                                                              tion in 2010
                                                           •	 the province’s first significant counter-narcotics convictions; from December
                                                              2008 to April 2009, the Criminal Justice Task Force convicted 19 people of
Note: Attacks include direct, indirect, complex, and IED
attacks as of 12/27/2009, as reported by CSTC-A.
                                                              narcotics offenses
Sources: USAID, “Hilmand,” accessed online 1/14/2010;
CSTC-A, response to SIGAR data call, 1/4/2010; U.K.,
“Some Achievements Since 2006,” accessed online
1/13/2010; U.K., “Overview of Provincial Reconstruction
Team,” accessed online 1/13/2010.




                                                           U.S. and U.K. civilians of the Helmand PRT speak with the headmaster of the Nawa school
                                                           house. (U.S. Marine Corps photo, LCpl Jeremy Harris)




                                                             94                 Special inspector general    I   Afghanistan reconstruction
                                                       Governance




Logar PRT                                                                            Figure 3.38

Led by the Czech Republic, the mission of Logar’s PRT (see Figure 3.38) is to
                                                                                     LOGAR PROVINCE
“contribute to the development of Logar province, strengthen the role of Afghan
government and enable its people to take a greater role in their everyday lives.”
The civilian team comprises experts in civil engineering, agriculture, veterinary    Estimated Population: 349,000
                                                                                     Attacks This Quarter: 59
medicine, security, and media service. Logar PRT projects include efforts in         Literacy Rate (2007): overall 21%
eight areas:311                                                                                            men 31%, women 9%
•	 security and governance                                                           PRT Managing Country: Czech Republic
•	 infrastructure                                                                    PRT Staff:            285
                                                                                                           10 civilians, 275 troops
•	 water sources and irrigation
•	 agriculture
•	 health care
•	 education
•	 women’s rights
•	 media

   The PRT’s most recent report highlighted the October 2009 completion of
three girls’ schools that will serve more than 1,000 local girls who used to study
in tents. Logar PRT funded the project; the Provincial Ministry of Education in
Logar organized and managed the construction efforts.312 The PRT also carried
out other activities:313                                                             Note: Attacks include direct, indirect, complex, and IED
                                                                                     attacks as of 12/27/2009, as reported by CSTC-A.
•	 purchased solar dryers to help farmers preserve fruit, enabling them to use
                                                                                     Sources: USAID, “Logar,” accessed online 1/14/2010;
   more hygienic methods than drying fruit on rooftops, benefitting more than        CSTC-A, response to SIGAR data call, 1/4/2010; MRRD,
                                                                                     “Logar: Provincial Profile,” 10/2007, p. 8; Government of
   900 residents                                                                     the Czech Republic, “Czech-led PRT in Logar Province,”
                                                                                     accessed online 1/13/2010.
•	 employed more than 1,000 workers a day on PRT construction projects;
   workers are paid each week
•	 retrofitted the Surchab Dam, the only working dam in the province
•	 constructed two “badly needed” health clinics to increase hospital bed capacity




         Report to the united states congress   I   January 30, 2010        95
economic and social development




96    Special inspector general   I   Afghanistan reconstruction
economic and social development




Economic and SOCIAL Development                                                        AFGHANISTAN NATIONAL
                                                                                       DEVELOPMENT STRATEGY (ANDS)

The U.S. President’s strategy that was announced on December 1, 2009, reempha-                                  GOV   DEV
                                                                                                           SEC      E     EL
sized economic development as a key to building a secure and stable Afghanistan.                              URIT RNANC OPMEN
                                                                                                                  Y     E      T
To implement this strategy, the United States is initiating a civilian surge to help
strengthen economic development, especially at the local level. Agriculture, upon      REGIONAL
                                                                                       COOPERATION
which most Afghans depend for a living, will be a major focus of the surge.314
                                                                                       COUNTER-NARCOTICS

ECONOMIC GROWTH                                                                        ANTI-CORRUPTION

This section provides a snapshot of the state of the Afghan economy, updating          GENDER EQUALITY
the progress being made in delivering essential services, boosting agricultural
output, and growing the private sector. The Central Statistics Office (CSO) of the     CAPACITY

Government of the Islamic Republic of Afghanistan (GIRoA) compiles economic            ENVIRONMENTAL
statistics using both solar calendar and Gregorian calendar references. For
example, solar year 1387 falls between March 2008 and March 2009.315
   The growth of Afghanistan’s real gross domestic product (GDP) deceler-
ated in 2008/2009 as a result of decreased agricultural output but is expected to
improve in 2009/2010 as the country recovers from drought. The CSO estimates
that the Afghan economy grew by 2.3% in 2008/2009—the weakest performance
during the post-Taliban era and much lower than the 16.2% growth rate achieved
in 2007/2008.316 International Monetary Fund (IMF) estimates show the same
trend—3.4% annualized real growth in 2008, compared with 12.1% in 2007.317
   Agriculture accounts for more than one-third of Afghanistan’s national out-
put.318 The World Bank predicts that increased rainfall will enable Afghanistan
to produce record harvests for the 2009 growing season that will significantly
boost economic growth.319 The Afghan Ministry of Agriculture, Irrigation, and
Livestock (MAIL) estimates that total cereal crop production in Afghanistan
reached a record 6.31 million tons in 2009.320 The World Bank reports that this
level of agricultural output could boost overall GDP growth rates in Afghanistan
by 10% or more in 2009/2010.321 The U.S. Department of the Treasury (Treasury)
projects that real GDP growth in Afghanistan could reach 15% for the year
ending March 2010.322
   The other dominant sectors of Afghanistan’s legal economy—services and
industrial production—continued to benefit from an influx of reconstruction
funding. The CSO reported that the service sector grew by an estimated 16%
during 2008/2009, while industrial production grew by an estimated 7%. But
public- and private-sector investment in Afghanistan appeared to have slowed.




         Report to the united states congress   I   January 30, 2010          97
                                                            economic and social development




                                                            Figure 3.39

                                                            GDP GROWTH RATE, 2002–2009 (PERCENT)

                                                                    28.6
                                                             30
                                                             25
                                                             20                                                                                  16.2
                                                                                                                      14.5
                                                             15
                                                             10                      14.3
                                                                                                      9.4                               11.2                2.3
                                                               5
                                                               0
                                                                   2002/03           03/04           04/05           05/06              06/07   07/08      08/09
                                                            Note: Numbers affected by rounding.
                                                            Source: GIRoA, CSO, “National Account Tables,” accessed online 12/2/2009.



                                                            According to the CSO, the share of nominal investment as a percentage of GDP
                                                            fell from an estimated 33% in 2006/2007 to 28% in 2008/2009.323 Figure 3.39 shows
                                                            GDP growth rates from 2002 to 2009.

                                                            Inflation, Currency, and Exchange Rates
On January 13, 2010, the IMF announced                      Inflation in Afghanistan remains volatile. Treasury reports that inflation trended
completion of its sixth review of                           downward in 2009/2010, largely because of lower food prices and prudent fiscal
Afghanistan’s economic performance                          policies. The 12-month inflation rate fell from a peak of 43% in May 2008 to nega-
under the Poverty Reduction and Growth                      tive 13% in November 2009. Core inflation, which excludes food and fuel prices,
Facility (PRGF). It found that the GIRoA was                also fell—from 12% in November 2008 to 10.6% in November 2009.324
successfully implementing its 2009/2010
                                                                According to the World Bank, one-month interest rates fell from a peak
economic plan to keep inflation low,
                                                            of 16% in March 2008 to 5.6% in August 2009.325 The central bank of Afghanistan
accommodate higher security spending,
and preserve pro-poor spending, among                       (Da Afghanistan Bank) has helped stabilize the Afghani by keeping nominal
other goals. As a result, the IMF released                  exchange rates at roughly 2003 levels against the U.S. dollar, although fluctuations
an additional $8.89 million to the GIRoA,                   do occur.326 For 2009/2010, the central bank is reportedly keeping the amount of
bringing total IMF disbursements to                         currency in circulation at or below nominal GDP growth rates, in accordance with
Afghanistan under the PRGF to                               its agreement with the IMF.327
$118.53 million.

Source: IMF, press release #10/04, “IMF Executive Board
                                                            Banking
Completes Sixth Review under the PRGF Arrangement for the   As reported by SIGAR last quarter, the banking system in Afghanistan is experi-
Islamic Republic of Afghanistan,” 1/13/2010.
                                                            encing rapid growth. From March 2008 to March 2009, deposits in commercial
                                                            banks nearly doubled—from approximately $1.18 billion to approximately $2.28
                                                            billion.328 As of March 2009, the country had 147 full-service commercial bank
                                                            branches in 27 locations, according to the Microfinance Investment Support
                                                            Facility of Afghanistan (MISFA).329
                                                                The number of micro finance institutions (MFIs) is also growing. The central
                                                            bank reported that MFIs serve approximately 12 times more credit clients than
                                                            all commercial banks combined.330 As of May 2009, the most recent data avail-
                                                            able, MFIs in Afghanistan served more than 450,000 clients.331 There is enormous




                                                                98                        Special inspector general              I   Afghanistan reconstruction
economic and social development




room for growth for financial institutions that promote savings: only 2.6% of         According to a recent IMF working paper,
Afghans have a savings account, according to MISFA.332                                Afghan banks that lend extensively to
   A robust banking system helps support economic growth. In a recent World           domestic clients engage in extra-judicial,
Bank report on the investment climate in Afghanistan, 38% of surveyed firms           non-traditional contract enforcement,
reported lack of access to finance as a major impediment.333 The survey found,        raising concerns about systemic risk.
however, that the number of firms establishing bank accounts has increased            Source: IMF, Working Paper WP/09/150,”Development of
since 2005. Of the surveyed enterprises, 51% reported having a bank account;          the Commercial Banking System in Afghanistan: Risks and
                                                                                      Rewards,” 7/2009, p. 1.
only 5% reported having a loan with a financial institution. Working capital is
obtained primarily from earnings. Women business owners reported that the lack
of access to capital was their most significant obstacle.334

Employment
As reported by SIGAR last quarter, although no detailed information on employ-        From September to November 2008, the
ment is available for Afghanistan, the U.S. Agency for International Development      World Bank surveyed 1,066 private-
(USAID) estimated unemployment in the country to be about 40%.335                     sector enterprises in 10 major Afghan
   The Food Insecurity Response for Urban Population Program is an example            cities to assess the climate for private-
of U.S. efforts to provide temporary employment for vulnerable populations            sector growth and job creation. This
in Afghanistan. On December 30, 2009, the U.S. Coordinating Director for              survey, published in 2009, was part of
                                                                                      an ongoing effort to understand the
Development and Economic Affairs joined the Director of Sanitation of the
                                                                                      components of private-sector growth in
Kabul Municipal Government Sanitation Department to inaugurate a solid waste
                                                                                      Afghanistan and to identify key opportu-
cleanup program for Kabul. Initially, the program will provide temporary employ-      nities and challenges.
ment during the winter months for 3,000 Kabul residents who lack sufficient
income to buy food for their families. The goal of the program is to remove           Source: World Bank, “The Afghanistan Investment Climate
                                                                                      in 2008,” 11/20/2009, p. vi.
80,000 metric tons (MT) of solid waste from Kabul. USAID reports that this
effort is part of a $60 million cash-for-work program that will provide temporary
employment for tens of thousands of Afghans.336
   Improving the skills of the Afghan workforce presents unique challenges in
each sector of the economy. A World Bank survey (published in 2009) on the
investment climate in Afghanistan found that lack of information technology (IT)
capacity and training are obstacles to private sector growth and job creation.
According to that survey, the proportion of surveyed firms using e-mail since 2005
has doubled; however, less than 10% of firms surveyed were connected to the
Internet. Of those, more than half reported frequent service interruptions (13 or
more) each month, with an average duration of 50 hours. Very few firms reported
using technology licensed from foreign-owned companies.337
   As part of its efforts to increase employment opportunities for women,
USAID has provided IT training for 35 female university students in Nangarhar
province—nearly half of the female students at Nangarhar University.338

Essential Services
Increasing access to essential services is key to helping Afghans build a better
future for themselves and their country. This subsection reports on recent prog-
ress in increasing access to energy, education, transportation, and health care. It
also focuses on the agricultural surge and the challenges to the agriculture sector




         Report to the united states congress   I   January 30, 2010          99
                                                             economic and social development




                                                             in Afghanistan. Highlights include efforts to refurbish the Kajaki Dam, the estab-
                                                             lishment of a new northern supply route into Afghanistan for non-lethal goods,
                                                             a rise in attacks against schools, a rebound in agricultural production owing to
                                                             fortuitous rains, and the work of the National Guard agribusiness teams.


                                                             Energy
In the World Bank survey of Afghanistan’s                    As noted in SIGAR’s last quarterly report, reliable energy information for
investment climate, 66% of surveyed firms                    Afghanistan is difficult to obtain; nevertheless, it is increasingly possible to make
reported lack of access to electricity as a                  historical comparisons. SIGAR’s January 2010 audit of Afghanistan’s energy supply
major obstacle to expansion; 75% reported                    reported that from 1978 to 2002, war and instability reduced Afghanistan’s access to
having their own generator; and a similar                    power by more than one third.339 From 2001 to September 2009, however, the United
percentage reported getting electricity from
                                                             States and other donors helped grow Afghanistan’s installed capacity from 430 MW
private sources. Power outages were common
                                                             to 1,029 MW.340 SIGAR’s auditors found that USAID has contributed directly to 199
for those connected to the national grid:
                                                             MW, or nearly 20%, of Afghanistan’s total power-generating capacity.341
nearly two-thirds of these firms reported
an average of 23 power outages per month,                        As of September 2009, Afghanistan’s Energy Information Center estimated that
lasting 11 hours each. Output losses due                     approximately 15% of urban households and 6% of rural households had access
to outages reportedly equaled 9% of sales.                   to electricity. Although progress is being made, Afghanistan does not appear to be
Surveyed firms in Kabul and Jalalabad fared                  on track to meet the Afghanistan National Development Strategy (ANDS) goals of
the worst in terms of access to publicly                     providing electricity to 65% of urban households and 25% of rural households by
supplied electricity.                                        March 2010.342
                                                                 The SIGAR audit further reported that the GIRoA lacks the capacity to collect
Source: World Bank, “The Afghanistan Investment Climate in
2008,” 11/20/2009, pp. 19, 30–32.                            enough revenue and recruit the qualified staff necessary to operate, maintain, and
                                                             expand the existing power-generating system.343 Afghanistan’s actual operational
                                                             capacity is estimated to be only 60% of its total installed capacity, as shown in
                                                             Figure 3.40.344 For details on the implications of this issue for U.S. reconstruction
Figure 3.40
                                                             efforts, see Section 2 for a discussion of SIGAR’s audit findings regarding the capac-
NATIONAL ENERGY CAPACITY (MW)                                ity development and sustainability challenges of the Kabul Power Plant.345
                                                                 Afghanistan continues to rely heavily on higher-cost diesel-powered systems to
                                                             generate electricity, rather than on systems powered by cheaper alternatives, such
                                                             as natural gas and imported electricity.346 As SIGAR reported in its July 2009 quar-
                     400 600 800                             terly report, one way in which the U.S. government and other donors are addressing
           200                                  10           this issue is funding construction of the North East Power System (NEPS). Most of
     0                                              00
                                                             the NEPS will be devoted to providing the infrastructure needed to import low-cost
                  INSTALLED CAPACITY                         power from neighboring countries.347
                        MW                                       Security issues remain a challenge to increasing the power supply. For
                                                             example, USAID is providing funding to refurbish two turbines and install a third
                                                             turbine at the Kajaki Dam Powerhouse, which was originally built by the United
                                                             States in the 1950s. When this key hydropower installation is fully refurbished
                                                             and operational, it will be among the largest infrastructure projects completed in
                                                             Afghanistan and will have the installed capacity to serve the 1.5 million Afghans in
                                                             Kandahar and Helmand.348
            Installed Capacity (1,028.5 MW)
                                                                 The second of the original turbine generators has been refurbished and began
            Operational Capacity (621.4 MW)
                                                             upgraded operations in October 2009, increasing power output from the dam to
Note: Numbers affected by rounding.                          its highest level in 30 years.349 The International Security Assistance Force (ISAF)
Source: SIGAR Audit 10-4, “Afghanistan’s Energy Sector,”
1/15/2010, p. 7.                                             reported that a third, new turbine was delivered in September 2008 by a military



                                                               100               Special inspector general   I   Afghanistan reconstruction
economic and social development




convoy protected by a force of 4,000 Afghan National Security Forces (ANSF)
and ISAF troops from the United Kingdom, United States, Canada, Denmark, and
Australia.350 The large security escort was necessary because of insurgent activ-
ity in the area, as well as threats from improvised explosive devices (IEDs) and
mines.351 According to an interview with the U.S. Ambassador in December 2009,
however, installation of the third turbine has been suspended until the roads
around the site are safe enough to deliver the supplies needed to complete work
on the supporting structures.352

Transportation
The primary transportation network connecting major Afghan cities is the Ring                                                        According to a recent report by the Center
Road. As of September 30, 2009, approximately 1,866 km (86.4%) of the Ring Road                                                      for Strategic and International Studies
had been completed, according to USAID. The remaining 292 km (13.6%) has a                                                           (CSIS), the NDN has the potential to make
scheduled completion date of 2011. The U.S. government has supported the comple-                                                     a positive contribution to economic develop-
tion of 831 km; 716 km were built completely by USAID, and 115 km were funded                                                        ment as a modern silk road, strengthen-
                                                                                                                                     ing legitimate commercial ties between
jointly by USAID and the Kingdom of Saudi Arabia.353
                                                                                                                                     Afghanistan and its neighbors.
   Another transportation milestone was achieved in 2009: the U.S. military
established a new transit corridor into the country for non-military commercial                                                      Source: CSIS, “The Northern Distribution Network and
                                                                                                                                     Afghanistan: Geopolitical Opportunities and Challenges,”
cargo—the Northern Distribution Network (NDN) (shown in Figure 3.41).354                                                             January 2010, p. 9.


Figure 3.41

THE NORTHERN DISTRIBUTION NETWORK



   Riga
        LATVIA
LITHUANIA                                             RUSSIA
          BELARUS

POLAND
                    UKRAINE
SLOVAKIA
                                                                                                   KAZAKHSTAN
HUNGARY             MOLDOVA
          ROMANIA
                                                                                          ARAL
 SERBIA                                                               Aqtau               SEA
                                BLACK SEA
        BULGARIA                                          GEORGIA                                UZBEKISTAN
                                                   Poti                                                                 KYRGYZSTAN
      MACEDONIA
                                                             ARMENIA
     GREECE                                                      AZERBAIJAN      TURKMENISTAN
                                      TURKEY                                                                           TAJIKISTAN
                                                                         CASPIAN                              Termez
                                                                            SEA

              CRETE                             SYRIA
                                       LEBANON                                       IRAN              AFGHANISTAN
    MEDITERRANEAN SEA
                                    ISRAEL                     IRAQ
                               PALESTINE
          LIBYA
                                               JORDAN                                                              PAKISTAN
                      EGYPT



                              Kazakhstan-Kyrgyzstan-Tajikistan Spur       Northern Spur           Southern Spur

Source: CSIS, “The Northern Distribution Network and the Modern Silk Road,” 12/2009, pp. 9–11.




                  Report to the united states congress                        I   January 30, 2010                          101
                                                            economic and social development




                                                            According to the U.S. Transportation Command, the U.S. military uses U.S. flag com-
                                                            mercial carriers to transport supplies for U.S. reconstruction efforts through this
                                                            corridor.355 The three routes of the NDN use some of the roads, railways, and ports
                                                            built or refurbished by the former Soviet Union during the war in Afghanistan in
                                                            the 1980s. The NDN gives the United States an alternative to increasingly inse-
                                                            cure transit routes along the Pakistani border.356

                                                            Education
Education in Afghanistan is delivered                       As noted in SIGAR’s last quarterly report, violence and the threat of violence
primarily through government-supported                      remain obstacles to providing education in Afghanistan—especially for girls.
systems, including GIRoA-supported                          In September 2009, CARE released a comprehensive analysis of threats to the
community schools (approximately 4,021                      education system in Afghanistan. The survey, undertaken on behalf of the Afghan
classes) and regular government schools                     Ministry of Education and the World Bank, aimed to better understand the nature
(approximately 10,714). In addition, a few
                                                            of attacks against Afghan educational institutions, personnel, and students. The
private schools have been formed in urban
                                                            survey entailed 1,037 interviews involving 4,819 individuals in 8 key provinces.357
areas. Despite the challenges, enrollment
in schools supported by the Ministry of
                                                               According to the CARE survey, the number of attacks against schools, teach-
Education increased from approximately                      ers, and students in Afghanistan rose from 241 in January 2006 to 670 in December
900,000 in 2001 to an estimated 6.1 mil-                    2008.358 The total number of attacks during this period was approximately 1,153.359
lion in 2008.                                               Arson was the primary form of attack, followed by explosions (from grenades,
                                                            mines, and rockets), verbal or oral threats, attacks on educators or students, and
Source: CARE, “Knowledge on Fire: Attacks on Education in
Afghanistan,” 9/2009, p. 6. This study reports enrollment
                                                            looting.360 More than 100 Afghan students were killed, according to a CARE field
numbers provided by the Planning Department of the GIRoA
Ministry of Education.
                                                            assessment that analyzed UNICEF data from January 2008 to May 2009.361 CARE
                                                            also found that the 19% of Afghan schools devoted exclusively to the education of
                                                            girls bore approximately 40% of all attacks.362 USAID reports that of the 415 school
                                                            districts in Afghanistan, approximately 200 have no female teachers.363
                                                               The CARE survey found that regular government schools are targeted most
                                                            often. Attacks against these schools often force the GIRoA into a costly cycle of
                                                            closing, rehabilitating, and reopening schools. For example, 71% of schools in
                                                            Helmand were closed from March to July 2009 because of violence or threats of
                                                            violence; the Ministry of Education subsequently reopened 100 of them.364
                                                               During this quarter, two events illustrated coalition efforts to expand and
                                                            protect educational structures and educational opportunities in Afghanistan.
                                                            In October 2009, USAID laid an earthquake-resistant foundation for the Sardar
                                                            Kabuli Girls’ High School. The 3-story, 53-room building will serve more than
                                                            4,000 girls in Kabul; it is one of the first large buildings in Afghanistan being
                                                            constructed in accordance with international standards.365 From July to October
                                                            2009, the USAID-supported National Program for In-Service Teacher Training
                                                            provided training to improve humanities education for 15,000 teachers in 11
                                                            provinces. Of those who completed the training, 27% were women.366

                                                            Health Services
                                                            Access to basic health services is a key goal of the ANDS. To help achieve this
                                                            goal, USAID is providing $72 million to support public health facilities through-
                                                            out the country, through contracts signed on November 4, 2009, with the Afghan




                                                             102                Special inspector general   I   Afghanistan reconstruction
economic and social development




Ministry of Public Health (MoPH), the Afghan Ministry of Finance, and
10 non-governmental organizations (NGOs). The contracts will help construct,
maintain, and staff 462 health facilities and 4,000 health posts in 12 provinces.367
   On November 15, 2009, the President of Afghanistan and the Deputy U.S.              Afghan children are being vaccinated
Ambassador to Afghanistan launched the final phase of a national polio aware-          against polio and six other diseases:
ness and vaccination campaign designed to protect Afghan children under age            pertussis, tuberculosis, measles, tetanus,
five.368 USAID reported that estimates vary of how many Afghan children have           diphtheria, and influenza.
been vaccinated against polio and other major childhood diseases. For example,         Source: USAID, response to SIGAR data call, 1/5/2010.
USAID noted that in 2009, the MoPH estimated that 95% of Afghan children had
been vaccinated against polio and that 83% had been vaccinated against six other
diseases. The 2007/2008 National Risk and Vulnerability Assessment (NRVA)
for 2007/2008 estimated that only 37% of Afghan children had been vaccinated
against all seven diseases. In 2007, USAID conducted its own field survey and
concluded that vaccination coverage was 33%. USAID notes that the difference
between the MoPH and NRVA estimates may be due to methodology: the MoPH
requires a statement from parents, but the NRVA requires parents to show an
immunization card.369
   USAID and other international donors are working together to develop timely,
accurate health care statistics for Afghanistan with which to better target pro-
grams. This quarter, USAID reported that fieldwork for the maternal health survey
mentioned in SIGAR’s previous quarterly report will begin in spring 2010, with an
estimated completion date of 2011—earlier than reported by SIGAR last quarter.370

Water and Sanitation
The U.S. government has drafted a new water strategy for Afghanistan that will
strengthen its focus on water resources and management over the next five
years. According to DoS, this refocused effort will promote multi-purpose dams
and an integrated approach to water resources management, rather than a piece-
meal approach focused on individual projects.371
    USAID reported that in FY 2009, 3% of CERP funding supported water and
sanitation projects and 4% funded agriculture projects, some of which were
irrigation-related.372

Industry and Private-Sector Development
As noted in SIGAR’s last quarterly report, private-sector development in
Afghanistan is hampered by a variety of challenges related to weak governance,
inadequate supplies of power, land tenure issues, and lack of access to credit,
as well as crime and corruption. Nevertheless, the CSO reported that the private
sector (composed primarily of agribusiness, construction, and trading firms) is
growing, although from a very small base.373 This is confirmed by a 2009 World
Bank survey, which concluded that Afghanistan’s private sector is experiencing
strong growth despite the governance, security, and resource challenges facing
the country.374




         Report to the united states congress   I   January 30, 2010         103
                                                                  economic and social development




                                                                     The survey reported, however, that the inability of the GIRoA to implement
                                                                  policies and interpret laws consistently remains among the most critical obsta-
                                                                  cles to growth.375 As a result, the World Bank noted that although revenue growth
                                                                  for existing Afghan firms is high, the rate of entry of new firms is slowing.376 Also,
                                                                  direct foreign investment is weak.377 Table 3.12 highlights some of the key conclu-
                                                                  sions of the survey.


                                                                  Agriculture
                                                                  Current Trends
                                                                  The main source of income for most Afghans is subsistence agriculture, which
                                                                  is almost completely dependent on erratic winter snows and spring rains. As a
                                                                  result, according to the U.S. Department of Agriculture (USDA), harvests and
                                                                  thus economic growth in Afghanistan can vary significantly from one year to
                                                                  the next.378 Figure 3.42 shows the variations in total cereal crop production in
                                                                  Afghanistan from 2002 to 2009.
                                                                     The CSO reported that from 2007/2008 to 2008/2009, the value of Afghanistan’s
                                                                  agricultural output fell by approximately 17%, primarily as a result of decreased
                                                                  harvests caused by drought.379 The USDA reported that harvests of Afghanistan’s


Table 3.12


Selected Issues faced by Afghanistan’s Private-Sector Enterprises
Issue                         Examples from Survey Responses                                                                                  Regional Differences
Weak government policy        •   Fully 70% named weak policy enforcement, i.e., the inability of the state to design and implement           No significant differences reported.
enforcement                       policies in a consistent manner, as a major impediment to growth.
                              •   Only 14% reported that laws are interpreted consistently and predictably by government officials.
                              •   Of special concern was “the failure to uphold commitments with respect to land access or licenses.”

Lack of access to land for    • Of those who attempted to acquire land over the past three years, 68% failed.                                 Mazar-e Sharif, Kandahar, and Jalalabad
development                   • Chief reasons: government refusal to sell land, the high price of land, failure to obtain zoning              reported lower percentages of firms citing
                                  approval or secure title, and criminal syndicate or corruption-related issues.                              access to land as a major constraint; Kabul
                              • When land could be acquired, it took, on average, 192 days to complete the paperwork and 88                   reported the highest.
                                  days to obtain a construction permit.

Widespread corruption         • Respondents reported paying an estimated 2% of their sales as bribes or informal gifts to get                 Significant differences between regions in their
                                  things done.                                                                                                perceptions of the severity of corruption: for
                              •   Respondents reported that informal gifts to government officials are common practice, especially            example, more than half of firms surveyed in
                                  for the registration process and to secure an operating license, import license, electricity connec-        Herat, Jalalabad, and Kabul reported corruption
                                  tion, construction permit, or water connection and during tax inspections.                                  as a severe constraint.
                              •   The perception of the level of corruption varies by industrial sector; construction leads the way:
                                  60% of construction firms reported corruption as a major problem.

Crime                         • One in 10 firms reported losses due to theft, vandalism, robbery, or arson.                                   The percentage of surveyed firms reporting
                              • Some 36% of firms pay for their own security.                                                                 losses because of crime were highest in Herat,
                              • Protection payments to government or military officials were reported by 6% of firms.                         Kabul, and Kandahar, and lowest in Mazar-e
                                                                                                                                              Sharif and Jalalabad.

Source: World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, pp. 19, 22, 25–29, 42.




                                                                     104                        Special inspector general                I   Afghanistan reconstruction
economic and social development




staple wheat crop fell by 55% during that period. Beginning in March 2009,                                                               “[A]griculture is the
however, rain-bearing weather systems saturated Afghanistan’s wheat-growing
                                                                                                                                       top non-security priority
regions at a key point in the growing cycle.380 This significantly improved the
prospects for cereal crop production. Figure 3.43 depicts the amount of vegeta-                                                        for the U.S. government
tion on the land surface of Afghanistan in May 2008 compared with May 2009,                                                                 in Afghanistan.”
after rains blanketed key growing regions.381                                                                                               —U.S. Secretary of Agriculture
   As a result of the rains, total cereal crop production in Afghanistan jumped to a                                                                          Tom Vilsack
record 6.31 million MT in 2009, according to MAIL. This is a 73% increase over
                                                                                                                                    Source: DoS, “U.S. Government Agriculture Sector Programs in
                                                                                                                                    Afghanistan and Upcoming Travel to the Region,” 1/7/2009,
                                                                                                                                    accessed online 1/10/2010.
Figure 3.42

CEREALS PRODUCTION, 2002–2009 (MILLION METRIC TONS)
                                                                                                             6.3
                      5.4                          5.2                          5.5
6
                                                                  4.4
5
        3.6                                                                                   3.6
4                                    3.1
3
2
1
0
       2002          2003          2004           2005          2006            2007         2008          2009

Notes: Numbers affected by rounding. Cereals measured were irrigated and rainfed wheat, milled rice, maize, and barley.
Source: MAIL, “Agriculture Prospects Report,” 9/8/2009, p. 4; 2002–2004 data provided by FAO/WFP and Crop
Assessment Mission, and 2005–2009 data by MAIL.




Figure 3.43

VEGETATION INDEX, 2008–2009


                       May 2008                                                         May 2009




Note: The Normalized Difference Vegetation Index, calculated by the USDA from satellite imagery and data, measures the amount and
vigor of vegetation on land.
Source: USDA Foreign Agricultural Service, Commodity Intelligence Report, “Afghanistan: Wheat Production Recovers in 2009/2010
Season,” 1/10/2009.




               Report to the united states congress                         I   January 30, 2010                          105
                                                        economic and social development




                                                        2008 levels and the largest harvest of the post-Taliban period.382 MAIL estimates
                                                        2009 domestic consumption needs at 6.53 MT, however, which means that a poten-
                                                        tial deficit of 220,000 MT will have to be made up through food aid and imports.383
                                                           As harvests have improved, wheat flour prices have fallen, but prices vary sig-
                                                        nificantly by province. Northern provinces tend to have surpluses of wheat and
                                                        lower prices; central and southern provinces tend to have shortages and higher
                                                        prices. Food prices are a major factor in economic well-being: the 2007/2008
                                                        NRVA estimated that a typical Afghan family spent 77% of its income on food.384
A UNODC report released January 19, 2010,                  According to the UN Office on Drugs and Crime (UNODC), poppy remains
underscores the importance of counter-                  among the country’s most profitable agricultural commodities, providing approx-
narcotics efforts in strengthening economic             imately three times more income per hectare than wheat in 2009. As noted in
and social development. The report con-                 SIGAR’s last quarterly report, poppy cultivation and opium production declined
cluded that the influx of drug money into               in Afghanistan in 2009. The UNODC also reported a 40% reduction in the farm-
Afghanistan is perverting traditional Afghan            gate value ($438 million) of Afghanistan’s opium production in 2009 because
social relationships and increasing the cost
                                                        of worldwide oversupply. This is equivalent to 4% of Afghanistan’s legal GDP,
of corruption far beyond the levels found in
                                                        down from 12% in 2007 and 27% in 2002. The UNODC identifies three factors that
most under-developed countries.
                                                        contribute to the downward pressure of market forces on Afghan opium prices:
Source: UNODC, “Corruption in Afghanistan: Bribery as   aggressive counter-narcotics measures, alternative crop programs, and more
Reported by the Victims,” January 2010, p. 4.
                                                        favorable trade terms for other agricultural products.385 For more information,
                                                        see the “Counter-Narcotics” section.

                                                        U.S. Government Response
                                                        The U.S. government has expanded its efforts to strengthen Afghanistan’s
                                                        agricultural sector with a new strategy to improve outcomes at the grass-roots
                                                        level. This strategy more closely integrates and coordinates the work of teams of
                                                        agricultural specialists from the USDA, USAID, and the National Guard with each
                                                        other and with the GIRoA.386
                                                           According to the U.S. Secretary of Agriculture, the USDA has 54 agricultural
                                                        experts currently serving in Afghanistan and 10 more preparing to deploy.387
                                                        USDA projects include the following:388
                                                        •	 installing windmills to pump water for irrigation and livestock
                                                        •	 training veterinarians to detect and treat parasites
                                                        •	 rehabilitating a university agricultural research laboratory
                                                        •	 improving eroded river banks and irrigation canals
                                                        •	 developing post-harvest storage facilities
                                                        •	 rehabilitating degraded orchards
                                                        •	 mentoring provincial directors of agriculture to help them improve their
                                                            services to farmers carrying out reforestation efforts
                                                        In addition, the USDA estimated that since 2004 it has sponsored 50 Afghans for
                                                        specialized agricultural education in U.S. post-secondary institutions.389
                                                           On January 12, 2010, the U.S. Secretary of Agriculture announced that
                                                        $20 million would be made available to MAIL for capacity-building programs. The
                                                        funding is contingent upon MAIL establishing clear goals and programs that will
                                                        boost agricultural output, improve irrigation, create jobs, and enhance the use of




                                                         106               Special inspector general   I   Afghanistan reconstruction
economic and social development




modern agricultural technology in Afghanistan. In addition, MAIL must continue
to demonstrate a commitment to transparency.390
   In 2008, the U.S. military began sending National Guard agribusiness teams to
Afghanistan.391 Five of these teams are currently serving in Afghanistan.392 The
teams train agricultural extension agents and teach Afghan farmers modern
methods to improve soil fertility, wheat production, fruit production, forestry,
animal husbandry, and horticulture.393
   USAID reported that it funds many ongoing programs in Afghanistan that
support agriculture infrastructure, provide agriculture and animal husbandry
education, and improve export opportunities for Afghan agricultural prod-
ucts. According to the USAID Administrator, the agency is planning to deploy
approximately 1,000 civilians throughout Afghanistan, many of them working on
agricultural projects.394 In one program, USAID provided training to help Afghan
farmers in Wardak and Paktiya improve the quantity and quality of the apples
they produce and to properly sort, grade, package, and cold-store them. USAID
also provided funding for the tests required to qualify Afghan-grown apples for
export to India. As a result, in November 2009, Afghanistan exported apples to
India for the first time.395
   In another program, USAID is training goat herders in the value and techniques
of producing high-quality cashmere for sale. USAID reported on October 24, 2009,
that preliminary data indicates that an estimated 171,416 goat herders had been
trained, exceeding original expectations. In addition, USAID is setting up a
nationwide network of regional cashmere traders and is building the capacity of
traders to enter foreign markets.396




Kunar PRT members vaccinate a goat, one of more than 460 animals treated during a free
veterinary clinic. As part of the clinic, eight farmers were trained to carry out the procedure.
(U.S. Army photo, TSgt Brian Boisvert)



           Report to the united states congress         I   January 30, 2010                107
                                                  Quarterly Highlight




Snapshot of                                                                                    But years of war, internal conflict, and recent droughts
                                                                                               have significantly affected the country’s licit agricultural

Afghanistan’s Economy                                                                          sector. Afghanistan now relies on food aid to fully meet
                                                                                               its domestic consumption needs. In addition to erratic
                                                                                               rains, the most significant obstacles to agricultural
In terms of per capita GDP, Afghanistan ranks 219th                                            self-sufficiency are farmers’ lack of familiarity with
of 229 countries—among the poorest in the world.397                                            modern irrigation techniques, tools, seeds, fertilizers,
Nevertheless, DoS reported in December 2009 that                                               and pesticides.404
progress has been made since the end of Taliban era,                                               The cultivation of poppy has become a major
which contributed so much to the destruction of the                                            source of income for impoverished Afghan farmers.
country’s limited infrastructure, educational system,                                          Income from poppy far exceeds that from most legal
and other components of economic development.398                                               crops, although the cash value of poppy has been
According to the IMF, Afghanistan’s economy has                                                diminishing in recent years.405 For more information
experienced positive growth every year since 2001,                                             on poppy eradication and alternative crop programs,
albeit at a slower pace during drought years.399                                               see the “Counter-Narcotics” section.

Trade and Agriculture                                                                          Services and Industry
Historically, Afghanistan was part of the southern                                             Since 2002, an influx of foreign assistance has
portion of the fabled Silk Road—the ancient network                                            helped grow the services and industrial sectors of the
of overland trade routes connecting China with the                                             Afghan economy.406 As noted in SIGAR’s last quarterly
Mediterranean.400 Afghanistan became a hub for                                                 report, the service sector is now the largest contribu-
the shipment of goods across Central Asia.401 This                                             tor to Afghanistan’s GDP.
historical relationship has been severely disrupted                                               Afghanistan has a manufacturing sector, but
by decades of war and internal conflict. In the ANDS,                                          according to the World Bank it is hampered by a lack
the GIRoA recognized the importance of restoring this                                          of diversification.407 Manufacturing focuses primarily
trade lifeline.402 The ANDS energy strategy notes that                                         on the value-added processing of agricultural, horti-
Afghanistan’s location between the Indian Ocean and                                            cultural, and animal products, including dried fruit,
the oil and natural gas reserves of the Caspian Basin                                          leather products, and—recently—beverages, including
make the country a potential transit point for electricity                                     fruit juices. Textiles and woven carpets are among
produced in the region and exported to South Asia.403                                          Afghanistan’s most valuable manufactured goods.408
   Traditionally, agriculture has provided the main                                               Mining has traditionally contributed only 1% of
source of income for the Afghan people. Afghanistan                                            Afghanistan’s GDP.409 But Afghanistan’s untapped
once produced enough food to meet all of its domestic                                          natural resources offer significant potential for long-
consumption needs, as well as a surplus for exports.                                           term growth and development of the sector, according



Agriculture, service, and industrial sectors of the Afghan economy
Agriculture Sector                                                          Service Sector                                                Industrial Sector
Major legal food crops include corn, rice, barley, wheat (a staple),        The major components of the service sector are                The major components of the
vegetables, fruits, and nuts. Major industrial crops include cotton,        wholesale and retail trade, restaurants and hotels,           industrial sector are mining and
tobacco, madder (a Southeast Asian plant whose root is used to              transportation, communications, finance, home                 quarrying; manufacturing; food,
make red dye), castor beans, and sugar beets. Afghans also raise            ownership, community, social and personal services,           beverage, and tobacco production;
sheep, goats, and poultry and produce milk, cheese, yogurt, and             and government services.                                      textiles; chemicals; coal; electricity;
other products derived from herding animals.                                                                                              gas; water; and construction.
Sources: CSO, “Gross Domestic Product by Activity,” accessed online 12/14/2009; DoS, “Background Note: Afghanistan,” p. 8, accessed online 12/29/2009; USAID, response to SIGAR data
call, 1/5/2009.




                                                       108                         Special inspector general                I   Afghanistan reconstruction
                                    Quarterly Highlight




to a 2004 World Bank report and information from                      gas provided more than $300 million annually in rev-
the U.S. Geological Survey.410 Two with the most                      enues, or a total of 56% of the country’s total exports.
immediate potential are copper and iron ore.                          Most of these natural gas exports went to the for-
   Recognizing this potential, the GIRoA recently                     mer Soviet Union until 1989, when the Soviet Union
awarded a contract for the comprehensive redevelop-                   capped the natural gas wells upon its withdrawal from
ment of the Anyak copper mine, one of the largest in                  Afghanistan.416
the world. (As a result of allegations of corruption in
the awarding of this contract to a Chinese company,                   Tax Revenue
however, the former Minister of Mines was replaced.)                  According to the World Bank, much of Afghanistan’s
The GIRoA is also in the process of licensing the                     economic activity takes place in the informal sector,
rights to develop the Hajigak mine, the nation’s larg-                outside the reach of government regulatory and tax
est deposit of iron ore.411                                           schemes.417 As a result, Afghanistan has one of the
   U.S. Geological Survey teams also confirmed abun-                  lowest ratios of tax revenue collected as a percentage
dant high-quality deposits of precious and semipre-                   of GDP of any country in the world.418
cious stones in Afghanistan, including emerald, ruby,                    In recent testimony to the U.S. Congress, the U.S.
sapphire, garnet, lapis, kunzite, spinel, tourmaline, and             Ambassador to Afghanistan noted that tax collections
peridot.412 The Ministry of Mines reported that gem-                  in Afghanistan average about 7.7% of GDP, compared
stone mining is largely outside the central government’s              with 11–12% of GDP in most low-income countries.
control; most gems leave the country illegally.413 Other              The Ambassador further estimated that, because of
mineral resources identified include gold, mercury,                   corruption, approximately half of the total tax revenue
sulfur, chromite, talc, potash, and graphite.414                      collected by the GIRoA is not deposited in the Afghan
   More significantly, a joint U.S.-Afghan geological                 Treasury. Without appropriate levels of tax collection,
team released an assessment in 2009 estimating                        Afghanistan will remain dependent upon foreign
that southern and western Afghanistan may hold                        donors to fund government programs.419
significant hydrocarbon resources. These resources                       Treasury reported, however, that the GIRoA is
include estimated mean undiscovered volumes of                        working to improve tax revenue collection. The
44.76 billion cubic feet of non-associated natural gas,               GIRoA relies heavily on business and sales taxes,
0.91 million barrels of natural gas liquids, and 21.55                customs duties, and other trade-related taxes for
million barrels of technically recoverable oil.415                    revenue. In 2009/2010, revenue collection in
   Natural gas development is not new to Afghanistan,                 Afghanistan is expected to reach more than
which first tapped its natural gas resources in 1967.                 $1 billion for the first time.420
In fact, in the 1980s Afghanistan’s exports of natural




Lack of modern irrigation infrastructure and farming equipment means that agricultural output continues to depend on
seasonal weather patterns. (U.S. Army photo, MAJ Troy Price)




          Report to the united states congress      I   January 30, 2010              109
Counter-narcotics




110   Special inspector general   I   Afghanistan reconstruction
                                 Counter-narcotics




COUNTER-NARCOTICS                                                                      AFGHANISTAN NATIONAL
                                                                                       DEVELOPMENT STRATEGY (ANDS)

Narcotics trafficking is a serious threat to the stability of Afghanistan, accord-                               GOV   DEV
                                                                                                           SEC       E     EL
ing to the Department of Defense (DoD).421 In testimony to the House Armed                                     URIT RNANC OPMEN
                                                                                                                   Y     E      T
Services Committee on December 9, 2009, the U.S. Ambassador to Afghanistan
reported that Afghanistan remains a disconnected society plagued by corrup-            REGIONAL
                                                                                       COOPERATION
tion and illegal narcotics, as well as other issues.422 Because the climate in
Afghanistan is conducive to poppy cultivation and there is a lack of readily avail-    COUNTER-NARCOTICS
able economic alternatives, raising poppy is very lucrative for farmers, accord-
                                                                                       ANTI-CORRUPTION
ing to the Congressional Research Service (CRS).423 This section reports on the
status of counter-narcotics efforts in the country and challenges to those efforts.    GENDER EQUALITY

                                                                                       CAPACITY
Status
                                                                                       ENVIRONMENTAL
In December 2009, the UN Office on Drugs and Crime (UNODC) reported that
poppy cultivation decreased by 22% in 2009 from 2008 levels, occupying only
1.6% of agricultural land, or 123,000 hectares (ha)—the smallest area cultivated
since 2005. Ninety-nine percent of the cultivation was limited to seven provinces
in the southern and western regions, which also confront security issues, high-
lighting the link between poppy cultivation and insecurity.424 In 2009, production       “Annual fluctuations of
of opium fell approximately 10% from 2008 production levels, to 6,900 metric              opium cultivation do
tons (MT)—95% of production worldwide in 2009.425                                        not tell the whole story.
                                                                                         Success will come when
Poppy-Free Provinces                                                                   Afghanistan’s farmers have
A short-term goal of the Afghanistan National Development Strategy (ANDS)
is to support the establishment of poppy-free provinces by offering economic           sustainable licit livelihoods,
incentives—such as Good Performer’s Initiative (GPI) rewards—to those that                when drug traffickers
achieve poppy-free status, thereby encouraging them to sustain progress.426             no longer operate within
The UNODC reported that 20 of Afghanistan’s 34 provinces are poppy free, as
                                                                                       impunity, and when people
of December 2009. Kapisa, Baghlan, and Faryab are among recent additions.
Nangarhar achieved poppy-free status in 2008 but could not maintain the thresh-           no longer have to pay
old required for that status (fewer than 100 ha cultivated) in 2009.427 Figure 3.44,    bribes for basic services.”
on the following page, shows poppy cultivation across provinces for 2009.                               —Antonio Maria Costa,
    On November 23, 2009, the U.S. Embassy Kabul and the Government of the                           Executive Director, UNODC
Islamic Republic of Afghanistan (GIRoA) agreed to pledge $38.7 million for GPI
projects in 27 provinces. Those 27 provinces were recognized for either reducing       Source: UNODC, “Afghanistan Opium Survey: December 2009,”
                                                                                       p. 3.
poppy cultivation by more than 10% or becoming poppy-free in 2009. For example,
the southern province of Helmand will receive $10 million in GPI funds for having
reduced poppy cultivation by 33% in 2009 from 2008 levels.428



         Report to the united states congress   I   January 30, 2010         111
                                                                  Counter-narcotics




                                                                 ANSF Counter-Narcotics Operations
Poppy-free status refers only to                                 According to the U.S. Office of the Secretary of Defense (OSD), counter-narcotics
cultivation of poppy. Illegal substances                         initiatives by the Afghan National Security Forces (ANSF) have focused primarily
continue to be processed and trafficked                          on drug seizures. From October to December 2009, coalition and Afghan forces
in poppy-free provinces.                                         conducted 23 military operations, predominately in Regional Command-South, as
Source: DoS OIG, Report No. MERO-A-10-02, “Status of             reported by OSD. During these operations, forces seized the following quantities
Bureau of International Narcotics and Law Enforcement
Affairs Counternarcotics Programs in Afghanistan:                of drugs and precursor chemicals:429
Performance Audit,” 12/2009, p. 11.
                                                                 •	 870 kg of heroin
                                                                 •	 1.7 MT of morphine

Figure 3.44
STATUS OF POPPY CULTIVATION BY PROVINCE, 2009
STATUS OF POPPY CULTIVATION BY PROVINCE, 2009

                                                                                UZBEKISTAN
                                                                                UZBEKISTAN                                              TAJIKISTAN                  CHINA
                                                                                                                                        TAJIKISTAN                  CHINA



                           TURKMENISTAN                              JOWZJAN                           KUNDUZ        BADAKHSHAN
                                                                                      BALKH                   TAKHAR BADAKHSHAN
                           TURKMENISTAN                              JOWZJAN          BALKH
                                                                                                       KUNDUZ
                                                                                                              TAKHAR

                                                                                          SAMANGAN                                               Poppy Cultivation (ha)
                                                        FARYAB                                    BAGHLAN                                        Poppy Cultivation (ha)
                                                                                          SAMANGAN
                                                        FARYAB       SAR-E PUL                    BAGHLANPANJSHIR                                Poppy-free
                                                                     SAR-E PUL                           PANJSHIRNURISTAN                        Poppy-free
                                          BADGHIS                                                                                                Less than 1,000
                                                                                                 PARWAN KAPISA NURISTAN
                                                                                                                      KUNAR
                                          BADGHIS                                    BAMYAN                                                      Less than 1,000
                                                                                                 PARWAN KAPISALAGHMAN KUNAR
                                                                                     BAMYAN                                                      1,000–10,000
                                                                                                      KABUL LAGHMAN
                       HERAT                                                                 WARDAK                                              1,000–10,000
                                                                                                      KABUL NANGARHAR                            10,000–20,000
                       HERAT                            GHOR                                 WARDAK
                                                                                                    LOGAR       NANGARHAR                        10,000–20,000
                                                        GHOR           DAYKUNDI                     LOGAR
                                                                                                       PAKTIYA                                   More than 20,000
                                                                       DAYKUNDI                        PAKTIYA                                   More than 20,000
                                                                                          GHAZNI           KHOWST
                                                                                          GHAZNI           KHOWST
                                                                  URUZGAN
                          FARAH                                   URUZGAN                               PAKTIKA
                          FARAH                                                   ZABUL
                                                                                                        PAKTIKA
                                                                                  ZABUL


                                                                                                                          PAKISTAN
                        NIMROZ                                                                                            PAKISTAN
    IRAN                NIMROZ           HELMAND
                                                               KANDAHAR
    IRAN                                 HELMAND
                                                               KANDAHAR




Note: A province is declared poppy-free when fewer than 100 ha have been used for poppy cultivation.
Note: A province
Source: UNODC, is  declared poppy-free
                 “Afghanistan          when fewer
                              Opium Survey:       than 2009,”
                                            December   100 ha p.
                                                              have
                                                                 12.been used for poppy cultivation.
Source: UNODC, “Afghanistan Opium Survey: December 2009,” p. 12.




                                                                     112                         Special inspector general   I   Afghanistan reconstruction
                                                   Counter-narcotics




•	   16.9 MT of opium
•	   92.4 MT of poppy seed
•	   7 MT of hashish
•	   12,832 liters of acetic anhydride (a precursor chemical used to process
     opium into morphine and heroin)

   The Afghan National Army has also participated in drug seizure opera-
tions with U.S. military forces. In Helmand, the Counter-Narcotics Police -
Afghanistan chose four of its best officers for assignment to the Marine
Expeditionary Brigade in that province. OSD also reported that the Afghan
National Police and its Afghan Border Police unit played a significant role in
the November 2009 seizure of 6.8 MT of hashish in Kandahar.430
   In October, the CRS reported that well-financed trafficking groups may be
encouraging Afghan poppy farmers and employing insurgents to violently resist
drug interdiction and poppy-eradication efforts. To combat this threat, the U.S.
military is working with the Afghan Ministry of Defense to create a military unit
that will provide perimeter security for counter-narcotics operations.431
Table 3.13 lists Afghan law enforcement and military entities involved in the
counter-narcotics effort.
                                                                                                                                 Afghan and international forces continue
U.S. and International Counter-Narcotics Initiatives                                                                             to conduct counter-narcotics operations to
                                                                                                                                 seize and destroy heroin and other illegal
On January 8, 2010, the International Security Assistance Force (ISAF) reported                                                  drugs. (UNODC photo)
a significant drug seizure in the Maiwand district of Kandahar—5,300 pounds
of processed opium, more than 1,000 pounds of wet opium paste, and approxi-
mately 50 pounds of heroin.432
Table 3.13


afghan counter-narcotics law enforcement and military entities
Entity                                     Description
Counter-Narcotics Police-Afghanistan       Investigative and enforcement divisions plan and execute counter-narcotics
(CNP-A)                                    activities with U.S. and British support
National Interdiction Unit                 An elite unit of the CNP-A, responsible for conducting raids across Afghanistan

Sensitive Investigations                   Responsible for gathering evidence through judicially authorized investigations
Unit/Technical Intercept Unit              of prominent narcotics targets, using a variety of methods
Central Eradication Planning Cell          Uses sophisticated technology and surveying to target poppy crops and moni-
(CPEC)                                     tor the success of eradication operations
Poppy Eradication Force (PEF)              Conducts ground-based eradication of poppy crops based on targeting data
                                           provided by the CPEC
Counter-Narcotics Infantry Kandak          Provides military perimeter security for the Afghan Eradication Force and other
                                           Afghan counter-narcotics force missions
Afghan Special Narcotics Force             Carries out interdiction missions against high-value targets and in remote
                                           areas
Afghan Border Police                       Responsible for securing Afghanistan’s borders

Note: Although the PEF still technically exists, INL no longer provides funding to support it.
Source: CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, pp. 39–41; Defense.gov, “Soldiers Mentor Afghan
Border Police,” 12/5/2007, accessed online 1/11/2010.




              Report to the united states congress                      I   January 30, 2010                          113
                                                                Counter-narcotics




                                                                   Enhanced counter-narcotics activities in 2009 included drug seizures,
                                                                destruction of secret laboratories, and increased control of precursor chemicals,
                                                                according to the UNODC. From April 2008 to July 2009, ISAF and Afghan forces
                                                                conducted counter-narcotics operations in seven provinces, with a primary focus
                                                                on Helmand and Nangarhar. During these operations, they destroyed 27 labs
                                                                including 17 in Helmand and 8 in Nangarhar.433
                                                                   The United States has increased its support for Afghanistan’s fight against
                                                                narcotics. OSD stated that the U.S. Drug Enforcement Administration (DEA)
                                                                mentors the National Interdiction Unit, with DoD and the Department of State
                                                                (DoS) playing supporting roles. The U.S. intelligence community also provides
                                                                trafficking information and targeted development support to law enforcement
                                                                and military forces within Afghanistan.434


                                                                Combating the Opium Trade
                                                                The GIRoA is confronting the poppy problem in a number of ways, including
                                                                poppy eradication, alternative development programming, public information
                                                                activities, and capacity development.


                                                                Poppy Eradication
According to the CRS, eradication                               The ANDS target for poppy eradication is a 50% reduction from the 2007 level by
programs have not been cost-efficient,                          2013.435 In 2009, according to the UNODC, 123,000 ha of poppy were cultivated
and eradication activities have often proved                    and only 4% (5,351 ha) were eradicated. Since 2007, the overall production of
counter-productive. The cost of destroying                      poppy has decreased by 36%.436
poppy seeds is estimated to be $44,000
per hectare.
Source: CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S.
Policy,” 10/7/2009, p. 19; Embassy of the United States,
“Special Representative for Afghanistan and Pakistan Richard
C. Holbrooke on his Recent Trip to Pakistan, Afghanistan, and
Brussels,” 7/29/2009, p. 3.




                                                                During harvesting, each poppy capsule is lanced manually with a sharp instrument, causing
                                                                the opium latex to ooze out for collection. (UNODC photo)




                                                                  114                Special inspector general    I   Afghanistan reconstruction
                                  Counter-narcotics




   During 2009, the dangerous security environment significantly hindered
eradication campaigns, according to the UNODC. Eradication efforts decreased
throughout the country but particularly in the major opium-growing provinces.
The number of provinces in which eradication activities took place fell from 17
in 2008 to 12 in 2009. Figure 3.45 displays eradicated areas as a percentage of         Figure 3.45
total areas under poppy cultivation from 2005 to 2009. Because of the minimal
                                                                                        POPPY: AREA CULTIVATED AND
progress in such activities, the total area eradicated fell only slightly, from 5,480
                                                                                        ERADICATED, 2005–2009 (THOUSAND HECTARES)
ha in 2008 to 5,351 ha in 2009.437 Governor-Led Eradication (GLE) efforts were
responsible for clearing 2,687 ha, while Poppy Eradication Force (PEF) efforts
were responsible for clearing 2,663 ha, as reported by UNODC.                           200                           193
   As of December 31, 2009, DoS reported that support for the PEF has been dis-                            165
                                                                                                                                157
continued.438 Eradication efforts are now the responsibility of the GIRoA, accord-      150
ing to the U.S. Ambassador to Afghanistan.439 In late June 2009, the Ambassador                                                          123
                                                                                                 104
announced that the United States was abandoning centralized eradication efforts         100
and shifting its focus to “interdicting drug supplies, destroying processing labs,
and promoting alternative crops.”440 Despite the shift in the focus of U.S. counter-     50
narcotics activities, DoS reported that Afghan governors will be reimbursed for                           9.3%      10.1%
the cost of GLE activities, at a rate of $135/ha. This reimbursement is expected to              4%                             3.5%    4.4%
                                                                                          0
take place in March 2010.441                                                                    2005      2006       2007      2008     2009


Alternative Development Programming                                                                 Cultivated
The U.S. Agency for International Development (USAID) identified the need to                        Eradicated (percentage of total)

expand efforts to reach farmers, agribusiness, and government service providers         Note: Numbers affected by rounding.
                                                                                        Source: UNODC, “Afghanistan Opium Survey,” 12/2009, p. 49.
across the country—not just those in poppy-prone provinces—to build on the
successes of alternative development programs. 442 As of December 8, 2009, for
example, more than 300 young farmers in Laghman and Khowst had completed
training programs in which they learned agricultural skills that will enable them
to secure better jobs and produce higher-quality crops.
   Also, in five districts in Khowst, 150 men and women, ages 15 to 25, graduated
from training on topics from pest management to marketing. Their graduation               Governor-Led Eradication: An eradica-
corresponded with the opening of 25 new greenhouses, enabling the graduates to            tion program supported by the Counter-
put their new skills to work.443 In FY 2009, USAID provided training to more than         Narcotics Advisory Team to eradicate
160,000 farmers on crop-yield improvement, financial management and business              poppy in the key provinces where most of
skills, and produce storage.444                                                           the cultivation occurs
   According to the U.S. Central Intelligence Agency, agriculture is the main
source of income for Afghans: 80% of Afghans are employed in the agriculture sec-         Poppy Eradication Force: The GIRoA’s
tor, and non-opium agriculture accounts for 31% of Afghanistan’s GDP, as reported         national eradication force
recently by the CRS.445 On January 12, 2010, the U.S. Agriculture Secretary
announced a $20 million plan to support Afghanistan’s agriculture economy.446
                                                                                        Source: DoS, “Afghanistan Program Overview,” accessed online
For more information, see the “Economic and Social Development” section.                1/20/2010, DoS, “Afghanistan Program Overview,” accessed
                                                                                        online 1/20/2010.
   Alternative development programs have become the main mechanism
for breaking the connection between Afghanistan and the opium drug trade.
According to USAID, alternative development programs have been based on
a two-track approach, as reported by the CRS. The first track has been geared
toward the provinces in the north, east, and west that have reduced poppy



         Report to the united states congress   I   January 30, 2010          115
                                                        Counter-narcotics




                                                        cultivation. The provision of assistance in these provinces is designed to consoli-
                                                        date positive changes. The second track is geared toward provinces in the south-
                                                        ern and eastern regions. This track focuses on more targeted and quick-impact
                                                        agricultural development activities, designed to secure newly cleared areas.447
The USAID voucher program is designed to                   To advance alternative development initiatives, USAID is providing assistance
enable rapid and targeted assistance                    to the north, central, eastern, and western parts of Afghanistan through the
deliveries using Afghan public-sector of-               Incentives Driving Economic Activity (IDEA-NEW) program, as noted in a recent
ficials and private-sector partners in areas            CRS report. This program seeks to provide assistance to improve agricultural
that have been cleared and secured by                   sector efficiency and consolidate reductions in poppy cultivation. In the southern
coalition and Afghan forces.
                                                        and eastern regions, USAID will replace a targeted agricultural assistance pro-
Source: CRS-RL32686, “Afghanistan: Narcotics and U.S.   gram proposed for 2009–2010 with a voucher-based, quick response program.448
Policy,” 10/7/2009, p. 44.
                                                           In December 2009, the Ministry of Counter-Narcotics (MCN) opened a 9-km
                                                        road in the Shakardara district of Kabul province. Financed with GPI funds, the
                                                        road enables farmers to transport agricultural products to markets in the district.
                                                        The U.S. Embassy Kabul reported that the road helps show the community the
                                                        rewards and benefits of refusing to grow poppy.449


                                                        Public Information Activities
                                                        The MCN is currently running a public information campaign in 26 provinces,
                                                        involving religious leaders and the media.450 The campaign has reached more
                                                        than 15 million Afghans thus far, according to the Permanent Representative of
                                                        the Mission of Afghanistan to the United Nations.451 The GIRoA’s public aware-
                                                        ness strategy encourages local community and religious leaders to support the
                                                        government’s counter-narcotics policies and encourages them to speak out in
                                                        their communities against drug use and involvement in the opium trade.452
                                                           The U.S. Bureau of International Narcotics and Law Enforcement Affairs
                                                        (INL) reported increased capacity within the MCN as a result of its Counter-
                                                        Narcotics Public Information Campaign. A major goal of this program is to
                                                        increase the ability of the MCN to plan, budget, and execute its own nationwide
                                                        public information campaigns. Significant emphasis is placed on the pre-planting
                                                        campaign in the fall, which promotes the planting of licit crops instead of poppy.
                                                        Through this program, the MCN was able to create a list of target districts for the
                                                        pre-planting campaign. It also developed its own counter-narcotics messaging,
                                                        according to INL.453


                                                        Capacity Development
                                                        The existing counter-narcotics programs in Afghanistan are designed to increase
                                                        capacity within the GIRoA, according to INL. The PEF program, which INL no
                                                        longer supports, increased the ability of the GIRoA to plan and execute daily
                                                        eradication operations by the end of the 2009 eradication season.454 Current pro-
                                                        grams include the GPI, GLE, and the Counter-Narcotics Advisory Teams (CNAT).
                                                        Both the GPI and GLE aim to increase the capacity of the MCN to manage pro-
                                                        gram finances and operations. The ultimate goal of these programs is to build the
                                                        MCN into a ministry that can function with minimal international oversight and




                                                         116               Special inspector general   I   Afghanistan reconstruction
                                        Counter-narcotics




guidance. INL reported that measured progress toward this goal has been mixed,
mainly because of staffing limitations, which have resulted in a backlog of work.
Despite the backlog, INL reported that the capacity of the MCN to implement
projects has increased, as measured by a higher project completion rate than
in 2008. Nonetheless, the MCN’s goal of completing all projects implemented in
2008 was not met as of December 31, 2009, according to INL.455
   The CNAT seeks to build the capacity of MCN provincial offices, with the main
goal of increasing the ministry’s presence outside of Kabul. According to INL,
these efforts have been successful because all field officers are Afghan employ-
ees of the MCN. Two international advisors provide oversight and mentoring for
each CNAT to ensure the continued success of the program.456


Challenges
Security, corruption, and the financial incentive for raising poppy are the main chal-
lenges to counter-narcotics efforts. The DoS Office of Inspector General (DoS OIG)
recently conducted an audit that identified the unstable security situation as one of
the main impediments to combating the drug trade in Afghanistan. Poppy cultiva-
tion is concentrated in the southern region of the country, where DoS OIG found
that the insurgency is the strongest and the security situation the worst.457




Special Inspector General for Afghanistan Reconstruction Arnold Fields visits the Counter-
Narcotics Justice Center during his recent trip to Afghanistan. This facility will provide a secure
location for major narcotics prosecutions by the GIRoA. (SIGAR photo)




           Report to the united states congress         I   January 30, 2010                117
                                                                Counter-narcotics




                                                                   The DoS OIG audit also identified the pervasiveness of corruption throughout
                                                                the GIRoA as an impediment to the success of the counter-narcotics mission.
                                                                As reported in the “Governance” section, Afghanistan ranked 179th of the 180
                                                                countries in Transparency International’s 2009 Corruption Perception Index.458
                                                                According to DoS OIG, the GIRoA demonstrated a lack of commitment to counter-
                                                                narcotics issues, further hindering the success of counter-narcotics programs.
                                                                Some examples:459
                                                                •	 The GIRoA-led eradication of poppy is selective, avoiding action against
                                                                   politically connected farmers.
                                                                •	 Border police and customs officials are afraid to take action against traffick-
                                                                   ers and are sometimes told to avoid inspecting certain vehicles and cargoes.
                                                                •	 The Afghan Office of the President sometimes directs the GIRoA to release
                                                                   people who have been arrested and convicted of narcotics-related crimes.

                                                                   Furthermore, the monetary incentives to cultivate poppy outweigh those
                                                                to cultivate alternative crops, according to DoS OIG. The average per capita
                                                                income in Afghanistan is $600–$700 a year, but an Afghan family can typically
                                                                earn approximately $6,500 a year cultivating poppy. To be competitive, alterna-
                                                                tive crops must either have lower costs of production or be more productive per
                                                                hectare. Alternative crops also take longer to grow than poppy. A large propor-
                                                                tion of farmers have become dependent on the minimal risks and high returns of
                                                                poppy cultivation, according to DoS OIG.460
                                                                   Public attitudes toward the drug trade in Afghanistan also limit the effective-
                                                                ness of counter-narcotics programs. Specifically, DoS OIG noted that although
                                                                farmers are aware that the narcotics trade is illegal and that it conflicts with the
                                                                tenets of Islam, they continue to cultivate poppy for economic and other situ-
                                                                ational reasons.461
                                                                   The DoS OIG also highlighted the traditional, informal financial system known
  Hawala: An informal system for handling                       as hawala. Hawaladars—money exchange dealers—sometimes engage in the
  financial transfers and currency exchange                     transfer of illegal profits. This causes concern because hawaladars process approx-
                                                                imately 80% of Afghanistan’s cash transfers, according to DoS OIG. Kabul alone has
                                                                approximately 300 hawaladars, which have branches or dealers in every province.
                                                                Because narcotics generate a significant amount of income in Afghanistan, the
Source: World Bank, “The Nexus of Drug Trafficking and Hawala
in Afghanistan,” accessed online, 1/4/2010.                     drug trade is a primary source of laundered funds.462
                                                                   There is considerable uncertainty regarding the GIRoA’s ability to sustain the
                                                                U.S. counter-narcotics efforts currently in place. According to DoS OIG, the GIRoA
                                                                lacks the necessary determination and capacity to continue counter-narcotics
                                                                programs when the U.S. funding ceases—largely because the expanded U.S. role
                                                                in counter-narcotics activities effectively removed the GIRoA’s responsibility for
                                                                addressing narcotics-related issues.463
                                                                   Of the 123,000 ha of opium that were cultivated in 2009, 84% lie in the five most
                                                                insecure provinces—Helmand, Kandahar, Uruzgan, Daykundi, and Zabul, according
                                                                to the UNODC.464 Anti-government elements are very active in the western region of
                                                                Afghanistan. The southern region is also home to strongholds of such elements, and
                                                                the western region is reported to house organized criminal networks.465



                                                                 118                Special inspector general   I   Afghanistan reconstruction
                                                     Counter-narcotics




   According to the UNODC, the number of narcotics-related security incidents has
risen every year since 2003. A significant increase occurred in 2009, largely owing
to resistance to eradication by insurgents. Such resistance resulted in 21 deaths in
2009; the majority of these deaths were police officers.466 Thirty-four attacks were
launched against GLE and PEF teams in 2009. The greatest number of eradication-
related security incidents occurred in Helmand and Kandahar. Figure 3.46 provides
a breakdown of narcotics-related security incidents by province.


Figure 3.46

SECURITY INCIDENTS DURING POPPY ERADICATION BY PROVINCE, 2009


                                                                                       UZBEKISTAN                                                          TAJIKISTAN             CHINA


                                                                                                                                   BADAKHSHAN
                                                                                                                                     Incidents: 3
                                                                                                                                      Injured: 5
                         TURKMENISTAN                                    JOWZJAN            BALKH
                                                                                                               KUNDUZ
                                                                                                                          TAKHAR


                                                       FARYAB
                                                      Incidents: 2                              SAMANGAN                                                           Hectares Eradicated
                                                       Injured: 1
                                                                                                                  BAGHLAN
                                                        Dead: 1          SAR-E PUL                                      PANJSHIR                                   0
                                                                                                                                   NURISTAN
                                           BADGHIS                                                                      KAPISA                KUNAR                1–100
                                                                                            BAMYAN             PARWAN Incidents: 0          Incidents: 1
                                                                                                                     KABUL LAGHMAN                                 101–300
                     HERAT
                   Incidents: 1                                                                          WARDAK Incidents: 0       NANGARHAR
                    Injured: 1                         GHOR                                                                         Incidents: 3                   301–500
                                                                                                                     LOGAR
                     Dead: 1                                                                                                         Injured: 5
                                                                           DAYKUNDI                                    PAKTIYA                                     501–4,119
                                                                                                                                      Dead: 1
                                                                           Incidents: 0
                                                                                                      GHAZNI                 KHOWST

                                    FARAH                            URUZGAN
                                  Incidents: 0                       Incidents: 1         ZABUL
                                                                      Injured: 3       Incidents: 1             PAKTIKA
                                                                                        Injured: 4
                                                                                         Dead: 2
                                            HELMAND
                                           Incidents: 16                                                                                    PAKISTAN
                                            Injured: 25
                       NIMROZ                 Dead: 9           KANDAHAR
   IRAN                                                          Incidents: 6
                                                                  Injured: 8
                                                                   Dead: 7




Note: Numbers affected by rounding.
Source: UNODC, “Afghanistan Opium Survey,” 12/2009, p. 52.




             Report to the united states congress                            I      January 30, 2010                          119
             Road Survey
             Afghan contractors working for USAID survey a road at the joint
             district community center in Kandahar. USAID is funding the
             road improvement project to improve the local infrastructure.
             (U.S. Air Force photo, MSgt Juan Valdes)




120   Special inspector general    I   Afghanistan reconstruction
4   other agency
    Oversight




       121
           other agency oversight




     “Hilibus aut aspedit liqui quam
 excesequam il experum re dolum ut
 ommodio ersped eaquas et moloritiis
     estium expeles totaspe llacepel
eateceatus rem qui velit dolenis quosa
  num consequam, quiati bearibuscia
  si ut eost, omnihil modita nistia aut
   hitis que apicia doluptatio es sed
   es ut ut aut estis dolor rerum que
               litiorepudae”
                                                         —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis pro-
           vidit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




              122                          Special inspector general                  I   Afghanistan reconstruction
                                 other agency oversight




other agency oversight
Each quarter, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) requests updates from other government agencies on the number of
oversight activities completed and the number of ongoing oversight activities
currently being performed. The following agencies are currently performing
oversight activities in Afghanistan and providing results to SIGAR:
•	 Department of Defense Office of Inspector General (DoD OIG)
•	 Department of State Office of Inspector General (DoS OIG)
•	 Government Accountability Office (GAO)
•	 U.S. Army Audit Agency (USAAA)
•	 U.S. Agency for International Development Office of Inspector General
   (USAID OIG)


Completed oversight activities
Table 4.1 lists the six reconstruction or security-related oversight projects that
were completed this quarter.
Table 4.1


completed oversight activities of other U.S. agencies, as of december 30, 2009
Agency               Report Number          Date Issued           Project Title
DoD OIG              D-2010-032             12/31/2009            DoD Counter-mine and Improvised Explosive Device Defeat Systems Contracts
DoS OIG-MERO         MERO-A-10-02           12/7/2009             Effectiveness of Counter-Narcotics Programs in Afghanistan
GAO                  GAO-10-178R            11/5/2009             Afghanistan’s Security Environment
GAO                  GAO-10-187             11/2/2009             Contingency Contracting: Further Improvements Needed in Agency Tracking of Contractor Personnel and Contracts in
                                                                  Iraq and Afghanistan
USAID OIG            5-306-10-004-P         12/15/2009            Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
USAID OIG            5-306-10-002-P         11/10/2009            Audit of Selected Power Sector Activities Funded Under USAID/Afghanistan’s Infrastructure and Rehabilitation Program
Note: MERO = Middle East Regional Office.

Source: DoD OIG, response to SIGAR data call, 1/05/10; DoS OIG-MERO, response to SIGAR data call, 1/05/10; GAO, response to SIGAR data call, 1/06/10; USAAA, response to SIGAR data call, 1/08/10;
USAID OIG, response to SIGAR data call, 12/16/09.




ongoing oversight activities
As of December 30, 2009, the 5 agencies had 31 reconstruction or security-related
oversight activities in progress. The activities are listed in the following sec-
tions by agency. The descriptions of activities appear as they were submitted to
SIGAR, with these mechanical changes for consistency with the other sections of




              Report to the united states congress                      I   janUARY 30, 2010                         123
                                                                 other agency oversight




                                                                 this report: acronyms and abbreviations in place of repeated full names; stan-
                                                                 dardized capitalization, hyphenation, and preferred spellings; and third-person
                                                                 instead of first-person construction. Table 4.2 lists the ongoing oversight activi-
                                                                 ties being performed by other government agencies as of December 30, 2009.
Table 4.2


ongoing oversight activities of other U.S. agencies, as of december 30, 2009
Agency                Project Number                      Date Initiated        Project Title
DoD OIG               D2010-D000JA-0091.000               12/9/2009             Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG               D2009-D000LC-0237.000               6/11/2009             Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and Operation Enduring Freedom
DoD OIG               D2009-D000JB-0230.000               6/5/2009              Inter-agency Audit on DoD Obligations and Expenditures of Funds Provided to DoS for the Training and
                                                                                Mentoring of the Afghan National Police
DoD OIG               D2008-D000FP-0132.000               2/25/2008             Internal Controls over Army, General Fund, Cash, and Other Monetary Assets Held in Southwest Asia
DoD OIG               D2007-D000FD-0198.001               10/10/2008            Reannouncement of the Audit of Funds Appropriated for Afghanistan and Iraq Processed Through the
                                                                                Foreign Military Sales Trust Fund
DoS OIG-MERO          09-MERO-3010                        6/2009                Effectiveness of INL’s Air Wing Programs in Afghanistan and Pakistan
DoS OIG-MERO          09-MERO-3009                        6/2009                Afghan National Police Training and Mentoring Program (Joint w/DoD OIG)
GAO                   120874                              11/12/2009            Annual Mandated Review of Contracting in Afghanistan and Iraq
GAO                   320723                              10/20/2009            Review of U.S. Civilian-Military Campaign Plans for Afghanistan
GAO                   351399                              9/17/2009             DoD’s Oversight of Operational Contract Support in Afghanistan
GAO                   320712                              9/2/2009              U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
GAO                   351395                              8/21/2009             Supply and Equipment Support for U.S. Military Operations In Afghanistan
GAO                   351393                              8/21/2009             DoD Health Care Requirements for Contingency Operations
GAO                   351385                              8/11/2009             Combat Skills Training for Support Units
GAO                   351376                              7/30/2009             Readiness of Air Force Combat and Expeditionary Combat Support Forces
GAO                   351387                              7/30/2009             Army and Marine Corps Training Capacity 
GAO                   351388                              7/26/2009             Availability of Trained and Ready Forces to Support Military Operations in Iraq and Afghanistan
GAO                   320680                              5/8/2009              Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
GAO                   351345                              4/24/2009             Overseas Contingency Operations Funding and Cost Reporting
GAO                   320662                              3/16/2009             USAID’s Alternative Development and Agriculture Projects in Afghanistan
GAO                   120812                              2/19/2009             Contractors Performing Contract Management or Administration for Other Contracts or Grants in Iraq and
                                                                                Afghanistan
GAO                   320657                              1/29/2009             U.S. Counter-Narcotics Activities in Afghanistan
USAAA                 A-2009-ALL-0531.000                 7/26/2009             Commander’s Emergency Response Program (CERP) - Afghanistan
USAAA                 A-2009-ALL-0106.000                 2/2/2009              Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Jalalabad (Afghanistan)
USAAA                 A-2008-ALL-0401.000                 9/1/2008              Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Kandahar and Salerno
                                                                                (Afghanistan)
USAAA                 A-2008-ALL-0320.000                 1/28/2008             Contracting Operations at the Joint Contracting Command—Iraq/Afghanistan (Bagram)
USAID OIG             Not provided                        Not provided          Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan
USAID OIG             Not provided                        Not provided          Audit of USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the Schools and
                                                                                Clinics Construction and Refurbishment Program
USAID OIG             Not provided                        Not provided          Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project
USAID OIG             Not provided                        Not provided          Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
USAID OIG             Not provided                        Not provided          Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Production in Agriculture Program
Source: DoD OIG, response to SIGAR data call, 1/05/10; DoS OIG-MERO, response to SIGAR data call, 1/05/10; GAO, response to SIGAR data call, 1/06/10; USAAA, response to SIGAR data call, 1/08/10;
USAID OIG, response to SIGAR data call, 12/16/09.




                                                                    124                         Special inspector general                I   Afghanistan reconstruction
                    other agency oversight




Department of Defense Office of Inspector General
The Department of Defense (DoD) continues to face many challenges in execut-
ing its Overseas Contingency Operations (OCO), formerly known as “the Global
War on Terror (GWOT).” DoD OIG has identified priorities based on those chal-
lenges and has responded by expanding its coverage of OCO operations and its
presence in Southwest Asia. As DoD continues its OCO to include Operation
Enduring Freedom (OEF), it will stay focused on issues important to accomplish
the mission and ensure the department makes efficient use of its resources to
support the warfighter.
   During the first quarter of FY 2010, DoD OIG deployed additional auditors and
investigators to Iraq and Afghanistan. The additional staff support the increased
oversight workload required by statutory requirements, congressional requests,
senior DoD and military officials’ requests, and the department’s drawdown
efforts in Iraq and increased operational tempo in Afghanistan. The field offices
in Qatar, Iraq, Kuwait, and Afghanistan enhance the ability of DoD OIG to pro-
vide audit, inspection, and investigative support to DoD operations in support
to OCO. In addition, DoD OIG is preparing to deploy additional personnel into
Southwest Asia, including Afghanistan.
   The DoD OIG-led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO-related oversight activities. The Group held its
eleventh meeting in November 2009. Through the Group, the members continue
to coordinate, collaborate, and deconflict their respective and joint oversight
efforts, including working with the Commission on Wartime Contracting and its
respective mission.
   DoD OIG is in the process of updating the Comprehensive Oversight Plan for
Southwest Asia for FY 2010. DoD OIG, on behalf of the member DoD and federal
oversight agencies, issues the statutorily required Comprehensive Oversight
Plan for Southwest Asia, including the additional FY 2009 statutorily required
oversight. The Comprehensive Oversight Plan for Southwest Asia includes the
individual oversight plans of the Inspectors General for DoD, the Department of
State (DoS), and the U.S. Agency for International Development (USAID); the
Special Inspector General for Iraq Reconstruction; and the Special Inspector
General for Afghanistan Reconstruction. It also includes the oversight work of
the USAAA, Naval Audit Service, Air Force Audit Agency, and Defense Contract
Audit Agency (DCAA) because of the major contributions they make to improve
the efficiency and effectiveness of support to the military. The comprehensive
plan was expanded beyond the statutory mandates to include other functional
areas that DoD OIG believes are germane to supporting operations in Southwest
Asia, including Operation Enduring Freedom, such as contract administration
and management, reset of equipment, financial management, and reconstruc-
tion support effort. In addition, the oversight plan includes the Commander,
U.S. Central Command’s request for DoD OIG and the Service Audit Agencies to
review asset accountability within Southwest Asia.




        Report to the united states congress   I   janUARY 30, 2010        125
other agency oversight




   For FY 2010, the completed and remaining ongoing OEF-related oversight
addresses the safety of personnel with regard to construction efforts, force pro-
tection programs for U.S. personnel, accountability of property, contract admin-
istration, contractor common access cards, armoring capabilities, management
of fuels, and transportation of goods and materiel. In response to a request from
the Commission on Wartime Contracting in Iraq and Afghanistan, the office initi-
ated an audit addressing the construction of the New Kabul Compound Facilities
for U.S. Forces - Afghanistan. Additionally, in response to a congressional
request, the office has initiated a joint audit with DoS OIG, to review the status of
Afghanistan Security Forces Fund (ASFF) money that DoD has provided to DoS
for the training of the Afghan National Police (ANP).

Oversight Activities
For the fourth quarter of FY 2009, DoD OIG had 16 ongoing oversight activities
and issued 1 report that supports OEF. Of those 16 ongoing projects, 5 directly
relate to reconstruction or security operations in Afghanistan and are incorpo-
rated in this quarterly report.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering
facilities and billeting areas of U.S. forces in Afghanistan. Specifically, it is
assessing the program support and resources that commanders have for facility
planning, antiterrorism, and safety programs protecting their forces. The audit
is focusing on Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New
Kabul Compound.

Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and
Operation Enduring Freedom
(Project No. D2009-D000LC-0237.000, Initiated June 11, 2009)
DoD OIG is determining whether air cargo transportation contracts in support
of Operation Iraqi Freedom (OIF) and OEF are administered in accordance with
applicable Federal and DoD regulations. Specifically, DoD OIG will determine
whether the decision to use air transportation was justified, whether delivery
orders were awarded in accordance with vendor selection criteria, and whether
the cargo transported by air was delivered within required time frames.

Inter-agency Audit on DoD Obligations and Expenditures of Funds Provided
to DoS for the Training and Mentoring of the Afghan National Police
(Project No. D2009-D000JB-0230.000, Initiated June 5, 2009)
The Inspectors General of DoD and DoS are performing this joint audit in
response to a congressional request. The objective is to review the status
of ASFF money that DoD has provided to DoS for the training of the ANP.
Specifically, DoD OIG will review the contract, appropriate task orders,



  126                Special inspector general   I   Afghanistan reconstruction
                      other agency oversight




statements of work, and any contract or task order modifications for training and
mentoring to ensure they comply with all relevant Federal regulations and meet
the needs of DoD. Further, DoD OIG will review contractor invoices to ensure
that claimed costs are allowable, allocable, and reasonable for the services
received. DoS OIG will be assisting DoD OIG on this audit and will be assessing
the staffing, training, contract management, and contract effectiveness of the
civilian police trainers.

Reannouncement of the Audit of Funds Appropriated for Afghanistan and Iraq
Processed Through the Foreign Military Sales Trust Fund
(Project No. D2007-D000FD-0198.001, Initiated October 10, 2008)
Based on observations during audit fieldwork under the originally announced
project (D2007-D000FD-0198.000), DoD OIG determined an additional project
was required to separately discuss relevant issues identified during fieldwork.
Accordingly, DoD OIG addressed the transfer of funds to the FMS Trust Fund
and the collection of administrative fees from these funds in Report No. D-2009-
063. Under the second announced project (D2007-D000FD-0198.001), DoD OIG is
determining whether the funds appropriated for the security, reconstruction, and
assistance of Afghanistan and Iraq and processed through the Foreign Military
Sales Trust Fund are being properly managed. However, DoD OIG has reduced
the sub-objectives to determining whether the appropriated funds transferred
into the Foreign Military Sales Trust Fund are properly accounted for, used for
the intended purpose, and properly reported in DoD financial reports.

Internal Controls over Army, General Fund, Cash and Other Monetary Assets
Held in Southwest Asia
(Project No. D2008-D000FP-0132.000, Initiated February 25, 2008)
DoD OIG is reviewing whether internal controls for Army, General Fund, Cash,
and Other Monetary Assets held in Southwest Asia are effectively designed and
are operating to adequately safeguard, account, document, and report cash and
other monetary assets.

Department of State Office of Inspector General –
Middle East Regional Office
Oversight Activities
Effectiveness of INL’s Air Wing Programs in Afghanistan and Pakistan
(Project No. 09-MERO-3010, Initiated June 2009)
Objectives: The objectives of this performance audit were to determine
(1) whether the department’s counter-narcotics Air Wing program achieved its
objectives and the impediments to achieving objectives; (2) whether the depart-
ment is monitoring contractor(s) to ensure performance measures have been
established and are being achieved; and (3) the effectiveness and efficiency of




         Report to the united states congress     I   janUARY 30, 2010      127
other agency oversight




counter-narcotics aviation services in Afghanistan and Pakistan and whether the
costs incurred and charged by the contractor(s) are proper.

Afghan National Police Training and Mentoring Program (Joint w/DoD OIG)
(Project No. 09-MERO-3009, Initiated June 2009)
Objective: To provide an overall review and summary of the requirements, provi-
sions, and costs of the ANP Training and Mentoring Program contract; objectives
of the contracts and task orders; what indicators have been established to mea-
sure performance; and how DoS administered the contract to oversee DynCorp’s
performance and costs of the contract. The work will also assess the status of
contract records, management controls, costs, and value of this contract to the
mission of DoS and DoD.

Government Accountability Office
Oversight Activities
Annual Mandated Review of Contracting in Afghanistan and Iraq
(Project No. 120874, Initiated November 12, 2009)
This review focuses on the number and value of contracts, numbers of contractors
performing in country, and numbers of contractor personnel killed or wounded.

Review of U.S. Civilian-Military Campaign Plans for Afghanistan
(Project No. 320723, Initiated October 20, 2009)
This review focuses on the various civilian, military, and joint campaign plans
for Afghanistan.

DoD’s Oversight of Operational Contract Support in Afghanistan
(Project No. 351399, Initiated September 17, 2009)
This review focuses on DoD’s ability to provide sufficient numbers of trained
oversight personnel, the challenges facing DoD in providing oversight, and the
department’s implementation of lessons learned from Iraq.

U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
(Project No. 320712, Initiated September 2, 2009)
This review focuses on what the U.S. goals for the ANA are; how much the
United States has obligated and expended, as well as estimated costs to complete
and sustain the ANA; what progress the United States has made in developing
ANA forces; and how other donors have assisted the ANA.




  128                Special inspector general       I   Afghanistan reconstruction
                       other agency oversight




Supply and Equipment Support for U.S. Military Operations in Afghanistan
(Project No. 351395, Initiated August 21, 2009)
This review focuses on identifying DoD organizations and processes for moving
supplies and equipment to, within, and from Afghanistan; challenges that may
have affected distribution; and lessons learned from OEF and other operations.

DoD Health Care Requirements for Contingency Operations
(Project No. 351393, Initiated August 21, 2009)
This review focuses on the extent to which DoD and the services identified war-
time health care personnel requirements for current operations; what challenges
they are encountering meeting those requirements; and to what extent they have
the tools needed to meet those requirements.

Combat Skills Training for Support Units
(Project No. 351385, Initiated August 11, 2009)
This review focuses on how the services determine appropriate training for support
forces, including the extent that this training is consistent with service and theater
training requirements and reflects lessons learned from ongoing operations.

Readiness of Air Force Combat and Expeditionary Combat Support Forces
(Project No. 351376, Initiated July 30, 2009)
This review focuses on the Air Force’s ability to provide combat and expe-
ditionary combat support forces to support ongoing operations, including in
Afghanistan, and its plans to address gaps, including adjustments to force struc-
ture and manning authorizations.

Army and Marine Corps Training Capacity
(Project No. 351387, Initiated July 30, 2009)
This review focuses on the extent to which DoD, the Army, and the Marine Corps
have identified differences in ground force training requirements for Iraq and
Afghanistan, and developed plans to adjust training capacities to meet require-
ments for changing force levels in Afghanistan in Iraq. 

Availability of Trained and Ready Forces to Support Military Operations
in Iraq and Afghanistan
(Project No. 351388, Initiated July 26, 2009)
This review focuses on the extent to which DoD has identified requirements for
supporting ongoing operations, developed an approach to manage deployment of
forces to meet requirements, and DoD’s ability to meet other commitments.




          Report to the united states congress    I   janUARY 30, 2010         129
other agency oversight




Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
(Project No. 320680, Initiated May 8, 2009)
This review focuses on U.S. efforts to assist with the development of the Afghan
water sector and achieve the Afghanistan National Development Strategy (ANDS)
goal of supplying clean water, sanitation, and irrigation services in Afghanistan.

Overseas Contingency Operations Funding and Cost Reporting
(Project No. 351345, Initiated April 24, 2009)
This review focuses on changes to OCO funding guidance and their impact on
DoD’s FY 2010 OCO budget, factors that could affect FY 2010 OCO estimates
for reducing troop levels in Iraq and increasing troop levels in Afghanistan, and
DoD’s process for creating its monthly report on the cost of OCO to determine
its reliability.

USAID’s Alternative Development and Agriculture Projects in Afghanistan
(Project No. 320662, Initiated March 16, 2009)
This review focuses on USAID agriculture programs’ funding, goals, results,
monitoring, and evaluation efforts.

Contractors Performing Contract Management or Administration for Other
Contracts or Grants in Iraq and Afghanistan
(Project No. 120812, Initiated February 19, 2009)
This review focuses on DoD, DoS, and USAID efforts to effectively oversee con-
tractors performing management or administration functions for other contracts
or grants with performance in Iraq and Afghanistan.

U.S. Counter-Narcotics Activities in Afghanistan
(Project No. 320657, Initiated January 29, 2009)
This review focuses on U.S. efforts to assist with interdiction, elimination, judi-
cial reform, public information, and demand reduction counter-narcotics efforts.


U.S. Army Audit Agency
Oversight Activities
Commander’s Emergency Response Program (CERP) - Afghanistan
(Project Code A-2009-ALL-0531.000, Initiated July 26, 2009)
This audit will determine if the CERP in Afghanistan had adequate internal
controls in place to ensure commanders and unit personnel implemented the
program properly.




  130                 Special inspector general     I   Afghanistan reconstruction
                      other agency oversight




Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Jalalabad (Afghanistan)
(Project Code A-2009-ALL-0106.000, Initiated February 2, 2009)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.

Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Kandahar and Salerno (Afghanistan)
(Project Code A-2008-ALL-0401.000, Initiated September 1, 2008)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.

Contracting Operations at the Joint Contracting Command—
Iraq/Afghanistan (Bagram)
(Project Code A-2008-ALL-0320.00, Initiated January 28, 2008)
This audit is being performed in Afghanistan. It will determine if goods and ser-
vices acquired under contract were properly justified, awarded, and administered.


U.S. Agency for International Development
Office of Inspector General
During this quarter, five financial audits were planned, in process, or in the draft
report phase in Afghanistan. These audits are being performed for USAID and
the USAID/OIG by DCAA and a public accounting firm.
   Also, this quarter, USAID/Afghanistan made a management decision sustaining
questioned costs of $95.8 million originally cited in an August 2009 DCAA finan-
cial audit report. The audit was of costs incurred and billed by BearingPoint, Inc.,
in support of the Economic Governance Reform in Afghanistan program, for the
period November 1, 2002, to December 15, 2005. DCAA disclaimed an opinion
in this audit because of continuous problems in obtaining required information
from the contractor, a computerized general ledger with numerous blank fields
and manual adjustments that could not be explained, general ledger accounts
which did not reconcile to USAID invoices, and direct labor hours which did not
reconcile to employee timesheets. However, in this quarter, the full $95.8 million
questioned by USAID OIG was sustained by the mission.




         Report to the united states congress     I   janUARY 30, 2010       131
other agency oversight




Oversight Activities
Audit of USAID/Afghanistan’s Oversight of Private Security Contractors
in Afghanistan
Objective: Determine how much money has been spent by USAID/Afghanistan’s
implementing partners for private security services and whether there has been
effective oversight of these security costs. Determine if USAID/Afghanistan’s
oversight of private security firms contracted by the mission’s implementing part-
ners ensured that those private security contractors employed only responsible,
armed personnel. Determine what types of serious security incidents have been
reported by private security firms contracted with USAID/Afghanistan’s imple-
menting partners, during the period from October 1, 2006, through June 30, 2009.

Audit of USAID/Afghanistan’s School and Health Clinic Buildings Completed
Under the Schools and Clinics Construction and Refurbishment Program
Objective: Determine whether the school and health clinic buildings completed
under the program are being used for their intended purposes, and measure the
impact of the program on the provision of educational and health services to the
people of Afghanistan.

Audit of USAID/Afghanistan’s Building Education Support Systems
for Teachers Project
Objective: Determine if USAID/Afghanistan’s Building Education Support
Systems for Teachers project is achieving its main goals of helping to improve
educational quality by training teachers and institutionalizing structures and
systems in the Ministry of Education.

Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
Objective: Determine if USAID/Afghanistan’s Human Resources and Logistical
Support program is achieving its main goals of enhancing capacity at selected
ministries, of identifying USAID-constructed buildings which do not meet seis-
mic standards, and of providing quality assurance and engineering oversight for
mission construction projects.

Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Production
in Agriculture Program
Objective: Determine if USAID/Afghanistan’s Afghanistan Vouchers for Increased
Production in Agriculture Program is achieving its main goals.




 132               Special inspector general   I   Afghanistan reconstruction
                                 other agency oversight




other agency investigations
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan to monitor the progress of those investigations.
As of December 30, 2009, five open cases were being investigated by DoS OIG
Investigations (DoS OIG-INV). Table 4.3 lists the number of open and closed
investigations as of December 30, 2009.
Table 4.3


investigative activities: other agencY investigations
Agency                                           Open Cases                  Closed Cases                   Total Cases
DoS OIG-INV                                                    5                          0                            5
Total                                                          5                          0                            5
Source: DoS-OIG-INV, response to SIGAR data call, 1/5/2010.




other agency inspections
COMPLETED INSPECTIONS
Table 4.4 lists inspections completed by other agencies as of December 30, 2009.
One inspection was completed by DoS OIG-ISP during the last quarter.

Table 4.4


COMPLETED INSPECTION activities: other agencY INSPECTIONS
                 Report           Date               Project
Agency           Number           Issued             Title                  Objective
DoS OIG-ISP      ISP-I-10-11      11/23/2009         Demining Programs      To evaluate the implementation and effective-
                                                     in Afghanistan         ness of demining programs in Afghanistan.

Source: DoS-OIG-ISP, response to SIGAR data call, 1/5/2010.




ONGOING INSPECTIONS
SIGAR also coordinates with other agencies that are conducting inspections in
Afghanistan. During the past quarter, DoS OIG-ISP initiated one new inspection,
listed in Table 4.5.

Table 4.5


ONGOING INSPECTION activities: other agencY INSPECTIONS
                 Project            Date                  Project
Agency           Number             Initiated             Title             Objective
DoS OIG-ISP      09-ISP-3051        September 2009        Kabul Embassy     To evaluate the Embassy’s implementation of
                                                          Inspection        policy, management of resources, adequacy
                                                                            of management controls, and measures to
                                                                            protect people, information, and facilities.
Source: DoS-OIG-ISP, response to SIGAR data call, 1/5/2010.




              Report to the united states congress                   I    janUARY 30, 2010                      133
      The Official Seal of the SIGAR
      The Official Seal of the SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and, translated into English, means
      “SIGAR.” The phrase along the bottom side of the seal’s center is in
      Pashtu and, when translated into English, has the same meaning.




134   Special inspector general      I   Afghanistan reconstruction
Appendices
and endnotes




      135
Appendices




appendix a
cross-reference of report to statutory
requirements
Table A.1 cross-references the pages of this report to the quarterly reporting and
related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229.


Table A.1


cross-reference to sigar quarterly reporting requirements
under p.l. no. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                             SIGAR Action          Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly         Report to the         All sections
                        to, and be under the general supervision of,        Secretary
                        the Secretary of State and the Secretary of         of State and the
                        Defense                                             Secretary
                                                                            of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                            Review                All sections
                        RECONSTRUCTION.—                                    appropriated/
                        It shall be the duty of the Inspector General       available funds
                        to conduct, supervise, and coordinate audits
                        and investigations of the treatment, handling,      Review programs,
                        and expenditure of amounts appropriated or          operations,
                        otherwise made available for the reconstruc-        contracts using
                        tion of Afghanistan, and of the programs,           appropriated/
                        operations, and contracts carried out utilizing     available funds
                        such funds, including—
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-         Review obligations    Section 2 –
                        tion and expenditure of such funds                  and expenditures      SIGAR Oversight
                                                                            of appropriated/
                                                                            available funds       Section 3 -
                                                                                                  Status of Funds
Section 1229(f)(1)(B) The monitoring and review of reconstruction           Review reconstruc-    Section 2 -
                      activities funded by such funds                       tion activities       SIGAR Oversight
                                                                            funded by appro-
                                                                            priations and
                                                                            donations
Section 1229(f)(1)(C)   The monitoring and review of contracts              Review contracts      Note 1
                        funded by such funds                                using appropri-
                                                                            ated and available
                                                                            funds
Section 1229(f)(1)(D) The monitoring and review of the transfer             Review internal and   Appendix B
                      of such funds and associated information              external transfers
                      between and among departments, agencies,              of appropriated/
                      and entities of the United States, and private        available funds
                      and nongovernmental entities




  136                      Special inspector general               I   Afghanistan reconstruction
                                                                                  Appendices




Table A.1 (continued)


cross-reference to sigar quarterly reporting requirements
under p.l. no. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                  SIGAR Action           Section
Section 1229(f)(1)(E)   The maintenance of records on the use of                 Maintain audit         Section 2 -
                        such funds to facilitate future audits and               records                SIGAR Oversight
                        investigations of the use of such fund[s]                                       Appendix C
                                                                                                        Appendix D
Section 1229(f)(1)(F)   The monitoring and review of the effective-              Monitoring             Section 2-
                        ness of United States coordination with                  and review as          Audits
                        the Governments of Afghanistan and other                 described
                        donor countries in the implementation of the
                        Afghanistan Compact and the Afghanistan
                        National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments. . .and                  Conduct and            Section 2 -
                      any potential unethical or illegal actions of              reporting of           SIGAR Oversight
                      Federal employees, contractors, or affiliated              investigations as
                      entities, and the referral of such reports, as             described
                      necessary, to the Department of Justice. . .
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—                      Establish, maintain,   All sections
                        The Inspector General shall establish, main-             and oversee sys-
                        tain, and oversee such systems, procedures,              tems, procedures,
                        and controls as the Inspector General                    and controls
                        considers appropriate to discharge the duties
                        under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                        Duties as speci-       All sections
                        INSPECTOR GENERAL ACT OF 1978.—                          fied in Inspector
                        In addition,. . .the Inspector General shall             General Act
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                                Coordination with      Section 4 –
                        The Inspector General shall coordinate with,             the inspectors         Other Agency
                        and receive the cooperation of, each of the              general of DoD,        Oversight
                        following: (A) the Inspector General of the              DoS, and USAID
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—                         Expect support as      All sections
                      Upon request of the Inspector General for                  requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




             Report to the united states congress                      I   January 30, 2010                    137
Appendices




Table A.1 (continued)


cross-reference to sigar quarterly reporting requirements
under p.l. no. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                               SIGAR Action              Section
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                                   Report – 30 days          All sections
                        Not later than 30 days after the end of each          after the end of each     Appendix B
                        fiscal-year quarter, the Inspector General            calendar quarter
                        shall submit to the appropriate committees of
                        Congress a report summarizing, for the period         Summarize activities of
                        of that quarter and, to the extent possible,          the inspector general
                        the period from the end of such quarter to
                        the time of the submission of the report, the         Detailed statement of
                        activities during such period of the Inspector        all obligations, expen-
                        General and the activities under programs and         ditures, and revenues
                        operations funded with amounts appropriated
                        or otherwise made available for the reconstruc-
                        tion of Afghanistan. Each report shall include,
                        for the period covered by such report, a detailed
                        statement of all obligations, expenditures, and
                        revenues associated with reconstruction and
                        rehabilitation activities in Afghanistan, including
                        the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/         Obligations and expen- Appendix B
                        donated funds                                         ditures of appropri-
                                                                              ated/donated funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program           Project-by-project and Section 3 –
                        accounting of the costs incurred to date for the      program-by-program     Status of Funds
                        reconstruction of Afghanistan, together with the      accounting of costs.
                        estimate of the Department of Defense, the            List unexpended funds Note 1
                        Department of State, and the United States            for each project or
                        Agency for International Development, as appli-       program
                        cable, of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds       Revenues, obligations, Section 3 –
                        provided by foreign nations or international orga-    and expenditures of    Status of Funds
                        nizations to programs and projects funded by          donor funds
                        any department or agency of the United States
                        Government, and any obligations or expenditures
                        of such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign     Revenues, obligations, Section 3 –
                        assets seized or frozen that contribute to pro-       and expenditures of    Status of Funds
                        grams and projects funded by any U.S. govern-         funds from seized or
                        ment department or agency, and any obligations        frozen assets
                        or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities            Operating expenses        Section 3 –
                        receiving amounts appropriated or otherwise           of agencies or any        Status of Funds
                        made available for the reconstruction of              organization receiving
                        Afghanistan                                           appropriated funds        Appendix B




  138                      Special inspector general                I   Afghanistan reconstruction
                                                                                           Appendices




Table A.1 (continued)


cross-reference to sigar quarterly reporting requirements
under p.l. no. 110-181, § 1229
Public Law Section          SIGAR Enabling Language                                       SIGAR Action                 Section
Section 1229(i)(1)(F)       In the case of any contract, grant, agreement,                Describe contract            Note 1
                            or other funding mechanism described in                       details
                            paragraph (2)* —
                            (i) The amount of the contract or other funding
                            mechanism;
                            (ii) A brief discussion of the scope of the con-
                            tract or other funding mechanism;
                            (iii) A discussion of how the department or
                            agency of the United States Government involved
                            in the contract, grant, agreement, or other
                            funding mechanism identified and solicited
                            offers from potential contractors to perform the
                            contract, grant, agreement, or other funding
                            mechanism, together with a list of the potential
                            individuals or entities that were issued solicita-
                            tions for the offers; and
                            (iv) The justification and approval documents
                            on which was based the determination to use
                            procedures other than procedures that provide
                            for full and open competition
Section 1229(i)(3)          PUBLIC AVAILABILITY.—                                         Publish report as            www.sigar.mil
                            The Inspector General shall publish on a                      directed
                            publically-available Internet website each report                                          Dari and Pashtu
                            under paragraph (1) of this subsection in English                                          in process
                            and other languages that the Inspector General
                            determines are widely used and understood in
                            Afghanistan
Section 1229(i)(4)          FORM.—                                                        Publish report as            All sections
                            Each report required under this subsection                    directed
                            shall be submitted in unclassified form, but
                            may include a classified annex if the Inspector
                            General considers it necessary

Note 1: Although this data is normally made available on SIGAR’s website, (www.sigar.mil), the data SIGAR has received is in relatively
raw form and is currently being reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181
as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United
States Government that involves the use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with
any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




               Report to the united states congress                          I   January 30, 2010                               139
                                                                 Appendices



                                                                 appendix B
                                                                 U.S. GOVERNMENT APPROPRIATED FUNDS                           ($ MILLIONS)
                                                                 Table B.1 lists appropriated funds by program, per year, for Afghanistan
                                                                 reconstruction efforts.
                                                                 Table B.1


                                                                  U.S. Funding Sources                                                  Agency               Total
                                                                  SECURITY
                                                                  Afghanistan Security Forces Fund (ASFF)                               DoD                 25,229.27
                                                                  Train & Equip (DoD)                                                   DoD                    440.00
                                                                  Foreign Military Financing (FMF)                                      DoS                  1,058.50
                                                                  International Military Education and Training (IMET)                  DoS                      8.30
                                                                  NDAA Section 1207 Transfer                                            Other                    9.90
                                                                  Total: Security                                                                         26,745.97
                                                                  GOVERNANCE & DEVELOPMENT
                                                                  Commander's Emergency Response Program (CERP)                         DoD                  2,639.00
                                                                  Economic Support Fund (ESF)                                           USAID                9,738.58
                                                                  Development Assistance (DA)                                           USAID                  887.22
                                                                  Afghanistan Freedom Support Act (AFSA)                                DoD                    550.00
                                                                  Child Survival & Health (CSH + GHAI)                                  USAID                  484.42
                                                                  Commodity Credit Corp (CCC)                                           USAID                   25.87
                                                                  Freedom Support Act (FSA)                                             USAID                    5.00
                                                                  USAID (other)                                                         USAID                   30.64
                                                                  Non-Proliferation, Antiterrorism, Demining, & Related (NADR)          DoS                    371.60
                                                                  Provincial Reconstruction Team Advisors                               USDA                     5.70
                                                                  Treasury Technical Assistance                                         DoT                      4.40
                                                                  Treasury (Other)                                                      DoT                      4.91
                                                                  Total: Governance & Development                                                         14,747.34
                                                                  COUNTER-NARCOTICS
                                                                  International Narcotics Control & Law Enforcement (INCLE)             DoS                  2,503.74
                                                                  Drug Interdiction & Counter-Drug Activities (DoD CN)                  DoD                  1,115.04
                                                                  Drug Enforcement Administration (DEA)                                 DoJ                    127.37
                                                                  Total: Counternarcotics                                                                  3,746.16
                                                                  HUMANITARIAN
                                                                  P.L. 480 Title II                                                     USAID                 701.21
                                                                  Disaster Assistance (IDA)                                             USAID                 343.55
                                                                  Transition Initiatives (TI)                                           USAID                  33.59
                                                                  Migration and Refugee Assistance (MRA)                                DoS                   604.81
                                                                  Voluntary Peacekeeping (PKO)                                          DoS                    69.30
Notes: Numbers affected by rounding. Data may include inter-
                                                                  Emergency Refugee & Migration Assistance (ERMA)                       DoS                    25.20
agency transfers. Funding is based on agency-reported data        Food for Progress                                                     USDA                  109.49
for monies made available for Afghanistan reconstruction. If
an agency did not report monies made available, funding is        416(b) Food Aid                                                       USDA                   95.18
based on agency-reported obligation or expenditure data. If an
agency did not report obligation or expenditure data, funding     Food for Education                                                    USDA                   50.49
is based on OMB allocations.                                      Emerson Trust                                                         USDA                   21.60
Sources: OMB, response to SIGAR vetting, 1/21/2010; OMB,          Total: Humanitarian                                                                      2,054.42
response to SIGAR data call, 1/8/2010; DoD, responses
to SIGAR data call, 1/13/2010, 1/12/2010, 1/6/2010,               OVERSIGHT AND OPERATIONS
10/14/2009 (preliminary numbers), and 10/1/2009; FY
2010 DoD Appropriations Act Explanatory Statement; USAID,
                                                                  Oversight                                                                                     76.20
responses to SIGAR data call, 1/15/2010, 1/8/2010, and            Other                                                                                      3,644.70
10/9/2009; DoS, responses to SIGAR data call, 1/8/2010
and 10/16/2009; DoT, response to SIGAR data call,                 Total: Oversight and Operations                                                          3,720.90
1/6/2010; DoJ, response to SIGAR data call, 7/7/2009;
USDA, response to SIGAR data call, 4/2009.                        TOTAL FUNDING                                                                           51,014.79




                                                                   140                       Special inspector general           I   Afghanistan reconstruction
                                                      Appendices




FY 2002      FY 2003       FY 2004            FY 2005       FY 2006       FY 2007      FY 2008     FY 2009      FY 2010

    0.00          0.00          0.00            995.00       1,908.13       7,406.40    2,750.00     5,606.94     6,562.80
    0.00          0.00        150.00            290.00           0.00           0.00        0.00         0.00         0.00
   57.00        191.00        413.70            396.80           0.00           0.00        0.00         0.00         0.00
    0.20          0.30          0.60              0.80           0.80           1.10        1.60         1.40         1.50
    0.00          0.00          0.00              0.00           0.00           0.00        9.90         0.00         0.00
  57.20        191.30        564.30           1,682.60      1,908.93       7,407.50    2,761.50     5,608.34     6,564.30

    0.00          0.00         40.00             136.00          215.00       209.00      488.33       550.67     1,000.00
  117.51        239.29        893.89           1,278.97          473.39     1,210.71    1,399.51     2,088.32     2,037.00
   18.30         42.54        153.14             169.58          187.02       166.81      149.43         0.40         0.00
    0.00        165.00        135.00             250.00            0.00         0.00        0.00         0.00         0.00
    7.52         49.68         33.40              38.00           41.45       100.77       63.07        58.23         92.3
    7.30          1.33          0.00               0.00            0.00         0.00       13.02         4.22         0.00
    0.00          0.00          5.00               0.00            0.00         0.00        0.00         0.00         0.00
    0.00          0.50          5.00               0.00            0.00         0.00       22.32         2.81         0.00
   44.00         34.70         66.90              38.20           18.20        36.60       26.60        48.60        57.80
    0.00          0.00          0.00               0.00            0.00         0.00        0.00         5.70         0.00
    0.00          0.80          0.76               0.66            0.58         0.37        0.13         0.74         0.35
    0.49          0.56          0.04               0.03            0.00         0.89        0.64         1.21         1.06
 195.12        534.40      1,333.12           1,911.44           935.64    1,725.14    2,163.05     2,760.91     3,188.51

   60.00          0.00        220.00            709.28           232.65      251.74      307.57       302.50       420.00
    0.00          0.00         71.80            224.54           108.05      290.97      189.62       230.06         0.00
    0.58          2.87          3.72             16.77            23.66       20.38       40.59        18.80         0.00
  60.58          2.87        295.52            950.59            364.36     563.09      537.78       551.36       420.00

  159.50         46.10         49.20             56.60            60.00       60.00      177.00        65.41        27.40
  197.09         86.67         11.16              4.24             0.04        0.03       17.02        27.29         0.01
    8.07         11.69         11.22              1.60             0.00        0.00        0.00         0.87         0.15
  135.47         61.50         63.30             47.10            36.00       53.80       44.25        86.79         76.6
   23.90          9.90         20.00             15.50             0.00        0.00        0.00         0.00         0.00
   25.00          0.00          0.00              0.00             0.00        0.00        0.00         0.20         0.00
    0.00          4.96          9.08             30.10            23.24        9.47       20.55        12.09         0.00
   46.46         14.14         34.58              0.00             0.00        0.00        0.00         0.00         0.00
    0.00          9.27          6.12             10.02            25.08        0.00        0.00         0.00         0.00
    0.00          0.00          0.00              0.00             0.00        0.00       21.60         0.00         0.00
 595.49        244.22        204.66            165.16            144.36     123.30      280.42       192.65       104.16

    0.00          0.00          0.00              0.00             0.00        2.50       14.30         25.90        33.50
  155.60         35.30        207.60            136.10           131.90      207.80      434.40      1,047.60     1,288.40
 155.60         35.30        207.60            136.10            131.90     210.30      448.70      1,073.50     1,321.90
1,063.99     1,008.09      2,605.20           4,845.89      3,485.20      10,029.34    6,191.45    10,186.76    11,598.87




   Report to the united states congress   I   January 30, 2010             141
Appendices




appendix C
sigar audits
Completed Audits
SIGAR completed four audits as of January 30, 2010, as listed in Table C.1.

Table C.1


sigar completed audits, as of January 30, 2010
Agency      Report Identifier     Date Issued         Report Title
SIGAR       SIGAR-Audit-10-6      1/20/2010           Contract Delays Led to Cost Overruns for the Kabul Power Plant,
                                                      and Sustainability Remains a Key Challenge
SIGAR       SIGAR-Audit-10-4      1/15/2010           Afghanistan’s Energy Supply Has Increased, But an Updated
                                                      Master Plan is Needed, and Delays and Sustainability Concerns
                                                      Remain
SIGAR       SIGAR-Audit-10-3      12/18/2009          Actions Needed To Protect Afghanistan’s Judicial Officials
SIGAR       SIGAR-Audit-10-2      12/16/2009          Afghanistan’s High Office of Oversight Needs Significantly
                                                      Strengthened Authority, Independence, and Donor Support To
                                                      Become an Effective Anti-Corruption Institution



New Audits
SIGAR initiated seven new audits, as listed in Table C.2.

Table C.2


sigar new audits, as of january 30, 2010
Agency         Audit Identifier      Date Initiated          Project Title
SIGAR          SIGAR-020A            1/2010                  Review of USAID-Funded Salaries Paid to Afghan
                                                             Government Officials and Advisors
SIGAR          SIGAR-018A            12/2009                 Identification of Major Venders for Reconstruction
                                                             Contracts in Afghanistan
SIGAR          SIGAR-019A            11/2009                 Review of U.S. and Other Donor Efforts To Strengthen the
                                                             Capabilities of Afghanistan’s Control and Audit Office
SIGAR          SIGAR-017A            11/2009                 Focused Contract Audit: Reconstruction Security Support
                                                             Services from Global Strategies Group Inc.
SIGAR          SIGAR-016A            11/2009                 Focused Contract Audit: Construction of ANA Brigade
                                                             Garrison at Gamberi in Nangarhar Province
SIGAR          SIGAR-015A            11/2009                 Focused Contract Audit: Construction of ANA 2/209th
                                                             Headquarters Facilities in Kunduz Province
SIGAR          SIGAR-014A            11/2009                 Focused Contract Audit: Construction of ANA Brigade
                                                             Garrison in Farah Province




  142                       Special inspector general            I   Afghanistan reconstruction
                                                                            Appendices




Ongoing Audits
SIGAR has nine other audits in progress, as listed in Table C.3.

Table C.3


sigar ongoing audits, as of january 30, 2010
Agency      Audit Identifier   Date Initiated   Project Title
SIGAR       SIGAR-008-I        9/2009           Review of the Construction Contract of the Joint Regional Afghan
                                                National Security Forces Complex Outside Kandahar Airfield in
                                                Kandahar Province
SIGAR       SIGAR-013A         9/2009           Review of Afghan National Security Forces Personnel Management
SIGAR       SIGAR-012A         9/2009           Assessment of the Capabilities of the Afghan National
                                                Security Forces
SIGAR       SIGAR-010A         8/2009           Review of the Use of Funds Earmarked for Afghan Women and Girls
SIGAR       SIGAR-009A         7/2009           Review of U.S. Agencies’ Use of Contractors To Provide Security for
                                                Reconstruction Programs in Afghanistan
SIGAR       SIGAR-003b-I       6/2009           Review of the Construction Contract for the Togj Bridge, Farah
                                                Province
SIGAR       SIGAR-006A         3/2009           Review of U.S. Assistance for the Preparation and Conduct of
                                                Presidential and Provincial Council Elections in Afghanistan
SIGAR       SIGAR-003A         3/2009           Review of Contractor Performance and Agency Oversight of USAID
                                                Contracts in Afghanistan with Louis Berger Group
SIGAR       SIGAR-002A         3/2009           Review of Agencies’ Management Oversight, Procedures, and
                                                Practices for Reconstruction Funds and Projects




            Report to the united states congress                I   January 30, 2010                        143
                                                        Appendices




                                                        appendix D
figure D.1
                                                        sigar hotline and investigations
SOURCE OF SIGAR HOTLINE COMPLAINTS,                     SIGAR Hotline
MAY 1–DECEMBER 9, 2009                                  Of the 86 Hotline complaints received last year, most were received by telephone
                                                        or e-mail, as listed in Figure D.1. Of these complaints, many have been assigned,
                  Total Complaints: 86                  referred to other agencies, closed, or under coordination, as listed in Figure D.2.

                                                        SIGAR Investigations
                                                        Last quarter, SIGAR opened 17 new investigations and closed 5. Of the 17 new
                      Phone
                      58                                cases, most involved bribery and theft, as shown in Figure D.3.

                                     E-mail
                                     18                 figure D.2

                                                        SIGAR HOTLINE COMPLAINTS RECEIVED, MAY 1–DECEMBER 9, 2009

                Walk-in          Written (not e-mail)
                    3            7                                                                   Total: 86

Source: SIGAR Criminal Investigations Directorate,
12/9/2009.                                                Assigned/Open                                                                                        28

                                                             Referred Out                                                                                                32

                                                                   Closed                                                                                 25

                                                            Coordination     a    1

                                                                                                         10                              20                         30

                                                        a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                        Source: SIGAR Criminal Investigations Directorate, 12/9/2009.




                                                        figure D.3


                                                        SIGAR INVESTIGATIONS: OPEN CASES, OCTOBER 1–DECEMBER 30, 2009

                                                                                                     Total: 17


                                                                  Bribery                                                                                                     8

                                                                    Theft                                                                         5

                                                            Procurement                                 2

                                                                   Fraud                    1

                                                                     Civil                  1

                                                                                        1           2            3           4                5       6             7     8

                                                        Source: SIGAR Criminal Investigations Directorate, 1/5/2010.




                                                           144                         Special inspector general                    I   Afghanistan reconstruction
                                                                       Appendices




appendix E
ACRONYMS AND ABBREVIATIONS

Acronym            Definition
ACAP              Afghan Civilian Assistance Program
ACT               Accountability and Transparency Project
ACU               Anti-Corruption Unit
AIHRC             Afghan Independent Human Rights Commission
AIRP              Afghanistan Infrastructure and Rehabilitation Program
ANA               Afghan National Army
ANAAC             Afghan National Army Air Corps
ANBP              Afghanistan New Beginnings Program
ANDS              Afghanistan National Development Strategy
ANP               Afghan National Police
ANSF              Afghan National Security Forces
ARTF              Afghanistan Reconstruction Trust Fund
ASFF              Afghanistan Security Forces Fund
CAO               Control and Audit Office (Afghanistan)
CERP              Commander’s Emergency Response Program
CIA               Central Intelligence Agency
CID               Criminal Investigative Command (formerly Division) (U.S. Army)
CIDA              Canadian International Development Agency
CM                Capability Milestone
CNAT              Counter-Narcotics Advisory Team
CNTF              Counter-Narcotics Trust Fund
CNPA              Counter-Narcotics Police - Afghanistan
CPC               Criminal Procedure Code
CPD               Central Prison Directorate (Afghan)
CPEC              Central Eradication Planning Cell
CRS               Congressional Research Service
CSIS              Center for Strategic and International Studies
CSO               Central Statistics Office (Afghan)
CSSP              Correctional System Support Program
CSTC-A            Combined Security Transition Command - Afghanistan
CTAP              Civilian Technical Assistance Plan
DA                Development Assistance
DEA               Drug Enforcement Administration (U.S.)
DFR               Donor Financial Review
DIAG              Disbandment of Illegal Armed Groups
DoD               Department of Defense (U.S.)
DoD OIG           Department of Defense Office of Inspector General
DoJ               Department of Justice (U.S.)




          Report to the united states congress              I   January 30, 2010   145
Appendices




Acronym    Definition
ACAP       Afghan Civilian Assistance Program
DoS        Department of State (U.S.)
DoS OIG    DoS Office of Inspector General
EC/EU      European Commission/European Union
EOD        explosive ordnance disposal
ERW        explosive remnants of war
ESF        Economic Support Fund
EUPOL      European Union Police Mission FBI
FY         fiscal year
GAO        Government Accountability Office (U.S.)
GDP        gross domestic product
GIRoA      Government of the Islamic Republic of Afghanistan
GLE        Governor-Led Eradication
GPI        Good Performer’s Initiative
ha         hectares
HOO        High Office of Oversight (Afghan)
ICCTF      International Contract Corruption Task Force
ICE        Inter-Ministerial Commission for Energy (Afghan)
IDEA-NEW   Incentives Driving Economic Activity Program - North, East, West
IDLG       Independent Directorate of Local Governance (Afghan)
IDP        internally displaced person
IEC        Independent Election Commission (Afghan)
IED        improvised explosive device
IJC        International Security Assistance Force Joint Command
IMF        International Monetary Fund
INL        Bureau of International Narcotics and Law Enforcement Affairs
INCLE      International Narcotics Control and Law Enforcement
ISAF       International Security Assistance Force
IT         information technology
JIEDDO     Joint IED Defeat Organization
JOC        Joint Operations Center
JSSP       Justice Sector Support Program
JSU        Judicial Security Unit
LGCD       Local Governance and Community Development
LLM        Master of Laws
LOTFA      Law and Order Trust Fund for Afghanistan
MACCA      Mine Action Coordination Center of Afghanistan
MAIL       Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MAPA       Mine Action Program of Afghanistan
M-ATV      mine-resistant all-terrain vehicle
MCN        Ministry of Counter-Narcotics (Afghan)
MFI        micro finance institutions




     146      Special inspector general               I   Afghanistan reconstruction
                                                                           Appendices




Acronym              Definition
ACAP                Afghan Civilian Assistance Program
MISFA               Microfinance Investment Facility for Afghanistan
MoD                 Ministry of Defense (Afghan)
MoF                 Ministry of Finance (Afghan)
MoI                 Ministry of Interior (Afghan)
MoLSAMD             Ministry of Labour, Social Affairs, Martyrs and Disabled (Afghan)
MoPH                Ministry of Public Health (Afghan)
MRAP                mine-resistant, ambush-protected vehicle
MRRD                Ministry of Rural Rehabilitation and Development (Afghan)
MT                  metric ton
MW                  megawatt
NAPWA               National Action Plan for the Women of Afghanistan
NATO                North Atlantic Treaty Organization
NDN                 Northern Distribution Network
NEPS                North East Power System
NGO                 non-governmental organization
NRVA                National Risk and Vulnerability Assessment
NTM-A               NATO Training Mission - Afghanistan
O&M                 operations and maintenance
OMB                 Office of Management and Budget (U.S.)
OMLT                Operational Mentor and Liaison Team
OPIC                Overseas Private Investment Corporation
OSD                 Office of the Secretary of Defense (U.S.)
PEF                 Poppy Eradication Force
PM/WRA              Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (Afghan)
PRT                 Provincial Reconstruction Team
SIGAR               Special Inspector General for Afghanistan Reconstruction
SIGIR               Special Inspector General for Iraq Reconstruction
Treasury            Department of the Treasury (U.S.)
U.K.                United Kingdom
UN                  United Nations
UNAMA               UN Assistance Mission in Afghanistan
UNCAC               UN Convention against Corruption
UNDP                UN Development Programme
UNHCR               UN High Commissioner for Refugees
UNIFEM              UN Development Fund for Women
UNODC               UN Office on Drugs and Crime
USACE               U.S. Army Corps of Engineers
USAID               U.S. Agency for International Development
USAID OIG           USAID Office of Inspector General
USDA                U.S. Department of Agriculture
USFOR-A             U.S. Forces - Afghanistan




            Report to the united states congress                I   January 30, 2010                   147
                                                                  Endnotes




1.   	       White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
2.   	       UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009.
3.   	       Secretary of State Hillary Clinton, “Development in the 21st Century,” speech to the Center for Global Development, 1/8/2010.
4.   	       UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009.
5.   	       DoS, Office of the Spokesman, Transcript of remarks by Secretary Clinton, German Foreign Minister Westerwelle, 11/9/2009.
6.   	       Jacob J. Lew, Deputy Secretary for Management and Resources, Testimony before the Senate Foreign Relations Committee, 12/9/2009.
7.   	       Jacob J. Lew, Deputy Secretary for Management and Resources, Testimony before the Senate Foreign Relations Committee, 12/9/2009.
8.   	       Application of accounting methods to the tracking and collection of forensic evidence, usually for investigation and prosecution of criminal
             acts such as embezzlement or fraud. Also called forensic accounting.
9. 	         The Federal Bureau of Investigations (FBI), the Defense Criminal Investigative Service (DCIS), the U.S. Army Criminal Investigation
             Command’s (CID’s) Major Procurement Fraud Unit, the Naval Criminal Investigative Service (NCIS), the Air Force Office of Special
             Investigations (AFOSI), the Department of State’s Office of the Inspector General (DoS OIG), the USAID Office of the Inspector General
             (USAID OIG), and the Special Inspector General for Iraq Reconstruction (SIGIR).
10.      	   DoD, “U.S. Plan for Sustaining the ANSF,” p. 6.
11.      	   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
12.      	   H.R. 3326, “Department of Defense Appropriations Act, 2010,” p. 53.
13.      	   DoD, response to SIGAR data call, 1/12/2010.
14.      	   DoD, response to SIGAR data call, 1/12/2010.
15.      	   DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund – Phase I,”
             accessed online, 1/12/2010, p. 2.
16.      	   DoD, response to SIGAR data call, 1/12/2010.
17.      	   DoD, response to SIGAR data call, 1/12/2010.
18.      	   DoD, Financial Management Regulation, “Commander’s Emergency Response Fund: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
19.      	   H.R. 3326, “Department of Defense Appropriations Act, 2010,” p. 57.
20.      	   DoD, response to SIGAR data call, 1/13/2010.
21.      	   DoD, response to SIGAR data call, 1/13/2010.
22.      	   House of Representatives, Committee on Appropriations, “Division A, Department of Defense Appropriations Act, Fiscal Year 2010,” p. 405.
23.      	   H.R. 3326, “Department of Defense Appropriations Act, 2010,” 12/19/2009, p. 57.
24.      	   H.R. 2647 §1222, “National Defense Authorization Act for FY 2010.”
25.      	   H.R. 2647 §1222 “National Defense Authorization Act for FY 2010.”
26.      	   DoD, response to SIGAR vetting, 7/16/2009.
27.      	   H.R. 111-366, “Departments of Transportation and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,” p. 3.
28.      	   USAID, response to SIGAR data call, 1/15/2010.
29.      	   USAID, response to SIGAR data call, 1/15/2010.
30.      	   DoS, response to SIGAR data call, 10/13/2009.
31.      	   H.R. 111-366, “Departments of Transportation and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,” p. 3.
32.      	   DoS, response to SIGAR data call, 1/8/2010.
33.      	   DoS, response to SIGAR data call, 1/8/2010.
34.      	   MoF, Web site, accessed 9/10/2009.
35.      	   Treasury, response to SIGAR data call, 1/5/2010.
36.      	   Treasury, response to SIGAR data call, 1/5/2010.
37.      	   Treasury, response to SIGAR data call, 1/5/2010.
38.      	   Treasury, response to SIGAR data call, 1/5/2010.
39.      	   Treasury, response to SIGAR data call, 9/24/2009.
40.      	   MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 11.
41.      	   MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 1.
42.      	   MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 23.
43.      	   MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 18.
44.      	   USAID, response to SIGAR vetting, 1/15/2010.
45.      	   World Bank, “Afghanistan Reconstruction Trust Fund Newsletter,” 9/2009, p. 3.
46.      	   World Bank, “Quarterly Country Update: January 2010,” pp. 14–15.
47.      	   USAID, response to SIGAR vetting, 1/15/2010.
48.      	   USAID, response to SIGAR vetting, 1/15/2010.
49.      	   MoF, “Donor Financial Review: Report 1388,” p. 19.
50.      	   UNDP, “Counter Narcotics Trust Fund (CNTF): 2nd Quarter Project Progress Report–2009,” p. 1.
51.      	   UNDP, “Counter Narcotics Trust Fund,” accessed online, 1/17/2010; UNDP, “Counter Narcotics Trust Fund (CNTF): 2nd Quarter Project
             Progress Report–2009,” p. 14.
52. 	        Treasury, response to SIGAR data call, 1/5/2010.




                                                           148                   Special inspector general       I   Afghanistan reconstruction
                                                              Endnotes




53.   	
      Treasury, response to SIGAR data call, 1/5/2010.
54.   	
      IMF, “Afghanistan National Development Strategy: First Annual Report 1387 (2008/09),” 11/2009, p. 21.
55.   	
      IMF, “Afghanistan National Development Strategy: First Annual Report 1387 (2008/09),” 11/2009, p. 15.
56.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” pp. 27, 31, 33.
57.   	
      IMF, “Afghanistan National Development Strategy: First Annual Report 1387 (2008/09),” 11/2009, p. 12.
58.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 3.
59.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” pp. 27, 31, 33.
60.   	
      IMF, “Afghanistan National Development Strategy: First Annual Report 1387 (2008/09),” 11/2009, p. 12.
61.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” p. 32.
62.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 20.
63.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 21.
64.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 17.
65.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 20.
66.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 20.
67.   	
      MoF, “Donor Financial Review: Report 1388,” 11/2009, p. 23.
68.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” p. 34.
69.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” p. 35.
70.   	
      MoF, “Islamic Republic of Afghanistan: 1388 National Budget,” p. 34.
71.   	
      White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
72.   	
      DoD, “Statement on Afghanistan to the Senate Armed Services Committee,” 12/2/2009.
73.   	
      DoD, “Statement on Afghanistan to the Senate Armed Services Committee,” 12/2/2009.
74.   	
      Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 7.
75.   	
      CSTC-A, response to SIGAR data call, 1/4/2010; DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 28.
76.   	
      Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 1.
77.   	
      Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, pp. 8, 11.
78.   	
      Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 5.
79.   	
      IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
80.   	
      U.S. Embassy Kabul, “U.S. Ambassador Karl W. Eikenberry on the October 28 Attacks in Kabul,” 10/28/2009; CIA, “Statement on CIA Casualties
      in Afghanistan,” 12/31/2009.
81. 	 DoD, “McChrystal Commends Afghan Forces in Stabilizing Kabul,” 1/18/2009.
82. 	 White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
83. 	 CIA, “World Factbook,” accessed online 12/29/2009.
84. 	 CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 34.
85. 	 IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
86. 	 IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010; CSTC-A, response to SIGAR data call, 10/2/2009.
87. 	 IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
88. 	 UNAMA, “Annual Report on Protection of Civilians in Armed Conflict, 2009,” 1/2010, Executive Summary.
89. 	 CSTC-A, response to SIGAR data call, 1/4/2010; NATO, “International Security Assistance Force and Afghan National Army Strength &
      Laydown,” accessed online 9/30/2009.
90. 	 CSTC-A, response to SIGAR data call, 10/2/2009.
91. 	 CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 36.
92. 	 DoD OSD, response to SIGAR data call, 1/11/2010; DoD, “Incentives Show Promise for Afghan Forces,” 12/9/2009.
93. 	 DoD, “Incentives Show Promise for Afghan Forces,” 12/9/2009.
94. 	 DoD, “Incentives Show Promise for Afghan Forces,” 12/9/2009.
95. 	 CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 40; NATO, NTM-A Fact Sheet, accessed online
      1/18/2009.
96. 	 CSTC-A, responses to SIGAR data call, 10/2/2009 and 1/4/2010.
97. 	 CSTC-A, response to SIGAR data call, 1/4/2010.
98. 	 CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 21.
99. 	 DoD OSD, response to SIGAR data call, 1/11/2010.
100. 	CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 40.
101. 	DoD OSD, response to SIGAR data call, 1/11/2010.
102. 	CSTC-A, “The Enduring Ledger,” 4/2009, p. 18.
103. 	CSTC-A, responses to SIGAR data call, 10/2/2009 and 1/4/2010.
104. 	NATO, “Facts and Figures: Afghan National Army,” 10/2009.
105. 	CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, pp. 40, 41.
106. 	NATO, “Facts and Figures: Afghan National Army,” 10/2009.
107. 	CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, pp. 40, 41.




          Report to the united states congress          I   January 30, 2010                  149
                                                             Endnotes




108.   	NATO, “Facts and Figures: Afghan National Army,” 10/2009.
109.   	CRS, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, pp. 40, 41.
110.   	DoD OSD, response to SIGAR data call, 1/11/2010.
111.   	NATO, “Facts and Figures: Afghan National Army,” 10/2009.
112.   	CSTC-A, responses to SIGAR data call, 10/2/2009 and 1/4/2010.
113.   	IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010; CSTC-A, response to SIGAR data call, 10/2/2009.
114.   	CSTC-A, response to SIGAR data call, 1/4/2010.
115.   	CSTC-A, response to SIGAR data call, 10/2/2009.
116.   	CSTC-A, response to SIGAR data call, 1/4/2010; DoD, “Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 28.
117.   	CSTC-A, response to SIGAR data call, 10/2/2009.
118.   	DoD OSD, response to SIGAR data call, 1/11/2010.
119.   	INL, response to SIGAR data call, 1/11/2010.
120.   	UNDP, “Police Perception Survey 2009: The Afghan Perspective,” 10/2009, p. 33.
121.   	UNDP, “Police Perception Survey 2009: The Afghan Perspective,” 10/2009, p. 5.
122.   	UNDP, “Police Perception Survey 2009: The Afghan Perspective,” 10/2009, p. 20.
123.   	DoD OSD, response to SIGAR data call, 1/11/2010.
124.   	CSTC-A, responses to SIGAR data call, 10/2/2009 and 1/4/2010.
125.   	CSTC-A, response to SIGAR data call, 1/4/2010.
126.   	INL, response to SIGAR data call, 1/11/2010.
127.   	INL, response to SIGAR data call, 1/11/2010.
128.   	INL, response to SIGAR data call, 1/11/2010.
129.   	NATO, “NTM-A Backgrounder,” accessed online 1/18/2010.
130.   	NATO, “NTM-A Backgrounder,” accessed online 1/18/2010.
131.   	INL, response to SIGAR data call, 1/11/2010.
132.   	DoD OSD, response to SIGAR data call, 1/11/2010.
133.   	DoD OSD, response to SIGAR data call, 1/11/2010.
134.   	DoD OSD, response to SIGAR data call, 1/11/2010.
135.   	DoD OSD, response to SIGAR data call, 1/11/2010.
136.   	CSTC-A, response to SIGAR data call, 1/4/2010.
137.   	CSTC-A, response to SIGAR data call, 10/2/2009.
138.   	CSTC-A, response to SIGAR data call, 1/4/2010.
139.   	CSTC-A, response to SIGAR data call, 1/4/2010.
140.   	CSTC-A, responses to SIGAR data call, 10/2/2009 and 1/4/2010.
141.   	CSTC-A, response to SIGAR data call, 1/4/2010.
142.   	IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 10/4/2009; CSTC-A, response to SIGAR data call, 10/2/2009.
143.   	DoS, response to SIGAR data call, 1/6/2010.
144.   	DoS, response to SIGAR data call, 1/6/2010.
145.   	DoS, response to SIGAR data call, 1/6/2010.
146.   	DoS, response to SIGAR data call, 1/6/2010.
147.   	DoS, response to SIGAR data call, 1/6/2010.
148.   	DoS, response to SIGAR data call, 1/6/2010.
149.   	DoS, response to SIGAR data call, 1/6/2010.
150.   	DoS, responses to SIGAR data call, 10/2/2009 and 1/6/2010.
151.   	DoS, response to SIGAR data call, 1/6/2010.
152.   	DoS, response to SIGAR data call, 1/6/2010.
153.   	DoS, response to SIGAR data call, 1/6/2010.
154.   	Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 5.
155.   	DoS, response to SIGAR data call, 1/6/2010.
156.   	DoS, response to SIGAR data call, 1/6/2010.
157.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 105, accessed online 12/28/2009.
158.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 106, accessed online 12/28/2009.
159.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 105, accessed online 12/28/2009.
160.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 106, accessed online 12/28/2009.
161.   	DoS, response to SIGAR data call, 1/6/2010.
162.   	UNAMA, “Mine Action Programme of Afghanistan Newsletter: November 2009,” accessed online 12/27/2009.
163.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 100, accessed online 12/28/2009.
164.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 114, accessed online 12/28/2009.
165.   	DoS, response to SIGAR data call, 1/6/2010.




                                                      150                   Special inspector general        I   Afghanistan reconstruction
                                                               Endnotes




166.   	DoS, response to SIGAR data call, 1/6/2010.
167.   	DoD, “Marines Start Operation in Helmand Province,” 12/4/2009.
168.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 128, accessed online 12/28/2009.
169.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 129, accessed online 12/28/2009.
170.   	NATO, “NTM-A Backgrounder,” accessed online 1/18/2010.
171.   	NATO, “NATO’s New Training Mission for Afghanistan Is Activated in Kabul,” 11/21/2009.
172.   	NATO, “NTM-A Fact Sheet,” accessed online 1/18/2010; NATO, “NTM-A Backgrounder,” accessed online 1/18/2010.
173.   	NATO, “NATO’s New Training Mission for Afghanistan Is Activated in Kabul,” 11/21/2009.
174.   	NATO, “Helping secure Afghanistan’s future,” accessed online 1/18/2010.
175.   	NATO, “NATO Ministers agree on key priorities for Afghanistan,” 10/23/2009.
176.   	NATO, “Statement on Afghanistan by Ministers of Foreign Affairs of Nations Participating in the International Security Assistance Force
        (ISAF),” 12/4/2009.
177.   	UN Security Council, Resolution 1890, 10/8/2009.
178.   	White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
179.   	DoD, “Statement on Afghanistan to the Senate Armed Services Committee,” 12/2/2009.
180.   	IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
181.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 102, accessed online 12/28/2009.
182.   	JIEDDO, Annual Report FY 2008, p. 5.
183.   	IJC, response to SIGAR vetting, 1/21/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
184.   	DoD, “Program Rewards Afghans in Anti-IED Effort,” 12/9/2009; Landmine Monitor, “Landmine Monitor Report 2009,” p. 104, accessed online
        12/28/2009.
185.   	JIEDDO, Annual Report FY 2008, p. 4.
186.   	Report of the UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 5.
187.   	Landmine Monitor, “Landmine Monitor Report 2009,” p. 101, accessed online 12/28/2009.
188.   	CENTCOM, “Task Force To Focus on Afghan IED Threat,” 11/12/2009.
189.   	JIEDDO, “Teams Trained for Multiagency, Multinational Afghanistan Counter‐IED Strategy,” 10/13/2009.
190.   	JIEDDO, “Teams Trained for Multiagency, Multinational Afghanistan Counter‐IED Strategy,” 10/13/2009.
191.   	JIEDDO, “Teams Trained for Multiagency, Multinational Afghanistan Counter‐IED Strategy,” 10/13/2009.
192.   	JIEDDO, “Teams Trained for Multiagency, Multinational Afghanistan Counter‐IED Strategy,” 10/16/2009.
193.   	CENTCOM, “Task Force To Focus on Afghan IED Threat,” 11/12/2009.
194.   	CENTCOM, “Task Force To Focus on Afghan IED Threat,” 11/12/2009.
195.   	IJC, response to SIGAR vetting, 1/21/2010.
196.   	DoD, “Bomb Technicians Lead Fight Against IEDs,” 10/15/2009.
197.   	CRS, “Mine-Resistant, Ambush-Protected (MRAP) Vehicles: Background and Issues for Congress,” 8/3/2009, p. 1.
198.   	DoD, “Clearing the Way: Engineers Hunt Roadside Bombs,” 1/4/2010.
199.   	DoD, “CORRECTED VERSION: Agencies Work to Field, Support M-ATVs,” 10/16/2009.
200.   	DoD, “Forces in Afghanistan Seize Bomb Materials,” 11/10/2009.
201.   	CENTCOM, “Task Force To Focus on Afghan IED Threat,” 11/12/2009.
202.   	DoD, “Program Rewards Afghans in Anti-IED Effort,” 12/9/2009.
203.   	DoD, “Bomb Technicians Lead Fight Against IEDs,” 10/15/2009.
204.   	DoD, “Program Rewards Afghans in Anti-IED Effort,” 12/9/2009.
205.   	ISAF, “Mortars Turned In at PRT Base,” 1/8/2010.
206.   	UN, “Upcoming Afghan Conference Will Help Promote Post-Election Dialogue—Ban,” 11/28/2009; White House, “Remarks by the President in
        Address to the Nation on the Way Forward in Afghanistan andPakistan,” 12/1/2009, accessed online 12/2/2009.
207.   	Government of the United Kingdom, “Afghanistan: The London Conference,” accessed online 1/8/2010.
208.   	White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
209.   	White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
210.   	DoS, response to SIGAR data call, 1/6/2010.
211.   	IEC, “On IEC 02 November 09 Decision,” 11/2/2009.
212.   	UN, “Report of the Secretary-General: The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 4.
213.   	CIA, “CIA Factbook: Afghanistan,” accessed online 1/4/2010; UN, “Report of the Secretary-General: The Situation in Afghanistan and Its
        Implications for International Peace and Security,” 12/28/2009, p. 4.
214.   	UN, “Report of the Secretary-General: The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, p. 4;
        UNAMA, “UN Envoy: Political Strategy Key to Success in Afghanistan,” 1/3/2010.
215.   	Wolesi Jirga, “The Government Introduces 16 Gov Nominees to Wolesi Jirga,” 1/9/2010.
216.   	Wolesi Jirga, “The Government’s 10 Nominees Couldn’t Receive the Votes of Confidence,” 1/16/2010.
217.   	GIRoA, “The Afghanistan National Development Strategy,” p. 62.
218.   	GIRoA, “The Afghanistan National Development Strategy,” p. 63.




          Report to the united states congress           I   January 30, 2010                 151
                                                                Endnotes




219.   	GIRoA, “The Afghanistan National Development Strategy,” p. 64.
220.   	DoS, response to SIGAR data call, 1/5/2010.
221.   	Transparency International, “Corruption Perception Index 2009,” accessed online 1/11/2010.
222.   	DoS, response to SIGAR data call, 1/5/2010.
223.   	USAID, “Assessment of Corruption in Afghanistan,” 1/15–3/1/2009, p. 1.
224.   	OPIC, response to SIGAR data call, 1/5/2010.
225.   	SIGAR, “Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support to Become an
         Effective Anti-Corruption Institution,” 12/16/2009.
226.   	GIRoA, “The Afghanistan National Development Strategy,” p. 64.
227.   	DoS, response to SIGAR data call, 1/6/2010.
228.   	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 8.
229.   	USAID, response to SIGAR data call, 1/5/2010.
230.   	USAID, response to SIGAR data call, 1/5/2010.
231.   	DoS, response to SIGAR data call, 1/6/2010.
232.   	DoS, response to SIGAR data call, 1/5/2010.
233.   	 UN, “Report of the Secretary-General: The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/28/2009, pp. 3–4.
234.   	DoS, response to SIGAR data call, 1/6/2010; UN, “Report of the Secretary-General: The Situation in Afghanistan and Its Implications for
         International Peace and Security,” 12/28/2009, pp. 4–5.
235.   	UN, “Report of the Secretary-General: The Situation in Afghanistan and its Implications for International Peace and Security,” 12/28/2009, pp. 4–5.
236.   	UNAMA, “UN Envoy To Tell Security Council: Demilitarize Approach in Afghanistan,” 1/4/2010; CRS, “Afghanistan: Politics, Elections, and
         Government Performance,” 11/2/2009.
237.   	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 9.
238.   	Afghan Constitution, “Article One Hundred Six,” 1/26/2004; Afghan Constitution, “Article One Hundred Seven,” 1/26/2004.
239.   	DoS, response to SIGAR data call, 1/6/2010.
240.   	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009.
241.   	INL, response to SIGAR data call, 1/9/2010.
242.   	DoS, response to SIGAR data call, 1/6/2010.
243.   	CIA, “CIA Factbook: Afghanistan,” accessed online 12/28/2009; UN, “UN Population Fund Helping Afghanistan Design First-Ever National
         Census,” 8/29/2002, accessed online 12/28/2009.
244.   	GIRoA, “The Afghanistan National Development Strategy,” p. 196.
245.   	UNFPA, “Afghanistan,” accessed online 12/28/2009; CSO, “Greetings: CSO Homepage,” accessed online 12/28/2009.
246.   	CIA, “CIA Factbook: Afghanistan,” accessed online 12/28/2009; UN, “UN Population Fund Helping Afghanistan Design First-Ever National
         Census,” 8/29/2002, accessed online 12/28/2009.
247.   	CIA, “CIA Factbook: Afghanistan,” accessed online 12/28/2009.
248.   	DoS, response to SIGAR data call, 1/5/2010.
249.   	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 2.
250.   	GIRoA, “The Afghanistan National Development Strategy,” p. 65.
251.   	INL, response to SIGAR data call, 1/9/2010.
252.   	INL, response to SIGAR data call, 1/9/2010; SIGAR, “Quarterly Report to the United States Congress,” 10/30/2009, pp. 89–90.
253.   	Wolesi Jirga, “The Government’s 10 Nominees Couldn’t Receive the Votes of Confidence,” 1/16/2010.
254.   	INL, response to SIGAR data call, 1/9/2010.
255.   	INL, response to SIGAR data call, 1/9/2010.
256.   	INL, “Afghanistan Program Overview,” accessed online 1/12/2010; INL, response to SIGAR data call, 1/9/2010.
257.   	INL, response to SIGAR data call, 1/9/2010.
258.   	INL, response to SIGAR data call, 1/9/2010.
259.   	INL, response to SIGAR data call, 1/9/2010.
260.   	INL, response to SIGAR data call, 1/9/2010.
261.   	DoS, response to SIGAR data call, 1/5/2010; INL, response to SIGAR data call, 1/9/2010.
262.   	DoS, response to SIGAR data call, 1/5/2010.
263.   	DoS, response to SIGAR data call, 1/5/2010.
264.   	DoS, response to SIGAR data call, 1/5/2010.
265.   	INL, response to SIGAR data call, 1/9/2010.
266.   	INL, response to SIGAR data call, 1/9/2010.
267.   	INL, response to SIGAR data call, 1/9/2010.
268.   	DoS, response to SIGAR data call, 1/5/2010.
269.   	INL, response to SIGAR data call, 1/9/2010.
270.   	AIHRC, “Report on the Situation of Economic and Social Rights in Afghanistan IV,” 11/2009–12/2009, p. iii.
271.   	GIRoA, “The Afghanistan National Development Strategy,” p. 13.




                                                        152                    Special inspector general         I   Afghanistan reconstruction
                                                             Endnotes




272. 	UNHCR, “Global Appeal: Afghanistan, 2010–2011,” 12/1/2009, p. 2; UNHCR, “Displacement and Return of Afghan Refugees and IDPs 2002-
       2004,” accessed online 1/16/2010.
273. 	UNHCR, “Global Appeal: Afghanistan, 2010–2011,” 12/1/2009, p. 2.
274. 	UNHCR, “Joint Communique: Visit of UN Refugee Agency Chief António Guterres to Pakistan,” 8/28/2008; UNAMA, “Pakistan Assures UNHCR
       of Its Continued Hospitality Towards Registered Afghans,” 12/31/2009.
275. 	UNIFEM, “Women in Afghanistan,” accessed online 1/14/2010.
276. 	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, pp. 11, 13.
277. 	UNDP, “MDG 3: Promote Gender Equality and Empower Women,” accessed online 1/16/2010; CRS, “Afghanistan: Politics, Elections, and
       Government Performance,” 11/2/2009, p. 13.
278. 	UNDP, “MDG 3: Promote Gender Equality and Empower Women,” accessed online 1/16/2010.
279. 	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 11.
280. 	GIRoA, “The Afghanistan National Development Strategy,” p. 14.
281. 	UNIFEM, “What is the NAPWA?” accessed online 1/14/2010.
282. 	GIRoA, “The Afghanistan National Development Strategy,” p. 14.
283. 	MRRD, “Literacy Rate for All Age in Rural Afghanistan,” 10/2006.
284. 	UNDP, “MDG 3: Promote Gender Equality and Empower Women,” accessed online 1/16/2010.
285. 	AIHRC, “Report on the Situation of Economic and Social Rights in Afghanistan IV,” 11/2009–12/2009, p. 4.
286. 	UNDP, “MDG 3: Promote Gender Equality and Empower Women,” accessed online 1/16/2010.
287. 	DoS, “International Religious Freedom Report 2009: Afghanistan,” 10/26/2009.
288. 	DoS, “International Religious Freedom Report 2009: Afghanistan,” 10/26/2009; UN, “Afghanistan: UNODC Helps Improve Justice System,”
       12/17/2009.
289. 	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 11.
290. 	CRS, “Afghanistan: Politics, Elections, and Government Performance,” 11/2/2009, p. 11.
291. 	White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
292. 	DoS, response to SIGAR data call, 1/6/2010.
293. 	DoS, response to SIGAR data call, 1/6/2010; CENTCOM, “Sweden,” accessed online 1/13/2010.
294. 	USAID, “Provincial Reconstruction Teams,” accessed online 12/9/2009.
295. 	DoS, response to SIGAR data call, 1/6/2010.
296. 	USAID, “Afghanistan’s Provinces: Paktya,” accessed online 1/13/2010.
297. 	USAID, “Afghanistan’s Provinces: Paktya,” accessed online 1/13/2010; USAID, “ACAP,” accessed online 1/13/2010; USAID, “Food Insecurity
       Response for Urban Populations,” accessed online 1/13/2010; USAID, “Local Governance and Community Development,” accessed online 1/13/2010.
298. 	USAID, “Afghanistan: Parwan,” accessed online 1/18/2010.
299. 	USAID, “Afghanistan: Kapisa,” accessed online 1/18/2010; CSTC-A, response to SIGAR data call, 1/4/2010.
300. 	USAID, “Afghanistan: Kapisa,” accessed online 1/18/2010.
301. 	U.S. Air Force, “PRT Dedicated to Development in Kapisa,” 8/2/2009.
302. 	USAID, “Projects Earn Trust in Tagab,” 12/30/2008.
303. 	USAID, “Afghanistan: Farah,” accessed online 1/18/2010.
304. 	USAID, “Access to Information Increases in Farah,” 5/2009.
305. 	NATO, “Farah PRT Completes Construction of Public Library,” 1/11/2009.
306. 	Oslo Embassy, “Military Contribution,” accessed online 1/14/2010; USAID, “Balkh,” accessed online 1/14/2010; CENTCOM, “Sweden,” accessed
       online 1/14/2010.
307. 	Oslo Embassy, “Embassy Background,” accessed online 1/14/2010.
308. 	Oslo Embassy, “Multilateral Cooperation,” accessed online 1/14/2010.
309. 	British Embassy in Afghanistan, “Overview of Provincial Reconstruction Team,” accessed online 1/13/2010.
310. 	British Embassy in Afghanistan, “Some Achievements Since 2006,” accessed online 1/13/2010.
311. 	Czech Republic, “Czech-led PRT in Logar Province,” accessed online 1/13/2010.
312. 	Czech Republic, “Three Girl Schools Completed in Logar,” 10/28/2009.
313. 	Czech Republic, “Czech Republic Making a Difference in Afghanistan,” accessed online 1/13/2010.
314. 	White House, “Press Briefing by Senior Administration Officials on the President’s West Point Speech,” 12/1/2009, p. 2, accessed online 1/10/2010.
315. 	 USAID, response to SIGAR data call, 7/2/2009; GIRoA, CSO, National Account Tables, accessed online 1/29/2010.
316. 	GIRoA, CSO, National Account Tables, accessed online 12/2/2009.
317. 	IMF, “October 2009 Regional Economic Outlook,” Statistical Appendix, 10/2009, p. 44.
318. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 3.
319. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 3.
320. 	MAIL, “Agriculture Prospects Report,” 9/8/2009, p. 1.
321. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 3.
322. 	Treasury, response to SIGAR data call, 1/5/2009.
323. 	GIRoA, CSO, National Account Tables, accessed online 12/2/2009.




        Report to the united states congress           I   January 30, 2010                  153
                                                            Endnotes




324. 	Treasury, response to SIGAR data call, 1/5/2009.
325. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 4.
326. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 4.
327. 	World Bank, “Afghanistan Economic Update,” 9/2009, p. 4.
328. 	Da Afghanistan Bank, “Annual Economic and Statistical Bulletin,” 1387 (2008–2009), p. 93.
329. 	MISFA, “Assessing the Demand for Savings Services among Microfinance Clients in Afghanistan,” 10/1/2009, p. iv.
330. 	MISFA, “Assessing the Demand for Savings Services among Microfinance Clients in Afghanistan,” 10/1/2009, p. 1.
331. 	MISFA, “Assessing the Demand for Savings Services among Microfinance Clients in Afghanistan,” 10/1/2009, p. 2.
332. 	MISFA, “Assessing the Demand for Savings Services among Microfinance Clients in Afghanistan,” 10/1/2009, p. 2.
333. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. 33.
334. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, pp. 16, 34–35.
335. 	 USAID, response to SIGAR data call, 10/2/2009.
336. 	USAID, “Kabul Sanitation Department Initiates New Project to Remove Solid Waste as Part of a USAID Program,” 12/30/2009.
337. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. 40.
338. 	USAID, “Afghanistan Bi-weekly Program Highlights, November 1–30, 2009,” 11/30/2009, pp. 6, 7.
339. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. 1.
340. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. ii.
341. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased, But an Updated Master Plan Is Needed, and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. 4.
342. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. 2.
343. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. ii.
344. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. 7.
345. 	 SIGAR, Audit 10-6, “Contract Delays Led to Cost Overruns for the Kabul Power Plant and Sustainability Remains a Key Challenge,” 1/20/2010, p. 13.
346. 	SIGAR Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/16/2010, p. 2.
347. 	SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased But an Updated Master Plan Is Needed and Delays and Sustainability Concerns
       Remain,” 1/16/2010, p. 5.
348. 	USAID, press release, “One Step Closer to a Brighter Future: Turbine Delivery a Multi-national Effort to Aid the Afghan People,” 12/30/2008.
349. 	USAID, “Afghanistan Bi-Weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 3.
350. 	ISAF, ISAF Mirror, Issue #50, “ANSF and ISAF Successfully Deliver a New Turbine to Kajaki Dam,” 9/2008, p. 20.
351. 	USAID, USAID FrontLines, “Convoy Delivers USAID Turbine to Kajaki Dam,” 10/2008, pp. 1, 11.
352. 	DoS, Official Transcript: Ambassador Eikenberry on Radio Azadi, 12/17/2009, p. 5.
353. 	USAID, response to SIGAR data call, 1/5/2010.
354. 	CSIS, “The Northern Distribution Network and the Modern Silk Road,” 12/2009, p. 1.
355. 	Statement of General Duncan J. McNabb, USAF, Commander, U.S. Transportation Command, before the Defense Subcommittee of the U.S.
       House of Representatives Appropriations Committee, 3/5/2009, p. 2.
356. 	CSIS, “The Northern Distribution Network and the Modern Silk Road,” 12/2009, p. 1.
357. 	 CARE, “Knowledge on Fire: Attacks Against Education in Afghanistan,” 9/2009, p. 1.
358. 	CARE, “Knowledge on Fire: Attacks Against Education in Afghanistan,” 9/2009, p. 21.
359. 	CARE, “Knowledge on Fire: Attacks on Education in Afghanistan,” 9/2009, p. 2; 2006 and 2007 numbers are based on the UNICEF database,
       and 2008 numbers are from the Afghan Ministry of Education database.
360. 	CARE, “Knowledge on Fire: Attacks on Education in Afghanistan,” 9/2009, p. 26.
361. 	CARE, “Knowledge on Fire: Attacks on Education in Afghanistan,” 9/2009, p. 30.
362. 	CARE, “Knowledge on Fire: Attacks on Education in Afghanistan,” 9/2009, p. 33.
363. 	USAID, response to SIGAR data call, 1/15/2010.
364. 	CARE, “Knowledge on Fire: Attacks on Education in Afghanistan,” 9/2009, p. 24.
365. 	USAID, “Afghanistan Bi-Weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 4.
366. 	USAID, “Afghanistan Bi-Weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 6.
367. 	USAID, “Afghanistan Bi-weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 5 ; USAID, press release, “Ministries of Public Health
       and Finance Launch New Health Service Partnerships after Signing 16 Contracts Worth $72 Million,” 11/4/2009.
368. 	USAID, “Afghanistan Bi-weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 5.
369. 	USAID, “Afghanistan Bi-weekly Program Highlights, November 1–30, 2009,” 11/30/2009, p. 5; USAID, response to SIGAR data call, 1/5/2010.
370. 	USAID, response to SIGAR data call, 1/5/2010.




                                                     154                   Special inspector general        I   Afghanistan reconstruction
                                                           Endnotes




371. 	USAID, response to SIGAR data call, 1/5/2010.
372. 	USAID, response to SIGAR data call, 1/5/2010.
373. 	GIRoA, CSO, National Account Tables, “Gross Domestic Product by Economic Activity: 2002/02–2008/09,” accessed online 12/2/2009; World
       Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. 6.
374. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. vi.
375. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, pp. vi–vii.
376. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. vi.
377. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. 7.
378. 	 USDA, Foreign Agricultural Service, “Afghanistan,” 1/2009.
379. 	GIRoA, CSO, National Account Tables, “Gross National Product by Economic Activity in Constant Price 2002/2003,” accessed online 12/2/2009.
380. 	USDA, Foreign Agricultural Service, Commodity Intelligence Report, “Afghanistan: Wheat Production Recovers in 2009/10 Season,” 6/10/2009,
       pp. 1–2, accessed online 12/2/2009.
381. 	USDA, Definition for MODIS Satellite-Aqua NDVI, accessed online 1/14/2010.
382. 	MAIL, “Agriculture Prospects Report,” 9/8/2009, p. 5.
383. 	MAIL, “Agriculture Prospects Report,” 9/8/2009, p. 1.
384. 	 World Food Program, “Afghanistan Food Security Monitoring Bulletin,” 5/2008, accessed online 12/3/2009; World Bank, “Afghanistan Economic
       Update,” 9/2009, p. 9.
385. 	UNODC, “Afghanistan Opium Survey,” 9/2009, Executive Director’s Commentary and p. 25.
386. 	DoS, “U.S. Government Agriculture Sector Programs in Afghanistan and Upcoming Travel to the Region,” 1/07/2009, accessed online 1/10/2010.
387. 	DoS, “U.S. Government Agriculture Sector Programs in Afghanistan and Upcoming Travel to the Region,” 1/7/2009, accessed online 1/10/2010.
388. 	USDA, Foreign Agricultural Service, Fact Sheet, “USDA at Work for Agriculture in Afghanistan,” 11/2009.
389. 	USDA, Foreign Agricultural Service, press release, “USDA Employee Volunteers to Help Rebuild Afghanistan’s Agricultural Sector,” 11/20/2009.
390. 	DoS, Embassy of the United States in Afghanistan, press release, “Agriculture Secretary Vilsack Announces up to $20 million for Capacity
       Building Efforts in Afghanistan,” 1/12/2010, p. 1, accessed online 1/13/2010.
391. 	U.S. Senate, Office of U.S. Senator Christopher S. Bond, “Agriculture Development Teams: Sowing the Seeds of Peace in Afghanistan,” 12/2008,
       accessed online 1/10/2010.
392. 	DoS, “U.S. Government Agriculture Sector Programs in Afghanistan and Upcoming Travel to the Region,” 1/7/2009, accessed online 1/10/2010.
393. 	U.S. Senate, Office of U.S. Senator Christopher S. Bond, “Agriculture Development Teams: Sowing the Seeds of Peace in Afghanistan,” 12/2008,
       accessed online 1/10/2010.
394. 	 DoS, “U.S. Government Agriculture Sector Programs in Afghanistan and Upcoming Travel to the Region,” 1/7/2009, accessed online 1/10/2010.
395. 	USAID, “World Famous Afghan Apples Exported to India for the First Time,” 11/12/2009.
396. 	USAID, press release, “USAID Teaches Goat Herders To Harvest and Sell Cashmere,” 10/24/2009.
397. 	CIA, “World Factbook”, updated 11/30/2009, accessed online 12/30/2009.
398. 	DoS, “Background Note: Afghanistan,” p. 7, accessed online 12/30/2009.
399. 	IMF, “October 2009 Regional Economic Outlook,” Statistical Appendix, p. 44; USGS, press release, “Significant Potential for Undiscovered
       Resources in Afghanistan,” 11/13/2007.
400. 	USAID, press release, “Silk Production Revived Near Ancient Silk Road,” 10/1/2006.
401. 	GIRoA, “Afghanistan National Development Strategy, 1387–1391,” 2008, p. 147.
402. 	GIRoA, “Afghanistan National Development Strategy, 1387–1391,” 2008, p. 4.
403. 	GIRoA, “Afghanistan National Development Strategy, Energy Sector Strategy, 1387–1391,” 2/2008, p. 21.
404. 	DoS, “Background Note: Afghanistan,” accessed online 12/30/2009.
405. 	UNODC, “Afghanistan Opium Survey,” 9/2009, Executive Director’s Commentary and p. 25.
406. 	Library of Parliament, “Afghanistan: Economic Activity and Policy Challenges,” Publication PRB 07-29E, 11/21/2007, p. 1.
407. 	World Bank, “The Afghanistan Investment Climate in 2008,” 11/20/2009, p. x.
408. 	Library of Parliament, “Afghanistan: Economic Activity and Policy Challenges,” Publication PRB 07-29E, 11/21/2007, p. 3.
409. 	World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 1.
410. 	World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 1.
411. 	GIRoA, Ministry of Mines, “The Bid Submission Date for the Hajigak Tender Bids Extended,” accessed online 1/12/2010.
412. 	USGS, press release, “Significant Potential for Undiscovered Resources in Afghanistan, 11/13/2007.
413. 	Afghan Geological Survey, Ministry of Mines, “Minerals in Afghanistan,” accessed online 1/9/2010.
414. 	USGS, press release, “Significant Potential for Undiscovered Resources in Afghanistan,” 11/13/2007.
415. 	USGS, Fact Sheet 2009-3070, “Assessment of Undiscovered Petroleum Resources of Southern and Western Afghanistan, 2009,” 8/2009.
416. 	USDA, Foreign Agricultural Service, “Afghanistan,” 1/2009.
417. 	UN News Service, “Press Briefing by Spokesperson Adrian Edwards and by UN Agencies in Afghanistan, 5/8/2006, p. 3.
418. 	Library of Parliament, “Afghanistan: Economic Activity and Policy Challenges,” Publication PRB 07-29E, 11/21/2007, p. 4.
419. 	U.S. House of Representatives, Armed Services Committee, Statement of U.S. Ambassador Karl Eikenberry, 12/8/2009, p. 12.
420. 	Treasury, response to SIGAR data call, 1/5/2010.




        Report to the united states congress         I   January 30, 2010                155
                                                             Endnotes




421.   	DoD, “Drug Interdiction and Counter Drug Activities, Defense (Counternarcotics),” 2009, p. 81.
422.   	U.S. Senate, “Statement of Ambassador Karl Eikenberry Before the Senate Foreign Relations Committee,” 12/9/2009, p. 3.
423.   	CRS, CRS-R40156, “War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” 12/3/2009, p. 49.
424.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 7.
425.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 64.
426.   	ANDS, “Counter Narcotics Strategy 1387–1391 (2007/08–2012/13),” p. 18.
427.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 8.
428.   	Embassy of the United States, “Ambassador Wayne Presides of Pledge of $38.7 Million for Good Performers Initiative,” accessed online 12/2/2009.
429.   	DoD OSD, response to SIGAR data call, 1/6/2010.
430.   	DoD OSD, response to SIGAR data call, 1/6/2010.
431.   	CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, pp. 30–31.
432.   	ISAF, “ISAF Forces Capture Large Cache of Narcotics,” accessed online, 1/8/2010.
433.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 11.
434.   	DoD OSD, response to SIGAR data call, 1/6/2010.
435.   	GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6.
436.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 49.
437.   	UNODC, “Afghanistan Opium Survey: December 2009,” pp. 7, 9.
438.   	DoS, response to SIGAR data call, 1/9/2010.
439.   	DoS, “Special Briefing on Secretary Clinton’s Recent trip to Afghanistan and Pakistan,” accessed online 12/2/2009.
440.   	U.S. Senate, “Afghanistan’s Narco War: Breaking the Link Between Drug Traffickers and Insurgents,” accessed online 12/10/2009.
441.   	DoS, response to SIGAR data call, 1/9/2010.
442.   	USAID, “Agriculture and Alternative Development,” accessed online 12/2/2009.
443.   	USAID, “Press Release: USAID-Funded Programs Train Hundreds in Agricultural Skills,” 12/8/2009.
444.   	USAID, “Agriculture and Alternative Development,” accessed online 12/2/2009.
445.   	CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, p. 25.
446.   	DoS, Embassy of the United States in Afghanistan, press release, “Agriculture Secretary Vilsack Announces Up to $20 Million for Capacity
        Building Efforts in Afghanistan,” 1/12/2010, p. 1, accessed online 1/13/2010.
447.   	CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, p. 18.
448.   	CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, p. 44.
449.   	Embassy of the United States, “Ministry of Counternarcotics Opens Road in Poppy-free Shakardara District through Good Performer’s
        Initiative,” accessed online 1/8/2010.
450.   	DoS, response to SIGAR vetting, 1/19/2010.
451.   	UN, “Debate on Agenda Item 105: International Drug Control,” accessed online 12/9/2009.
452.   	CRS, CRS-RL32686, “Afghanistan: Narcotics and U.S. Policy,” 10/7/2009, p. 42.
453.   	DoS, response to SIGAR data call, 1/9/2010.
454.   	DoS, response to SIGAR data call, 1/9/2010.
455.   	DoS, response to SIGAR data call, 1/9/2010.
456.   	DoS, response to SIGAR data call, 1/9/2010.
457.   	DoS OIG, Report No. MERO-A-10-02, “Status of the Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics
        Programs in Afghanistan: Performance Audit,” 12/2009, p. 22.
458.   	Transparency International, “Corruption Perceptions Index 2009,” accessed online 1/7/2009.
459.   	DoS OIG, Report No. MERO-A-10-02, “Status of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Programs in
        Afghanistan: Performance Audit,” 12/2009, p. 22.
460.   	DoS OIG, Report No. MERO-A-10-02, “Status of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Programs in
        Afghanistan: Performance Audit,” 12/2009, pp. 22–23.
461.   	DoS OIG, Report No. MERO-A-10-02, “Status of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Programs in
        Afghanistan: Performance Audit,” 12/2009, p. 23.
462.   	DoS OIG, Report No. MERO-A-10-02, “Status of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Programs in
        Afghanistan: Performance Audit,” 12/2009, p. 23.
463.   	DoS OIG, Report No. MERO-A-10-02, “Status of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Programs in
        Afghanistan: Performance Audit,” 12/2009, pp. 23–24.
464.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 67.
465.   	UNDOC, “Afghanistan Opium Survey: December 2009,” p. 8.
466.   	UNODC, “Afghanistan Opium Survey: December 2009,” p. 67.




                                                      156                   Special inspector general       I   Afghanistan reconstruction
SIGAR
Special Inspector General




                                                     SIGAR | Quarterly Report to the United States Congress | Oct 30, 2009
for Afghanistan Reconstruction

2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




    Cover Captions (clockwise from top left):
    An Afghan opium addict says goodbye to
    his friends as he leaves the former Rus-
    sian Cultural Center, where drugs are often
    bought and used, to join the Drug Treat-
    ment and Rehabilitation Center, in Kabul.
    (Associated Press Photo)
    SIGAR recently inspected the construction
    of the regional logistical center as a part of
    the Joint Regional Afghan National Security
    Forces Compound (JRAC). (U.S. Army Corp
    of Engineers)
    An Afghan man and his family sells pomo-
    granate, an alternative crop to poppies, at
    a stall in Kabul (UN Office on Drugs and
    Crimes)                                                                                                                       In 2001, the Taliban destroyed the two oldest statues of Buddha in the world—the Bamiyan Buddhas. Today,
    Strengthening the size, independence, and
    capabilities of the Afghan security forces
    through training and mentoring is one of
    the top priorities for the U.S. government.
                                                     4                                                                             the Bamiyan Valley is Afghanistan’s first national park, drawing thousands of ecotourists to its ancient ruins
                                                                                                                             Quarterly Report                 to the      United States Congress
                                                                                                                                       and deep blue lakes. This quarter, UN officials urged the international community to help the Afghan
                                                                                                                                      government rebuild the monuments, and Afghan officials announced that an international conference
                                                                                                                                               will meet in Kabul in March to begin planning the project. (Photo by Tracy Hunter)
    (U.S. Air Force photo, Master Sgt. Jerry
    Morrison)
                                                                                                         sigar
SIGAR
Special Inspector General                                                                                                       Special Inspector General for   JAN 30
for Afghanistan Reconstruction




                                 SIGAR | Quarterly Report to the United States Congress | JAN 30, 2010
                                                                                                                                Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 4
                                 1                                                                       Quarterly Report to the United States Congress
